<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:00 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (chairwoman) 
presiding.
    Present: Senators Murkowski, Cochran, Blunt, Daines, 
Cassidy, Udall, Feinstein, Leahy, Reed, Tester, Merkley.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY HON. MIKE CONNOR, DEPUTY SECRETARY


              opening statement of senator lisa murkowski


    Senator Murkowski. Good morning. I would like to welcome 
everyone to the first hearing of our Interior Appropriations 
Subcommittee.
    A special welcome to our new members on the committee. We 
have Senator McConnell who has joined us. Senators Daines and 
Cassidy are new to the committee. I think on the other side, 
everybody is pretty much an old hand at this, so thank you for 
being with us this morning.
    Before we start with our witnesses, Secretary Jewell and 
Deputy Secretary Connor, I want to begin with just a couple of 
housekeeping matters for us. I intend to follow the early bird 
rule here in the committee for recognizing members for 
questions. I will call on members in the order in which you 
have arrived. We will go back and forth between the Majority 
and the Minority.
    My proposal is to do six minute rounds. I figure that is an 
appropriate time to have a good dialogue with the witnesses. My 
expectation is we will do two, hopefully three rounds, but 
really trying to accommodate everyone so that they have a fair 
opportunity to address the issues that they wish to raise.
    I also want to acknowledge Senator Reed for his excellent 
leadership on this subcommittee for the past couple of years. I 
am very pleased that you are staying with us on the committee, 
Senator Reed, but I have appreciated how you and I have been 
able to work on the committee under your leadership, and I 
thank you for that.
    I would like to recognize and welcome Tom Udall, our new 
ranking member on the committee. We have already had an 
opportunity to meet and talk about some of the priorities and 
issues that we share.
    Senator Udall shared with me that he has already climbed 
the tallest mountain in our State. My hope is--you and I call 
it ``Denali''--that we can actually make that permanent. I have 
a bill I will talk to you about later. I thank you for your 
engagement and your work as we move forward with the committee.
    Finally, before turning to the Department of the Interior's 
budget, I think it is important for all of our members and the 
public to hear from me as the subcommittee chairman that we 
will be marking up an Interior bill this year. We are going to 
do it. It has been 5 years since that has happened. I feel 
pretty strongly that we need to get back to regular order.
    I think we appreciate that within this particular 
subcommittee we have some issues under our jurisdiction that 
are perhaps are a little more thorny than in some of the other 
committees, but that should not keep us from advancing to a 
markup.
    I think it is our job to take up the tough issues and work 
together to produce legislation that reflects the collective 
will of the members, and I intend to do just that, working with 
Senator Udall here.


                             budget request


    Turning to the budget request for the Department, and 
again, Secretary Jewell, thank you, Deputy Secretary Connor, 
thank you for being here. The budget request is $12.1 billion 
for programs within this subcommittee's jurisdiction. This 
includes $200 million for a proposal similar to last year, 
which allows certain firefighting costs to be appropriated as 
disaster funds. The budget request is almost $1.4 billion above 
the current year spending levels.
    Secretary, I noted when you were before the Energy 
Committee last week that the request violates the Budget 
Control Act. It ignores those statutory caps that are imposed 
by the BCA, and proposes new spending as if we had already 
moved to lift sequestration.
    As I mentioned in that committee, and I will repeat here, I 
do think that demonstrates wishful thinking and not the 
governance we need with this budget.
    Putting aside the discretionary spending request, there are 
other proposals in your budget to establish new mandatory 
spending totaling $2 billion. The request includes $500 million 
for the LWCF program in 2016, and $500 million per year for 3 
years in the new mandatory spending for the Park Service 
Centennial.
    Unfortunately, there are no specific offsets for these 
spending increases.
    Somewhat stunningly to me, when oil prices have fallen 
dramatically, the Department indicates that it will propose a 
host of new fees and royalty rate increases on energy producers 
that will exceed $2.5 billion. Energy producers are already 
fleeing our public lands because of regulatory headaches and 
permitting delays. I am looking at this and saying I do not see 
how making it more expensive and difficult to do business on 
public lands is good, sound policy, or good for the U.S. 
Treasury.
    I think you noted yourself, Secretary, at the Energy 
hearing, you said it is hard to do business on our Federal 
lands. We need to do better. We must do better.
    There are certainly some things in this budget that I can 
support. We have the addressing of the backlog of maintenance 
in our national parks. That is something that I hope we can 
agree should be a priority for us. Also, fully funding contract 
support costs for our Native Americans.
    The concern that I have with the budget in front of us is 
that in many cases, it avoids the tough choices that must be 
made between programs in the constrained fiscal environment in 
which we are operating.
    In all likelihood, we will have roughly the same amount to 
spend this year as we did last year under the budget caps, and 
yet we have a budget, a proposed budget, that is $1.4 billion 
above that level.
    This committee is forced to make some very difficult 
choices in how to prioritize among the many programs within the 
bill, and unfortunately, the budget does not help by giving us 
guidance as to the programs that the administration sees as its 
priorities.
    Madam Secretary, when you appeared before the Energy 
Committee last week, I raised with you a number of recent 
actions that the administration has taken of late that either 
has or has the potential to do enormous damage to my State.
    I mentioned the withdrawal of over 22 million more acres of 
Alaska from energy production. This has occurred on top of many 
other restrictions and regulations being imposed on us. These 
withdrawals have occurred despite the tremendous energy 
potential in those areas, despite the pressing need to refill 
our pipeline, and despite extreme opposition from most 
Alaskans.
    Finally, I mentioned at the hearing in Energy that beyond 
energy, we still have the issue of King Cove that is yet 
unresolved. Last Monday marked 14 long months since the 
rejection of the necessary life saving, again, ten mile, one 
lane gravel non-commercial use road, and yet there is nothing 
in the budget to help those whose lives are needlessly in 
danger.
    I was informed this morning that since the Energy hearing 
last week, there have been yet two more Medivac's out of King 
Cove, until the time we are here this morning. One was a Coast 
Guard Medivac, the other private.
    I mention to my colleagues here at the committee these 
issues again so that you are aware that these are priorities 
not just for me but priorities for Americans that live in 
perhaps some very unique and different situations. I intend to 
do what I can to address and correct what I see are clear 
deficiencies and failures there.
    Again, my thanks to the Secretary and appreciate the time 
you will give us this morning. We do have votes, two votes, 
that are beginning at 11:30. We will try to move quickly 
through it.
    I want to recognize my ranking member, Senator Udall, for 
his comments at this time.


                     statement of senator tom udall


    Senator Udall. Thank you, Chairwoman Murkowski, and good 
morning and also welcome to the new members, Senators Cassidy 
and Daines.
    Since this is my first hearing as ranking member of the 
Interior Appropriations Subcommittee, let me begin by saying 
how honored I am to serve in this position. The Interior 
Appropriations bill, I believe, is an essential tool to protect 
our Nation's rich, natural and cultural resources. It is our 
way to honor our commitment to American Indians and Alaskan 
Natives.
    The programs funded by this bill are also incredibly 
important to New Mexico, and I look forward to using this 
position to ensure that our remarkable natural resources are 
protected and managed responsibly.
    Let me also say how pleased I am to serve under the 
leadership of my new chairman, Senator Murkowski. There will be 
times when the Senator from Alaska and I will have to disagree, 
but I know there are many areas of common interests where we 
can work together. We have had some very good productive visits 
and I look forward to many more.
    Madam Chairman, I can say without hesitation, I look 
forward to working with you as we move through the 
appropriations process this year, and I think it is a very good 
move that you say we are going to do a markup. I think that is 
a healthy part of the appropriations process, and I think we 
need to move our bills.
    I also want to take a moment to thank our immediate past 
chairman, Senator Jack Reed. Over the last 4 years, Senator 
Reed worked very hard and in the face of some very difficult 
political issues to pass Interior bills that protected major 
environmental laws, and he supported critical conservation 
priorities. He had tremendous success, and I would like to 
thank him for his leadership.
    Turning to the budget request, I am pleased to welcome 
Secretary Jewell and Deputy Secretary Connor before the 
subcommittee. I look forward to working more closely with both 
of you. You have given us a lot to discuss this morning.
    This request clearly demonstrates the investments that we 
can make if Congress and the President work together to end 
sequestration and revisit the spending limits in the Budget 
Control Act.
    Secretary Jewell, you proposed to increase the budget for 
the Department in fiscal year 2016 by 11 percent. That is more 
than $1 billion in new spending for the programs in your 
Department, and it is, I must say, a bold vision.
    Your budget includes a 17 percent increase to help the 
National Park Service to prepare for its 2016 Centennial. It 
also includes new funding to manage other public lands, fund 
energy development activities, and address climate change.
    I want to thank you for your commitment to Tribal programs 
and for requesting a large increase for Indian education. That 
funding is long overdue.
    I am also glad to see that your request again proposes to 
reform the Federal Wildland Firefighting budget by authorizing 
a new disaster cap adjustment to pay for the costs of the most 
catastrophic wildfires.
    I also want to applaud you and the President for making a 
strong statement on the Land and Water Conservation Fund. In 
your request, LWCF just celebrated, as you know, its 50th 
anniversary, and it is up for reauthorization. Your support has 
never been more important or more timely.
    I especially appreciate the increases for New Mexico 
priorities, including land acquisition, construction projects, 
Indian land and water claim settlements, as well as funding to 
support the newest national parks and monuments in our State.
    As good as this budget request is, however, it is important 
to remember it is just a proposal. Until the law is changed, 
Congress has to live with the spending limits set by the Budget 
Control Act. That means non-defense discretionary programs like 
those in this budget request are facing a freeze in fiscal year 
2016. A freeze does not even cover the costs of basic fixed 
cost increases, let alone the new investments in this budget.
    In other words, many of the things in this budget will 
never happen if we do not end sequestration. We all need to ask 
ourselves, how is this Congress going to get serious about 
supporting important discretionary programs like these?
    I want to commend Secretary Jewell for giving us an 
excellent place to start that conversation, and thank you very 
much, both you and Deputy Secretary Connor, for being with us. 
Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall. I know that 
Senator Cochran has another Appropriations hearing that he has 
to go to, and I want to give you the courtesy of making a 
statement before you leave, before we turn to the Secretary.


                   statement of senator thad cochran


    Senator Cochran. Thank you, Madam Chair. I appreciate the 
recognition, but I am not going to take time away from the 
other Senators who have already been here and are awaiting 
their turn.
    I want to ask unanimous consent that my statement be 
printed in the record.
    I join you in welcoming the distinguished Secretary to our 
hearing and I am looking forward to working with her and the 
officials at her Department to see that the intent and specific 
authorization and appropriations language is respected as we go 
through this next fiscal year.
    We appreciate the cooperation that we received in special 
attention to the Mississippi Band of Choctaw Indians located in 
our State on Reservation lands and elsewhere. They are a very 
important part of our State's economy and attraction as a 
tourist destination, and also part of the living history that 
our State has contributed to our country.
    I also want to support especially the Gulf of Mexico energy 
security legislation allowing Gulf States to receive specific 
portions of the revenues derived from offshore leases and 
production of oil and gas in the Eastern Gulf of Mexico, and 
the attention of the committee to assuring this is appreciated.
    I ask unanimous consent that the balance of my remarks and 
my statement be printed in the record.
    Senator Murkowski. Senator Cochran, your full opening 
statement will be included as part of the record.

    [Clerk's note: Senator Cochran did not submit additional remarks 
for the record.]

    Senator Murkowski. If any other members have any statements 
they would like to have incorporated, they will be as well.

    [Clerk's note: Members did not submit any additional statements.]

    Senator Murkowski. With that, I would like to turn to the 
Secretary, recognizing that we probably have a lot of questions 
and a limited amount of time here this morning. With that, 
welcome to the committee, Secretary Jewell.

                 SUMMARY STATEMENT OF HON. SALLY JEWELL

    Secretary Jewell. Thank you. Good morning, Chairman 
Murkowski, Ranking Member Udall, Chairman Cochran, and members 
of the subcommittee. Thanks for the opportunity to testify 
today on the Department of the Interior's fiscal year 2016 
budget request.
    I want to thank you for the collaborative working 
relationship we have with the subcommittee and acknowledge and 
thank Leif, Rachel, and the subcommittee staff for the hard 
work they do on the budget.
    Joining me today is Deputy Secretary Mike Connor.
    I submitted a detailed statement for the record, so I will 
be brief in these opening remarks.

                             BUDGET REQUEST

    This is a forward looking budget providing targeted 
investments to grow our domestic energy portfolio, creating 
jobs here at home, building community resilience, and 
revitalizing our national parks as they approach their 100th 
anniversary.
    Our budget invests in science to help us understand natural 
resources on a landscape level and to apply that understanding 
to better manage America's assets for the long term.
    Importantly, the budget also helps fulfill our Nation's 
commitments to American Indians and Alaskan Natives, including 
significant and much needed investment to help improve 
education for Indian children.

                    LAND AND WATER CONSERVATION FUND

    I want to emphasize our investments in our national parks 
and public lands, places special to our Nation but which also 
boost local economies. On the 50th anniversary of the Land and 
Water Conservation Fund Act, the budget proposes full funding 
of $900 million annually for LWCF programs. This is dollar for 
dollar one of the most effective Government programs that we 
have.

                    NATIONAL PARK SERVICE CENTENNIAL

    Next year will mark another important milestone in our 
Nation's history. The National Park Service will celebrate its 
100th anniversary, and this budget makes investments to launch 
a historic effort to celebrate and revitalize national parks 
and public lands.
    The discretionary and mandatory portions of the budget 
include a $150 million matching fund to leverage private 
donations to parks, and $859 million to provide critical 
maintenance investments in high priority assets. Additional 
funding of $43 million will provide staff to improve the 
visitor experience and support the expected influx of visitors 
during and after the Centennial.

                              CIVIL RIGHTS

    We will also commemorate this year the 50th anniversary of 
the Voting Rights Act. The budget proposes $50 million to 
restore and highlight key sites that tell the story of the 
struggle for civil rights, such as the Selma to Montgomery 
National Historic Trail, and the Martin Luther King, Jr. 
National Historic Site.
    One of my top priorities is connecting young people to the 
great outdoors and our rich history and culture. We need to 
inspire and engage the next generation to be scientists, 
engineers, and stewards of our Nation's most prized assets, 
particularly as 40 percent of the Department's workforce will 
be eligible to retire very soon.

                                 YOUTH

    This budget proposes over $107 million for Interior's youth 
programs, to provide opportunities for our Nation's young 
people to play, to learn, to serve, and to work on public 
lands. We will accomplish this through partnerships with youth 
conservation corps, schools, organizations like the YMCA and 
the National League of Cities, and private businesses.

                             INDIAN AFFAIRS

    Next, I want to highlight the administration's continued 
commitment to Tribal self determination and strengthening 
Tribal communities. I recently visited Arizona to launch the 
administration's Native American Youth Listening Tour, to give 
young people in Indian country the opportunity to engage with 
Cabinet members directly about the challenges they face.
    My recent trip to the Arctic also included meeting with 
youth leaders in Kotzebue who are helping their classmates cope 
with personal challenges.
    Across the Federal family, agencies are committed to 
working together to better coordinate our services to more 
effectively serve American Indians and Alaskan Natives.
    This budget holds the promise for a brighter future for 
Indian youth through education, for Native American communities 
through economic growth and social services, and for improving 
the stewardship of Trust resources.
    We are requesting $2.9 billion for Indian Affairs, an 
increase of 12 percent, which includes full funding of contract 
support costs that Tribes incur as they deliver services for 
Tribal members.
    The Generation Indigenous Initiative includes an $1 billion 
investment in Indian education to support a comprehensive 
transformation of the Bureau of Indian Education to better 
serve and support Tribes in educating their youth.

                                 ENERGY

    When it comes to powering our Nation, the budget continues 
to invest in both renewable and conventional energy, so we can 
diversify our domestic energy portfolio, cut carbon pollution, 
and reduce our dependence on foreign oil. The budget includes 
$100 million for renewable energy activities, helping us fast 
track projects like the SunZia Project in New Mexico. We also 
propose a total of $658 million for conventional energy 
programs.

                                SCIENCE

    This budget invests in science and technology initiatives 
to support energy development, to create economic 
opportunities, to help communities build resilience.
    The budget includes $1.1 billion for research and 
development activities that range from scientific observations 
of the earth to applied research to better address problems 
such as invasive species and coastal erosion.

                           COASTAL RESILIENCE

    I recently visited Kivalina, a village on the Northwest 
Coast of Alaska where I heard directly from residents about 
their concern for their personal safety as encroaching storms 
threaten to wash away their village.
    The budget includes a total of $147 million to fund 
projects to help coastal communities. Tribes, Insular areas and 
land management bureaus use this science and technology to 
strengthen community and ecosystem resilience.

                                 WATER

    Finally, I want to touch on water and fire. Western States 
are on the front lines of dealing with both drought and 
catastrophic wildfires. The budget includes $1.1 billion for 
the Bureau of Reclamation to support water availability 
projects, Indian water rights settlements, ecosystem 
restoration, healthy watersheds, sustainable secure water 
supplies, and the WaterSMART program, to address drought and 
other water supply issues across the West.

                             WILDLAND FIRE

    This budget also renews the call for a new funding 
framework for wildfire suppression, similar to how the costs 
for other natural disasters are met. The initiative proposes 
base level funding of 70 percent of the 10 year average for 
suppression costs within the discretionary budget, and an 
additional $200 million available in the event of the most 
severe fire activity, which comprises only 1 percent of the 
fires but 30 percent of the costs.
    This is a common sense proposal that would help ensure that 
USDA and the Interior do not have to rob our budgets for fire 
prevention in order to fight the Nation's most catastrophic 
fires.
    In closing, this is a smart and balanced budget that 
enables the Department to carry out these important missions. I 
look forward to discussing these issues and many other 
important investments proposed in this budget with you during 
your questions. Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Sally Jewell
    Ms. Chairman, Ranking Member Udall, and members of the 
subcommittee, I am pleased to present the 2016 President's budget for 
the Department of the Interior.
    This is a forward-looking budget that invests in Interior's key 
missions so we can continue to serve the American people. This budget 
provides investments to grow our domestic energy portfolio, to 
revitalize our national parks as they approach their 100th anniversary 
and celebrate all of our public lands, and to strengthen science and 
management across all bureaus. The budget also helps fulfill our 
Nation's commitments to American Indians and Alaska Natives, including 
a significant and much-needed investment to help improve education for 
Indian children.
    Interior's programs and activities serve as economic engines in 
communities across the Nation, contributing an estimated $360 billion 
to the Nation's economy in 2013 and supporting more than 2 million 
American jobs. Of this total, energy and mineral development on 
Interior-managed lands and offshore areas generated more than $237 
billion of this economic activity and supported 1.1 million jobs. An 
estimated 407 million recreational visits to Interior lands--including 
national parks, wildlife refuges and public lands--contributed $41 
billion and supported nearly 355,000 jobs nationwide. Water supply, 
grazing and timber activities, primarily on public lands in the West, 
contributed nearly $63 billion and supported more than 400,000 jobs. In 
2016, the Department will generate an estimated $13.8 billion in 
Federal receipts; these funds are deposited in the Treasury and serve 
to offset the cost of general government services, support a range of 
specific Federal programs, and support State and local governments 
through various revenue sharing arrangements.
                              2016 budget
    The 2016 budget proposal is $13.2 billion, an increase of 8 
percent, over the 2015 enacted level. This total includes a proposed 
$200 million budget cap adjustment to ensure critical funds are 
available in the event of a catastrophic fire without requiring harmful 
transfers from other Interior programs that support land management and 
operations. It includes $11.9 billion for Interior programs funded by 
the Interior, Environment, and Related Agencies appropriation, and $1.1 
billion for Interior's Bureau of Reclamation and the Central Utah 
Project Completion Act, funded in the Energy and Water Development 
Appropriations Act. The budget would generate $5.6 billion in savings 
over 10 years through legislative reform proposals, including oil and 
gas management reforms to encourage diligent development of Federal 
energy resources while providing a fair return to taxpayers from 
royalty and other reforms.
    The 2016 budget enables the Department to carry out its important 
mission by maintaining core capabilities and proposing investments in 
key priorities. This budget lays the groundwork for the future while 
meeting current commitments. The programs in this request emphasize 
partnerships, public engagement in Interior's places and programs, 
comprehensive upfront resource planning, tribal self-determination and 
self-governance, and increased scientific understanding leveraged with 
advanced tools and open access to data.
    Importantly, the President's budget proposes to end sequestration, 
fully reversing it for domestic priorities in 2016, matched by equal 
dollar increases for defense funding. The last time sequestration was 
in full effect, the Congressional Budget Office estimated it reduced 
the gross domestic product by 0.6 percentage points and cost 750,000 
jobs. But beyond the economic impacts, these across-the-board cuts also 
had severe programmatic impacts. At the Department of the Interior, 
sequestration required cuts to the Payments in Lieu of Taxes (PILT) 
program and mineral payments to States, slowed down permitting of 
energy projects because of cuts to operation budgets, and further added 
to the deferred maintenance backlog at national parks and on other 
public lands. All of these cuts impact local economies.
   preserving and protecting america's natural and cultural resources
    The budget launches the National Parks Centennial to celebrate and 
revitalize national parks and public lands, and connect a new 
generation to the great outdoors. The budget includes funding in 2016 
to allow the National Park Service to make targeted, measurable 
upgrades over the next 10 years to all of its highest priority, non-
transportation assets, restoring and maintaining them in good 
condition. The budget also proposes $150 million in discretionary and 
mandatory funding for a Centennial Challenge matching program to 
leverage private donations to parks, and $100 million in mandatory 
funding for a Public Lands Centennial Fund that competitively awards 
funds to Federal land management agencies for signature projects and 
programs. The budget includes complementary initiatives in the Bureau 
of Land Management and the Fish and Wildlife Service to engage the 
American public with Interior's broad range of outdoor recreation and 
natural learning opportunities.
    To mark the 50th anniversary of the Voting Rights Act, the 2016 
budget proposes $50 million to restore and highlight key sites across 
the country that tell the story of the struggle for civil rights. 
State, local and tribal governments may also apply for grants to 
document and preserve stories and other sites related to the Civil 
Rights Movement.
    On the 50th anniversary of the Land and Water Conservation Fund 
(LWCF) Act, the budget requests Congress to support full funding for 
LWCF programs. The innovative, highly successful program reinvests 
royalties from offshore oil and gas activities into public lands, 
enabling access for sportsmen and hunters, protecting historic 
battlefields and providing grants to States for recreation and 
conservation projects. In 2016, the budget proposes a total of $400 
million in discretionary funding and $500 million in mandatory funding 
for LWCF programs. From Maine to Kansas and up to Washington and 
Alaska, the fiscal year 2016 request includes 105 projects in 39 
States. The budget also includes a legislative proposal to provide full 
mandatory funding for LWCF starting in 2017.
    The budget continues efforts to manage and promote the 
sustainability and resilience of ecosystems on a landscape scale, such 
as the California Bay-Delta, the Everglades, the Great Lakes, 
Chesapeake Bay, and the Gulf Coast. To protect and restore the American 
West's vast sage steppe landscape which supports abundant wildlife and 
significant economic activity, including recreation, ranching and 
energy development, the budget proposes an investment of $78.1 million.
    Interior spends over $140 million in current funding within the 
Arctic for activities that include science, energy, Indian Affairs and 
land management. As the United States assumes the 2-year Chairmanship 
of the Arctic Council in April, we recognize this is an important 
opportunity to work with all eight Arctic countries to address the 
impacts of rapid climate change in the region, improve economic and 
living conditions of the people who live there, and enhance Arctic 
Ocean safety, security, and stewardship. Interior bureaus will play a 
significant role in these activities, which provide an important 
opportunity to build the resilience of Arctic communities and the 
ecosystems upon which they depend.
        strengthening community resilience in a changing climate
    The budget includes increases to strengthen the resilience of 
communities--including tribes and insular areas--and ecosystems to 
climate impacts, such as increased flooding and drought. The budget 
builds on the success of the Department of Interior's (DOI) Hurricane 
Sandy Coastal Resilience Grant Program, proposing a competitive grant 
program that would restore natural coastal systems to help reduce 
flood, storm, and sea level rise risks. To complement that program, the 
budget proposes an increase of $30 million for the Challenge Cost-Share 
program, to be split evenly across the Bureau of Land Management (BLM), 
U.S. Fish and Wildlife Service (FWS), and National Park Service (NPS). 
The bureaus will prioritize projects to conserve and restore landscapes 
and resources vulnerable to change. Project funding will be leveraged 
with non-Federal investments to build resilience to inland threats such 
as drought, flooding, and wildfire. Proposed investments in the Bureau 
of Indian Affairs (BIA), FWS and the U.S. Geological Survey (USGS) 
specifically address the changing Arctic landscape and offer support to 
Alaska Native villages and other critically vulnerable communities in 
evaluating options for the long-term resilience of their communities. 
For example, the FWS is developing a demonstration project to enhance 
involvement of local people and subsistence users in the decisionmaking 
process for resource management on Federal lands. Through a pilot 
effort based at the Yukon National Wildlife Refuge, FWS and Native 
Alaskans are developing a draft fisheries cooperative management 
proposal to improve subsistence uses as the Kuskokwim River drainage 
changes. An additional $7.0 million is also provided for insular areas 
to address needs related to sea level rise.
    Tribes and other communities throughout the U.S. are already 
experiencing drought, intensifying wildfires, changes in plants and 
animals important to subsistence and cultural practices, impacts to 
treaty and trust resources, and coastal erosion and sea level rise. The 
budget provides a total of $50.4 million, a $40.4 million increase over 
2015, across nine BIA trust resource programs to support tribal 
communities in preparing for and responding to the impacts of climate 
change. Funds will provide support for tribes and Alaska Native 
villages to develop and access science, tools, training, and planning 
for building resilience.
    The budget renews the call for a new funding framework for wildland 
fire suppression, similar to how the costs for other natural disasters 
are met. The initiative proposes base level funding of 70 percent of 
the 10-year average for suppression costs within the discretionary 
budget and an additional $200 million available in the event of the 
most severe fire activity, which comprises only 1 percent of the fires 
but 30 percent of the costs. Wildland fire continues to be one our most 
important land management challenges. In January, I issued Secretarial 
Order 3336 that recognizes the critical importance of fire in 
protecting, conserving, and restoring the health of the sagebrush-
steppe ecosystem on which rural economies, wildlife--including the 
sage-grouse--and a way of life depend. Shortly, we will release our 
strategy for the 2015 fire season, to be followed by a long-term 
strategy for addressing rangeland fire prevention, management, and 
restoration. On a broader scale, the Department is firmly committed to 
the National Wildland Fire Cohesive Strategy and the three goals of 
restoring and maintaining fire-resilient landscapes, creating fire 
adapted communities, and safe and effective operations. In support of 
those goals, the budget reflects an integrated approach to wildland 
fire management, including $30.0 million for a Resilient Landscapes 
program to create landscapes that are resilient to wildfire through 
long-term, landscape scale, place-based projects. Resilient Landscape 
program projects will be accomplished through collaborative 
partnerships that include non-fire bureau resources and land management 
programs along with other Federal, tribal, State and non-governmental 
partners. The budget continues to include funding for the Fuels 
Management program to improve the integrity and resilience of forests 
and rangelands, contribute to community adaptation to fire, and improve 
our ability to safely and appropriately respond to wildfires.
    As part of the Bureau of Reclamation's proposed $1.1 billion budget 
for fiscal year 2016, the WaterSMART program would receive $58.1 
million to support water conservation initiatives and technological 
breakthroughs that promote water reuse, recycling and conservation, in 
partnership with States, tribes, and other partners. Reclamation will 
continue strong partnerships with local water and conservation managers 
to conduct ongoing comprehensive water studies of river basins in 
Arizona, California, Colorado, Montana, Oklahoma and Oregon. In 2015 
and 2016, the budget supports one or two new basin studies in the 
western U.S and one new West-wide climate risk impact assessment. In 
addition, Reclamation anticipates funding 40 new WaterSMART Grant 
projects that will contribute to water conservation. As part of 
WaterSMART, the USGS would receive $31.0 million to continue to advance 
the National Water Census to create a more accurate picture of the 
quality and quantity of the Nation's water resources. The USGS will 
support focus area studies in the Apalachicola-Chattahoochee-Flint 
Basin, the Colorado River Basin and the Delaware River Basin.
        powering the future through balanced energy development
    To enhance national energy security and create jobs in new 
industries, the budget invests in renewable energy development 
programs, providing about $100 million to review and permit renewable 
energy projects on public lands and offshore waters.
    In order to address the continuing legacy of abandoned mine lands 
on the health, safety, environment and economic opportunity of 
communities, the budget makes available to States and tribes $1 
billion, over 5 years, as part of the President's POWER+ Plan. Funding 
would come by accelerating payments from the unappropriated balances in 
the Abandoned Mine Land (AML) Reclamation Fund, administered by the 
Department of the Interior's Office of Surface Mining Reclamation and 
Enforcement. The budget also includes reforms to strengthen the 
healthcare and pension plans that provide for the health and retirement 
security of retired coal miners and their families.
    The budget invests in onshore energy permitting and oversight on 
Federal lands, with the BLM's oil and gas program receiving a 20 
percent increase in funding, compared to the 2015 enacted level. The 
National Defense Authorization Act included an important authority that 
allows the BLM to implement increased fees for Applications for Permit 
to Drill to provide the funding needed to quickly and efficiently 
process APDs. To further improve responsiveness to industry demand and 
workload, the 2016 budget proposes a new fee system to meet program 
needs on the back end through inspections. A strong inspection program 
fully funded through fees, estimated to be $48 million, will provide 
assurance BLM would not have to divert funds from processing permits or 
leasing activities in the event that appropriations for inspections did 
not keep pace with the workload associated with this critical 
responsibility. The inspection fee authority proposed for BLM is 
comparable to that already in place for offshore inspections. Coupled 
with the transition to the implementation of a new automated permitting 
system that eliminates paper applications, these budget resources will 
significantly strengthen the BLM's program management capacity.
    The budget request would fund Interior agencies overseeing oil and 
gas development on the Outer Continental Shelf as follows: $170.9 
million for the Bureau of Ocean Energy Management; and $204.7 million 
for the Bureau of Safety and Environmental Enforcement. The President's 
proposal also supports continued reforms to strengthen oversight of 
industry operations following the 2010 Deepwater Horizon oil spill, 
with an additional emphasis on risk management.
             supporting tribal sovereignty and native youth
    The budget maintains the administration's strong commitment to 
tribal self-determination and strengthening tribal communities. It 
provides increases across Federal programs that serve tribes, including 
a proposed 12 percent increase over the 2015 enacted level for the 
Bureau of Indian Affairs (BIA) and the Bureau of Indian Education. The 
budget includes a $26 million increase to fully fund Contract Support 
Costs that tribes incur from managing Federal programs, and a 
legislative proposal to reclassify Contract Support Costs as mandatory 
funding in 2017 in support of self-determination. The budget also 
capitalizes on the role of BIA as a broad ranging provider of Federal 
services by proposing to create a one-stop shop approach for 
facilitating tribal access to Federal programs across the U.S. 
Government. A total of $244.5 million is requested to resolve Indian 
water rights claims and implement enacted settlement commitments--
supporting sustainable water sharing and management, and providing 
critical infrastructure, jobs, and clean drinking water to some of the 
most impoverished communities in the Nation.
    The President's budget supports a new and integrated approach to 
addressing barriers to success for Native youth. The Generation 
Indigenous, or Gen-I, initiative takes a comprehensive approach to help 
improve the lives of and opportunities for Native youth. Gen-I includes 
a $1 billion investment in Indian education to support a comprehensive 
transformation of the Bureau of Indian Education (BIE). This multi-year 
process will transform the BIE into an organization that serves as a 
capacity builder and service provider to support tribes in educating 
their youth and deliver a world-class and culturally appropriate 
education across Indian Country.
                      engaging the next generation
    The future of the Country's natural, cultural, and historic 
heritage depends on the next generation of active stewards. Interior's 
unique assets provide an unparalleled opportunity to connect the next 
generation to the great outdoors and the Nation's rich history. 
Building on the President's vision for the creation of the 21st Century 
Conservation Service Corps and implementation of My Brother's Keeper, I 
launched a youth initiative to inspire millions of young people to 
play, learn, serve and work outdoors. There is a growing disconnect 
between young people and the great outdoors and it is a gap Interior 
can help bridge through public-private partnerships coordinated with 
all levels of government. Interior is expanding efforts to pass on our 
Nation's rich conservation legacy and to inspire millions of young 
people to play, learn, serve and work outdoors.
    The budget includes $107.2 million for youth programs across the 
Department, a $45.5 million increase from the 2015 enacted level. 
Within this increase, $20.0 million is provided to NPS for youth 
activities, including bringing one million elementary school children 
from low-income areas to national parks. This increase will also fund 
dedicated youth coordinators to help enrich children and families' 
learning experiences at parks and online.
    Our goal is to reach 10 million children through recreation 
programs, an additional 10 million children through environmental 
education programs, one million volunteers caring for our lands, and 
100,000 young adults and veterans working on public lands. To do this, 
we need to engage the private sector and create more public-private 
partnerships. I have a personal goal to raise $20 million for this 
endeavor and am happy to say we have received support from strong, 
enlightened companies like American Eagle Outfitters, Coca-Cola, 
CamelBak and The North Face. We can't do this alone, and we are 
actively involving partners from the private and nonprofit sectors to 
join us in creating a movement that helps prepare the next generation 
of stewards, policy-makers and leaders.
            legislative proposals and offsetting collections
    In 2016, the Department will generate an estimated $13.8 billion in 
Federal receipts; these funds are deposited in the Treasury and serve 
to offset the cost of general government services, support a range of 
specific Federal programs, and support State and local governments 
through various revenue sharing arrangements. The 2016 budget includes 
a number of revenue generating proposals estimated to result in savings 
to the Treasury of $5.6 billion over 10 years.
    Studies by the Government Accountability Office and Interior's 
Inspector General found taxpayers could earn a better return from DOI's 
oil and gas management programs through policy changes and more 
rigorous oversight. The budget proposes a package of legislative 
reforms to bolster administrative actions focused on advancing royalty 
reforms, encouraging diligent development of oil and gas leases, and 
improving revenue collection processes.
    The administration is also committed to ensuring American taxpayers 
receive a fair return from the sale of public resources and benefit 
from the development of offshore energy resources owned by all 
Americans. The budget proposes the Interior Department work with 
Congress to redirect the distribution of expanded revenue payments 
under the 2006 Gulf of Mexico Energy Security Act. These payments, 
allocated to just four States in the Gulf of Mexico, are expected to 
increase significantly starting in 2018. Under the administration's 
proposal, funds will instead be directed to programs that offer broader 
natural resource, watershed, and conservation benefits for the entire 
Nation, help the Federal Government fulfill its role of being a good 
neighbor to local communities, and support other national priorities.
    The budget includes a number of other legislative proposals, 
including full mandatory funding for the Land and Water Conservation 
Fund starting in 2017, full mandatory funding for Contract Support 
Costs starting in 2017, 3 years of mandatory funding for the National 
Parks and Public Lands Centennial, and a 1 year mandatory funding 
extension of the Payments in Lieu of Taxes program.
    The budget also includes a number of discretionary user fee 
proposals to offset certain costs to the taxpayer.
                           bureau highlights
    Bureau of Land Management.--The 2016 request is $1.2 billion, an 
increase of $107.6 million from the 2015 enacted level. The 2016 
request assumes the use of $64.5 million in proposed offsetting fees 
that provide an effective increase of $172.1 million above 2015. The 
2016 request includes $1.1 billion for the Management of Lands and 
Resources account, and $38.0 million in current appropriations for Land 
Acquisition, including $4.0 million to improve access to public lands 
for hunting, fishing, and other recreation. The budget proposes $107.7 
million for Oregon and California Grant Lands, which includes a $3.2 
million decrease in Western Oregon Resource Management Planning, 
reflecting expected completion of six revised plans in spring 2016.
    To advance America's Great Outdoors, the request includes $19.8 
million in program increases for BLM's Recreation Resources Management 
program, National Conservation Lands, and Cultural Resources Management 
program. This includes a $6.6 million increase to accelerate and 
enhance implementation of BLM's National Recreation Strategy--
Connecting with Communities, which will enable BLM to more aggressively 
develop partnerships with communities and service providers to 
encourage recreational opportunities on public lands. The funds will 
also be used for such activities as improving signage and 
interpretative exhibits and meeting accessibility standards at visitor 
centers. An increase of $11.2 million for the National Conservation 
Lands (also known as the National Landscape Conservation System) will 
enable BLM to accommodate the increased workload and responsibilities 
that have accompanied the addition of recently designated units. A $2.0 
million increase in Cultural Resources Management will enhance BLM 
capacity to preserve and protect the vast treasure of heritage 
resources on public lands. The budget request also includes $6.0 
million for youth programs, an increase of $5.0 million from 2015, to 
put more young Americans to work protecting and restoring public lands 
and cultural and historical treasures.
    The BLM continues to support the President's all-of-the-above 
energy strategy on public lands, including an initiative with important 
increases critical to BLM's ability to effectively manage onshore oil 
and gas development. The 2016 budget request for oil and gas management 
activities, including the request for direct and fee-funded 
appropriations and estimated mandatory appropriations, represents an 
increase of $29.1 million, or 20 percent, in total program resources 
over the 2015 enacted level. The additional resources will enhance the 
bureau's ability to process Applications for Permits to Drill more 
quickly and efficiently, accelerate the development and completion of 
master leasing plans in support of BLM's leasing reform efforts, and 
strengthen its inspection and oversight program. The $29.1 million 
total funding increase for BLM's Oil and Gas Management program 
includes a proposal to institute a fee system to support the inspection 
program. The estimated $48.0 million in collections generated from the 
inspection fees will reduce the need for direct appropriations for the 
program by $41.1 million while also providing for an increase of $6.9 
million above the amount appropriated in 2015 for this critical BLM 
management responsibility.
    The 2016 budget request includes an increase of $45.0 million, to 
support the increased workload and commitments required as 
implementation of the Greater Sage-Grouse conservation plans ramp up. 
The requested funds support activities that fall into three broad 
categories which involve both on-the-ground work and establishing the 
processes and organizational capability to plan and oversee the effort: 
managing resource uses in Greater Sage-Grouse habitats; restoring and 
reconnecting Greater Sage-Grouse habitats; and assessing, monitoring, 
and reporting on conditions in priority habitats.
    Other budget highlights include a $5.0 million program increase in 
the Resource Management Planning subactivity to expand BLM's 
Assessment, Inventory, and Monitoring program that will support 
increased data collection and monitoring needs central to the success 
of high priority landscape management efforts, such as the Western 
Solar Energy Plan, the implementation of the plan for the National 
Petroleum Reserve--Alaska, the Greater Sage-Grouse Conservation 
Strategy and the Department's broader landscape mitigation strategy. 
The request also includes an increase of $7.8 million to accelerate 
implementation of BLM's enterprise geographic information system, which 
aggregates data and viewing information across boundaries to capture 
ecological conditions and trends; natural and human influences; and 
opportunities for resource conservation, restoration, development, and 
partnering. The BLM's geospatial proposal is a critical component of 
Interior's growing enterprise geospatial capabilities and strategy. A 
$10.0 million increase in BLM's Challenge Cost Share program will be 
dedicated to projects that increase the resilience of landscapes in 
response to changing climate
    A proposed grazing administration fee will enhance BLM's capacity 
for processing grazing permits. A fee of $2.50 per animal unit month, 
estimated to provide $16.5 million in 2016, is proposed on a pilot 
basis. This additional revenue, which would be retained by BLM, more 
than offsets a decrease of $3.0 million in appropriated funds in 
Rangeland Management. The net increase of $13.5 million will allow BLM 
to expedite permit renewals and reduce the permit backlog.
    Bureau of Ocean Energy Management.--The 2016 operating request is 
$170.9 million, including $74.2 million in current appropriations and 
$96.6 million in offsetting collections. This is a net increase of $1.8 
million in current appropriations above the 2015 enacted level.
    The 2016 budget maintains a strong offshore renewable energy 
program at slightly above the 2015 level of $24.3 million for the total 
program. To date, the Bureau of Ocean Energy Management (BOEM) has 
issued seven commercial wind energy leases offshore Delaware, Maryland, 
Massachusetts, Rhode Island, and Virginia. In June 2014, BOEM issued 
the first outer continental shelf lease for marine hydrokinetic 
technology testing offshore Florida, and in November 2014, BOEM offered 
its first transmission right-of-way grant offshore Rhode Island.
    Offshore conventional energy programs are funded with an increase 
of $10.2 million, bringing total funding to $59.9 million in 2016. To 
date, under BOEM's Five-Year OCS Leasing Program for 2012-2017, six 
sales were held generating over $2.4 billion in high bids, and two 
additional lease sales are scheduled during calendar year 2015. The 
request includes an increase of $2.5 million for establishing a risk 
management program, to better protect the Federal Government and 
taxpayers from financial risks that may arise from unfunded 
decommissioning costs.
    Bureau of Safety and Environmental Enforcement.--The 2016 budget 
request is $204.7 million, including $82.5 million in current 
appropriations and $122.2 million in offsetting collections, 
essentially level with 2015. The request for offsetting collections 
assumes $65.0 million from offshore oil and gas inspection fees. The 
2016 request allows the Bureau of Safety and Environmental Enforcement 
(BSEE) to begin to establish a renewable energy inspection program, and 
continue to strengthen regulatory and oversight capability on the Outer 
Continental Shelf (OCS), and oil spill response prevention.
    The budget includes $189.8 million for Offshore Safety and 
Environmental Enforcement. The request includes a program increase of 
$1.7 million to establish an Engineering Technology Assessment Center 
to develop top-level engineering support for BSEE decisionmaking at all 
levels of the organization. Funding for Oil Spill Research is 
maintained at the 2015 level of $14.9 million.
    Office of Surface Mining Reclamation and Enforcement.--The 2016 
budget request for the Office of Surface Mining Reclamation and 
Enforcement is $160.5 million, an increase of $10.4 million from the 
2015 enacted level. The 2016 budget for Regulation and Technology is 
$128.4 million, an increase of $5.7 million above the 2015 level. The 
request includes $12.6 million, a program increase of $3.8 million 
above the 2015 level, to improve implementation of existing laws and 
support State and tribal programs. It also includes $65.5 million for 
State and tribal regulatory grants. This request fully funds estimated 
State requirements based on the return each year of an estimated $3 
million in previously appropriated regulatory grant funds by States.
    The 2016 budget for the Abandoned Mine Reclamation Fund is $32.1 
million, an increase of $4.7 million above the 2015 level. The budget 
includes a $2.0 million program increase for technical assistance to 
States, Tribes, and communities on Abandoned Mine Land (AML) site 
reclamation and area-wide reclamation planning and a $1.4 million 
program increase to evaluate AML program implementation, including 
identifying more effective and efficient tools for AML site 
identification, contract management, and program oversight. The 2016 
budget proposes to distribute an estimated $926.1 million in mandatory 
appropriations. This includes $385.3 million to noncertified States and 
tribes in reclamation grants and $540.8 million in payments to the 
United Mine Workers of America retiree health and pension plans. The 
administration proposes legislation to revitalize communities impacted 
by abandoned coal mines, reform current funding of abandoned coal mine 
land clean-up, increase funding for hardrock abandoned mine land clean-
up, and provide for retired coal miners and their families.
    U.S. Geological Survey.--The 2016 request is $1.2 billion, an 
increase of nearly $150 million above the 2015 enacted level. The 2016 
budget reflects the vital role the USGS plays in advancing the 
President's commitment to scientific discovery and innovation to 
support sustainable economic growth, natural resource management, and 
science-based decisionmaking for critical societal needs. The budget 
includes funding for science to inform land and resource management 
decisions, advance a landscape level understanding of ecosystems, and 
develop new strategies to support communities in responding to climate 
change, historic drought, water quality issues, and natural hazards. 
The budget also funds science to support the Nation's energy strategy 
and to help identify critical mineral resources and address the impacts 
of energy and mineral development on the environment.
    The 2016 budget provides an increase of $14.6 million above the 
2015 enacted level for science to support sustainable water management. 
The budget provides increased funding to support resource managers in 
managing competing demands related to water availability and quality 
and to enable adaptive management of watersheds. This includes a $3.2 
million increase for science to respond to drought, a $4.0 million 
increase for water use information and research, a $2.5 million 
increase to study ecological water flows, a $1.3 million increase for 
streamgages, and a $1.0 million increase to advance the National 
Groundwater Monitoring Network.
    The 2016 budget provides an increase of $11.0 million across the 
energy, minerals and environmental health portfolio for science to 
support the sustainable development of conventional and unconventional 
oil and gas resources; renewable energy sources such as geothermal, 
wind, and solar; critical minerals such as rare earth minerals; and 
address the environmental impacts of resource development such as 
uranium. These investments include $19.5 million, $5.3 million above 
2015, to support an interagency effort with the Department of Energy 
and the Environmental Protection Agency to better understand the 
potential impacts of unconventional oil and gas development.
    The budget includes a program increase of $1.0 million for mineral 
resources science to continue life-cycle analysis for critical minerals 
such as rare earth elements, and to develop new science and tools to 
reduce the impacts of minerals extraction, production, and recycling on 
the environment and human health. A life-cycle analysis will trace the 
flow of critical minerals from occurrence through interaction with 
society to ultimate disposal. The increase will support new workforce 
capability to address the main thrusts of the President's four working 
groups in the Office of Science and Technology Policy that are 
currently focused on critical and strategic materials essential to 
national security, economic vitality, and environmental protection.
    The budget provides increases totaling $6.6 million above the 2015 
enacted level for natural hazard science. This includes $4.9 million to 
expand the Global Seismic Network used for worldwide earthquake 
monitoring and tsunami warning and $1.7 million to support solar flare 
(space weather geomagnetic) monitoring which is critical to mitigating 
impacts to the electrical grid and other hazards. The budget supports 
the installation and operation of rapid-deployable streamgages to help 
manage flood response activities. The funding will increase volcano, 
landslide, wildfire, and sinkhole response capabilities as well as 
build on investments to continue development of an earthquake early 
warning system, with the goal of implementing a limited public warning 
system for the U.S. west coast by 2018.
    The budget includes $15.6 million to expand and enhance ecosystem 
science activities to increase the understanding of the Nation's 
landscapes. Increases totaling $6.7 million support research in 
critical landscapes, including $4.2 million for the Arctic, $1.0 
million to study sage steppe landscapes, and $1.5 million to support 
science for Puget Sound, Columbia River and the upper Mississippi 
River. USGS research will continue to support restoration of other 
priority ecosystems, such as Chesapeake Bay, Everglades, Great Lakes, 
California Bay-Delta, and Gulf Coast. Increases totaling $3.8 million 
support research on invasive and declining species, including $2.2 
million for invasive plants and animals and $1.6 million to study the 
decline of pollinating insects, birds, and mammals. The budget also 
requests $5.1 million to support coastal resilience and adaptation to 
long-term change from sea-level rise and coastal erosion.
    The President's budget request includes an increase of $37.8 
million to provide data and tools to help land and resource managers 
make informed decisions across the landscape and provide data and 
information to the public for use in a wide variety of applications. 
The budgets of USGS and the National Aeronautics and Space 
Administration provide complementary funding to sustain the Landsat 
data stream, which is critical to understanding global landscapes. 
Funding in the USGS budget supports the ground system portion of the 
Sustained Land Imaging Program, including funding for ground systems 
development for a Thermal Instrument Free Flyer, Landsat 9 (a rebuild 
of the Landsat 8), and to receive data from international partners. The 
budget also includes a $4.0 million increase for Landsat science 
products for climate and resource assessments.
    The budget provides increases for foundational data and tools 
needed to support landscape level understanding, increases for mapping, 
expanded lidar collection through the 3D Elevation Program, making data 
more easy to access and use under the Big Earth Data Initiative, and 
developing information and tools to assess ecosystem services and 
benefits. For example, an increase of $3.7 million will expand three-
dimensional elevation data collection in Alaska and elsewhere in the 
United States, mitigate the effects of coastal erosion, storms, and 
other hazards, and support many other critical activities. A $1.8 
million increase will enhance understanding of the benefits of the 
Nation's ecosystem services and a $1.1 million increase for the Big 
Earth Data Initiative will make high-value data sets easier to 
discover, access and use.
    The USGS plays an important role in conducting research and 
developing information and tools to support communities in preparing 
for, and responding to the impacts of global climate change. The budget 
includes an increase of $32.0 million for science to support climate 
resilience and adaptation. The budget includes a $6.8 million increase 
in science for adaptation and resilience planning and an increase of 
$2.3 million for the USGS to provide interagency coordination of 
regional climate science activities across the Nation, an increase of 
$9.1 million to support biological carbon sequestration, and $11.0 
million for the USGS to support the community resilience toolkit, which 
is a web based clearinghouse of data, tools, shared applications, and 
best practices for State, local and tribal resource managers, decision-
makers, and the public.
    Fish and Wildlife Service.--The 2016 budget for FWS totals $3.0 
billion, including current appropriations of $1.6 billion, an increase 
of $130.7 million compared to the 2015 level. The proposed funding 
level will allow the bureau to facilitate collaboration and action on 
the ground as the best way to preserve the wildlife and open spaces so 
important to the Nation. For this reason, I ask the committee remove 
the rider included in the Fiscal Year 2015 Appropriations Act that 
prevents the FWS from writing rules to list several species of sage-
grouse. Our approach to working collaboratively among Federal agencies, 
States and stakeholders could provide the path for conserving species 
so Endangered Species Act protection for both the bi-State and Greater 
Sage-Grouse is not necessary. The fiscal year 2015 rider has 
complicated implementation of the urgent work needed to protect the 
sagebrush-steppe from threats such as invasive species, fire and 
fragmentation. These threats impact not only the sage-grouse, but 350 
other species of wildlife and traditional economic activity like 
ranching, hunting and recreation central to the Western way of life. 
Absent effective conservation efforts to reduce or remove the threats 
now affecting the species, the likelihood of eventual listing of the 
Greater Sage-Grouse under the ESA will be increased.
    The budget includes $1.4 billion available under mandatory 
appropriations, most of which will be provided directly to States for 
fish and wildlife restoration and conservation. In 2016, a total of 
$1.5 billion in current funding is proposed for FWS as part of the 
administration's initiative to reconnect Americans to the outdoors. 
Creating opportunities for Americans to enjoy the outdoors through 
programs at FWS will help to ensure future generations appreciate and 
conserve natural resources and preserve natural places. Investments 
that support this effort in 2016 include $1.3 billion for FWS 
operations, an increase of $114.2 million over the 2015 level. The 
request includes $5.0 million for the National Wildlife Refuge System's 
Urban Wildlife Conservation Partnerships that will reconnect the 
Nation's urban populations with the outdoors. With 80 percent of the 
U.S. population currently residing in urban communities near more than 
260 wildlife refuges, using the Refuge System to help urbanites to 
rediscover the outdoors is a priority for FWS. The budget also requests 
$108.3 million for grant programs administered by FWS that support 
America's Great Outdoors goals. Within this amount is an increase of 
$11.3 million for the State and Tribal Wildlife grant program on which 
many States and tribes rely to fund non-game animal conservation. The 
request also includes program increases of $10.0 million for Challenge 
Cost Share projects and $5.0 million for the Joint Venture program to 
support cooperation with non-Federal partners to enhance the resilience 
of habitat to adapt to a changing climate.
    The budget proposes $16.8 million, an increase of $2.6 million, for 
activities associated with energy development. Of this increase, $1.4 
million supports scientific research into the impacts of energy 
transmission and development infrastructure on wildlife and habitat. 
The research will identify potential impacts associated with the 
development of energy infrastructure and strategies to minimize the 
impacts on habitat and species. An increase of $1.2 million for the 
Ecological Services Planning and Consultation program supports 
assessments of renewable energy projects proposed for development.
    The budget request for the Resource Management account continues 
support for key programs with program increases of $110.6 million above 
2015. The request provides $258.2 million in Ecological Services to 
conserve, protect, and enhance listed and at-risk species and their 
habitat, an increase of $32.3 million. Within this request are 
increases of $4.0 million to support conservation of the sage steppe 
habitat across 11 Western States and $4.0 million to support Gulf Coast 
restoration.
    The request includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $75.4 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and expand technical forensic expertise, with program increases 
of $8.0 million over 2015.
    The budget includes $147.5 million for Fisheries and Aquatic 
Resource Conservation, a program increase of $4.9 million. Within this 
request is $53.4 million for operation of the National Fish Hatchery 
System and a $2.4 million increase to prevent the spread of Asian carp 
in the Missouri, Ohio, upper Mississippi Rivers, and other high 
priority watersheds.
    Funding for Cooperative Landscape Conservation activity is $17.9 
million, an increase of $3.9 million, and funding for Science Support 
is $31.7 million, a program increase of $14.7 million. The budget 
supports applied science directed at high impact questions to mitigate 
threats to fish and wildlife resources, including $2.5 million to 
address white-nose syndrome in bats, an increase of $1.0 million to 
study biological carbon sequestration, and an increase of $1.0 million 
to analyze ecosystem services valuation.
    The 2016 budget proposes to eliminate the current funding 
contribution to the National Wildlife Refuge fund, a reduction of $13.2 
million below 2015. An estimated $8.0 million in mandatory receipts 
collected and allocated under the program would remain available to 
counties.
    National Park Service.--The 2016 budget request for NPS of $3.0 
billion is $432.9 million above the 2015 enacted level. The 2016 NPS 
budget request for operations is $2.5 billion. This is an increase of 
$239.4 million above the 2015 enacted level, consisting of $213.4 
million in program increases, and $25.3 million in fixed costs 
increases. Highlights of the 2016 budget include the increases for the 
Centennial. A $40.0 million increase to the Centennial Challenge 
program will provide an important Federal match to leverage partner 
donations for projects and programs at national parks in anticipation 
and support of the upcoming Centennial.
    Other changes include a $2.2 million programmatic reduction to 
refocus operations funding which partially offsets the following 
increases: $16.3 million to provide healthcare insurance to seasonal 
employees, $6.0 million to fund projects that will document and 
preserve civil rights history in the national park system, $3.5 million 
for climate change adaptation projects, $3.0 million to improve 
baseline cultural resource documentation at park units, and $2.5 
million for science priorities. The 2016 budget also broadens the scope 
of NPS programs contributing to the understanding of and preparing for 
the impacts of a changing climate. A $10.0 million program increase is 
requested in the Challenge Cost Share program for NPS to work with non-
Federal partners on projects that increase the resilience of landscapes 
in response to changing climate.
    The administration proposes an initiative to Celebrate Civil Rights 
in America in 2016 by commemorating the struggles undertaken by 
Americans to secure civil rights and liberties. The 2016 budget will 
provide resources to celebrate how those actions inspired many groups 
in America and around the world to continue to pursue progress for 
civil rights. The budget proposes increases of $50.0 million, including 
$6.0 million to fund projects that will document and preserve civil 
rights history in the national park system, and $1.5 million to address 
critical base operating NPS needs at sites such as the Harriet Tubman 
Underground Railroad National Historical Park in Maryland, and the 
Charles Young Buffalo Soldiers National Monument in Ohio. Also included 
in the $50.0 million initiative is $30.0 million for competitive 
historic preservation grants to preserve the stories and sites 
associated with the Civil Rights movement, and $2.5 million for grants 
specifically to Historically Black Colleges and Universities to 
document, interpret, and preserve the stories and sites associated with 
the progression of Civil Rights in America. Finally, $10.0 million will 
provide the necessary resources to complete high priority facility 
projects at NPS sites associated with the Civil Rights movement such as 
the Selma Interpretive Center at the Selma to Montgomery National 
Historic Trail, the Lincoln Memorial and the Martin Luther King, Jr. 
National Historic site.
    The 2016 request for the Historic Preservation Fund is $89.9 
million, an increase of $33.5 million. Of this total, $46.9 million is 
requested for grants-in-aid to States and Territories, which is level 
with 2015. A total of $10.0 million is requested for grants-in-aid to 
tribes, an increase of $1.0 million. The budget proposes to fund 
grants-in-aid to Historically Black Colleges and Universities through a 
$2.5 million increase, which is an important component of the Civil 
Rights initiative. Finally, the budget includes $30.5 million for 
competitive grants-in-aid, a $30.0 million increase for new competitive 
grants as part of the Civil Rights initiative, and $500,000 for the 
existing competitive grants targeted toward communities currently under 
represented on the National Register of Historic Places.
    The 2016 request includes $54.2 million for the National Recreation 
and Preservation account, a decrease of $8.9 million compared to 2015. 
These changes consist of a program reduction of $9.7 million to 
Heritage Partnership Programs, a programmatic increase of $703,000 for 
the National Register program to digitize records, a programmatic 
increase of $260,000 for the Federal Lands to Parks program, and fixed 
costs increases of $506,000.
    Programs funded out of the Land and Water Conservation Fund are a 
key strategy to enhance America's Great Outdoors. The budget requests 
$117.5 million for the Land Acquisition and State Assistance account, 
an increase of $18.5 million. This includes $53.2 million for the State 
Conservation Grants program, a programmatic increase of $5.0 million, 
and $64.3 million for NPS Federal land acquisition, a programmatic 
increase of $13.3 million. Of this amount, $16.3 million supports 
Collaborative Landscape projects.
    Funding for Construction totals $251.0 million, an increase of 
$112.6 million. Of this amount, the budget includes $153.3 million for 
line-item construction projects, a $91.7 million program increase 
compared to 2015. The request includes $8.7 million to provide seismic 
stabilization at the Mammoth Hotel at Yellowstone National Park and 
$3.0 million to rehabilitate the Selma Interpretive Center at the Selma 
to Montgomery National Historic Trail.
    Indian Affairs.--The 2016 budget for Indian Affairs is $2.9 
billion, $323.5 million above the 2015 level. This includes an increase 
of $231.4 million for Operation of Indian Programs; an increase of 
$32.0 million for Indian Land and Water Claim Settlements; an increase 
of $60.1 million for Construction; and level funding of $7.7 million 
for the Indian Guaranteed Loan program.
    The 2016 budget fully funds Contract Support Costs at $277.0 
million, an increase of $26.0 million above 2015. Based on the most 
recent analysis, the requested amount for 2016 will fully fund Contract 
Support Costs. To stabilize long-term funding and address programmatic 
concerns with Contract Support Costs, the 2016 budget also proposes--
for the first time--a legislative proposal to reclassify these costs as 
mandatory funding beginning in fiscal year 2017. Mandatory funding for 
Contract Support Costs will help stabilize this vital funding for 
Tribes and further self-governance and self-determination efforts.
    The budget contains a number of critical increases to support 
tribal nation-building and economic development. The budget capitalizes 
on the important role BIA plays as a broad provider of Federal services 
by proposing $4.0 million to establish the One-Stop Tribal Support 
Center to make it easier for tribes to find and access hundreds of 
services available to tribes across the Federal Government. The 2016 
budget includes $4.5 million to establish an Indian Energy Service 
Center to facilitate vital energy development in Indian Country of both 
conventional and alternative energy and to support assessment of the 
social and environmental impacts of energy development on tribal lands. 
A data initiative of $12.0 million is proposed to improve and expand 
access to quality data for tribal leaders and other decision makers. 
This funding will establish an Office of Indian Affairs Policy, Program 
Evaluation, and Data which will help the Department collect, analyze, 
and utilize evidence to support effective policy making and program 
implementation. Lastly, a $1.3 million increase for the Small and Needy 
Tribes program is proposed to assist eligible Tribes in expanding and 
sustaining tribal governance.
    The 2016 budget proposes an additional $15.0 million to expand 
Indian Affairs' capacity in current programs that address Indian child 
and family welfare and job training issues. The budget proposes program 
increases of $6.0 million for social services programs, $4.0 million 
for law enforcement special initiatives, and $5.0 million for tribal 
courts. The law enforcement increases will expand on pilot projects 
initiated in 2015 in which BIA law enforcement is implementing a 
comprehensive strategy to support alternatives to incarceration. 
Funding increases for these programs will be integrated with other 
funding increases across the Federal Government, including an 
additional $25.0 million to the Indian Health Service to address 
behavioral health issues, a $25.0 million increase to the Substance 
Abuse and Mental Health Services Administration for the Tribal 
Behavioral Health program, and a $132.0 million increase for the 
Administration for Children and Families for Tribal Child Care 
programs, cultural and language preservation programs, tribal child 
welfare programs, Tribal Head Start, and other native programs.
    The 2016 budget proposes a $1.0 billion investment in Indian 
education to support a comprehensive transformation of BIE. The multi-
year process will transform BIE into an organization that serves as a 
capacity builder and service provider to support tribes in educating 
their youth and deliver a world class and culturally appropriate 
education across Indian Country. The budget provides increases totaling 
$138.4 million for elementary and secondary school education activities 
funded by BIE and education construction. The request includes a 
program increase of $45.5 million in Elementary and Secondary 
education. An increase of $12.9 million will fully fund Tribal Grant 
Support Costs which, similar to Contract Support Costs, assists tribes 
that run their own schools by covering the costs of administering 
programs. The Education Program Enhancement program is increased by 
$10.0 million to encourage creative solutions for school 
transformations. Requested facility maintenance and operations 
increases totaling $20.0 million will provide essential preventive and 
routine maintenance and operating expenses so schools are operated in a 
safe and educationally conducive manner. The 2016 budget also includes 
a $34.2 million increase for education information technology to 
enhance broadband and digital access for students at BIE-funded 
schools.
    The budget requests a $58.7 million increase for Education 
Construction to support the education transformation. This includes a 
$25.3 million increase for replacement school construction to complete 
construction of the final two schools on the 2004 replacement school 
construction priority list: Little Singer Community School and Cove Day 
School, both in Arizona. A $17.7 million increase for facilities 
improvement and repair is requested for repairs to building structures 
and components necessary to sustain and prolong the useful life of 
education buildings. Additionally, the budget includes $11.9 million to 
address major facility replacement needs at schools like the Bug-O-Nay-
Ge-Shig school on the Leech Lake Band of the Ojibwe reservation. 
Lastly, an increase of $3.7 million is requested for employee housing 
repair which will complement a new $10.0 million set-aside proposed in 
the Department of Housing and Urban Development to address teacher 
housing needs.
    The 2016 budget also includes increases totaling $7.4 million to 
meet educational needs beyond the BIE elementary and secondary system. 
To further higher education, a $4.6 million increase is requested for 
scholarship and adult education and a $250,000 increase is requested 
for Special Higher Education Scholarships. The 2016 budget includes a 
$2.6 million increase for the Johnson O'Malley program to provide 
American Indian and Alaska Native students attending public schools 
with additional resources to meet their unique and specialized 
educational needs.
    The 2016 budget strongly supports the sustainable stewardship of 
trust lands, natural resources, and the environment in Indian Country. 
The budget includes program increases totaling $63.2 million for the 
trust natural resources and real estate services programs. The budget 
provides a total of $50.4 million, a $40.4 million increase over 2015, 
proposed across nine natural resource programs, to support tribal 
communities in sustainable resource management and in preparing and 
responding to the impacts of climate change, such as drought, 
wildfires, changes in the plants and animals important to subsistence 
and culture, rights protection, coastal erosion, and sea level rise.
    The budget includes a total increase of $16.2 million for trust 
real estate service activities to reinforce the stewardship of trust 
resources. The expanded capacity will address the probate backlog, land 
title and records processing, geospatial support needs, and database 
management in addition to providing expanded technical and legal 
support for authorized settlements involving tribal water rights. The 
BIA increases for water rights settlements represent a subset of 
increases totaling $73.0 million across the Department to support 
resolving tribal water rights claims and ensuring that tribes have 
access to use and manage water to meet domestic, economic, cultural, 
and ecological needs.
    Collectively, the 2016 budget proposes a total of $982.7 million in 
Tribal Priority Allocations, an increase of $56.2 million over the 2015 
level.
    The 2016 budget request for Indian Land and Water Claim Settlements 
is $67.7 million, a $32.0 million increase over the 2015 enacted level. 
Several funding increases demonstrate the administration's strong 
commitment to resolve tribal water rights claims to ensure tribes have 
access to use and manage water. Funding for the Taos Pueblos Indian 
Water Rights Settlement is increased by $13.8 million over 2015 for a 
total funding request of $29.2 million. This funding amount will 
constitute the final payment of the Taos Pueblo settlement. The Navajo-
Gallup Water Supply project is increased by $8.8 million to meet 
projected 2016 funding needs. The budget proposes a $9.4 million 
increase for the second year of funding for the Aamodt Settlement 
enacted as part of the Claims Resolution Act of 2010. The budget also 
contains increases of $14.1 million to provide expanded technical and 
legal support for tribal water rights settlement negotiations and 
implementation.
    The 2016 budget for the Indian Guaranteed Loan Program is $7.7 
million, equivalent to the 2015 enacted level. This will provide $113.8 
million in loan guarantee authority to support Indian economic 
development.
    Departmental Offices and Department-wide Programs.--The 2016 
request for the Office of the Secretary is $327.9 million, an increase 
of $62.7 million from the 2015 enacted level. The budget reflects an 
increase of $50.0 million for Coastal Resilience grants. The Coastal 
Resilience competitive grants will support the restoration and 
conservation of key ecological systems that protect communities and 
infrastructure from the impacts of coastal storms. In collaboration 
with State, local, and tribal governments, non-governmental 
organizations, universities, and other stakeholders, the program's 
goals are to mitigate the impacts of climate change on coastal and 
inland communities from storm wave velocity, salt water intrusion, 
erosion, flooding, sea level rise, and associated natural threats; and 
to strengthen the ecological integrity and functionality of coastal and 
inland ecosystems to protect communities and enhance the ability of 
Federal lands to support important recreational, wildlife, and cultural 
values. The program will also enhance understanding of the impacts of 
extreme weather events, the benefits of nature based infrastructure and 
ecosystem services, and identify cost-effective tools that help 
mitigate and support community resilience with future events. Such 
information, tools, and investments are of particular interest to 
vulnerable communities in Arctic Alaska, where villages are suffering 
the full impact of rapidly accelerating erosion rates and flooding due 
to loss of protective sea ice and degraded permafrost. As buildings are 
being claimed by the sea and critical infrastructure is threatened, 
representatives from Arctic villages and communities in coastal Alaska 
have repeatedly appealed for this type of support.
    The budget proposes an increase of $1.5 million for work with the 
National Invasive Species Council to develop an Early Detection Rapid 
Response framework in support of climate resilience efforts. Invasive 
species pose one of the greatest threats to the ecological, economic 
and cultural integrity of America's landscapes. Detecting invasive 
species early and rapidly responding to control their spread is one of 
the most cost effective strategies to mitigate their threat. The 
additional funding will support planning efforts for a coordinated 
invasive species early detection and rapid response framework with 
other Federal agencies, States, tribes and other partners. The funds 
also will be used to implement commitments identified in the 
Department's Invasive Species Action Plan, the National Invasive 
Species Council work plan, and the White House Priority Agenda--
Enhancing the Climate Resilience of America's Resources report. As with 
coastal resilience support, Governors and tribal leaders from across 
the country have appealed for coordination and support for early 
detection and rapid response efforts, and this was of particular 
interest to a task force of State, local, and tribal leaders eager to 
build resilience for their communities and lands.
    The budget proposes a $5.9 million and 18 FTE increase to support 
the Office of Natural Resources Revenue's Osage Tribal accounting 
activities, to expand ONRR's Geospatial Information Systems 
capabilities, and to expand on-shore production verification and data 
integration efforts. The budget for the Office of the Secretary also 
includes $3.0 million for the development of a Digital Service team, 
which will be responsible for driving the efficiency and effectiveness 
of the Department's highest-impact digital services.
    The budget request for the Office of Insular Affairs is $103.0 
million, an increase of $13.7 million from the 2015 enacted level 
excluding the Palau Compact Extension funding of $13.1 million. Within 
this amount, a program increase of $10.4 million is requested in Office 
of Insular Affairs and General Technical Assistance to increase the 
grant management staff to improve oversight, and address needs in the 
insular areas related to sea level rise by supporting development of 
infrastructure and community resilience initiatives. The Maintenance 
Assistance Fund request includes a program increase of $3.9 million to 
improve health and safety conditions in insular school facilities. The 
budget also requests a program increase of $1.5 million in Empowering 
Insular Communities to implement energy projects identified by the 
territories in their comprehensive sustainable energy strategies. Brown 
Treesnake Control is funded at $3.0 million, a program decrease of 
$500,000, which reflects completion of an automated aerial bait system 
in 2015. The budget requests $1.3 million for Compact Impact, a program 
decrease of $1.7 million from 2015. This funding is supplemented by 
$30.0 million annually in mandatory Compact Impact funding. The budget 
includes a mandatory proposal to fund the Palau Compact, as a result it 
does not include stopgap discretionary funding of $13.1 million 
provided in the 2015 appropriations process.
    The Solicitor's 2016 budget is $69.9 million, $4.1 million above 
the 2015 enacted level. Maintaining sufficient attorney resources to 
handle filed litigation, avoid potential litigation, and provide timely 
counseling is critical to ensuring that litigation risks are minimized. 
Front-end counseling is critical to realizing cost savings by either 
preventing litigation or narrowing the issues that might be challenged 
in litigation. The increase for legal services will allow for the 
continuation of existing services with sufficient resources to provide 
the Secretary and the Department the necessary legal services for the 
advancement of priority goals and other mission areas.
    The Office of Inspector General request is $52.2 million, an 
increase of $1.8 million compared to the 2015 enacted level. The 2016 
budget includes $423,000 in funding to support the Council of the 
Inspectors General on Integrity and Efficiency. The Inspector General 
estimates staffing will equal 286 full time equivalents in 2016.
    The Office of the Special Trustee request is $143.0 million, $3.9 
million above the 2015 enacted level. The budget includes an increase 
of $2.8 million in Program Operations and Support. A $1.6 million 
increase is requested in field operations to provide additional estate 
planning opportunities to Indian Trust beneficiaries. This will help 
stem the growth of both land fractionation in Indian Country and the 
number of Trust beneficiary estates that require probate. A $1.2 
million increase is requested in appraisal services for an appraiser 
training program to address the shortage of qualified appraisers and 
the resulting delays in completing appraisal evaluations. Lastly, a 
$1.0 million increase is requested in trust records to expand the 
records training program at Haskell Indian Nations University, create 
new records training programs at two additional tribal colleges, and 
fund the increased requirements related to the Department's email 
Enterprise Records and Document Management System initiative. The 
budget also includes a $972,000 reduction in funding for Office of 
Historical Trust Accounting based on anticipated workload levels.
    The 2016 request for the Department-wide Wildland Fire Management 
program is $805.5 million without the proposed fire cap adjustment, and 
$1.05 billion including the adjustment. The request includes $268.6 
million for fire suppression within the base budget, which is 70 
percent of the 10 year suppression average spending. The cap adjustment 
of $200.0 million would only be used for the most severe fires, since 
it is 1 percent of the fires that cause 30 percent of the costs. The 
new budget framework for Wildland Fire Management eliminates the need 
for additional funds through the FLAME Act.
    The 2016 budget requests $30.0 million in a new Resilient 
Landscapes subactivity to build on resilient landscapes activities 
supported by Congress in 2015. Congress provided $10.0 million for 
resilient landscapes activities in the 2015 Omnibus Appropriations Act 
by designating that amount within Fuels Management. While fuels 
treatments and resilient landscapes activities are complementary and 
synergistic, they also have distinct differences, including the 
methodology for prioritizing place-based projects and a leveraged 
funding requirement for resilient landscapes. Establishing a separate 
subactivity for Resilient Landscapes will assist the Department and 
Wildland Fire Management bureaus in tracking funds obligated and 
program accomplishments. The $20.0 million increase in funding will 
enable the Wildland Fire Management program to take better advantage of 
the shared goals of bureau resource management programs to treat large 
landscapes to achieve and maintain fire-adapted ecosystems that both 
reduce the threat of catastrophic wildfire and achieve restoration and 
other ecological objectives. The increase for Resilient Landscapes is 
partially offset with a program realignment of $17.7 million in the 
Fuels Management program from 2015; total funds for the combined Fuels 
Management and Resilient Landscapes subactivities are $14.3 million 
above 2015.
    The 2016 request for the Natural Resource Damage Assessment and 
Restoration program is $9.2 million, an increase of $1.5 million over 
the 2015 enacted level. The budget includes program increases of $1.5 
million for Restoration Support, $233,000 for Program Management, 
$100,000 for Inland Oil Spill Preparedness, and a program reduction of 
$448,000 for Damage Assessment reflecting a reallocation of funding to 
increase restoration activities.
    The budget includes $10.0 million for the Central Hazardous 
Materials Fund, equal to the 2015 enacted level.
    The Department's 2015 request for the Working Capital Fund 
appropriation is $74.5 million, an increase of $17.4 million from the 
2015 enacted level. Within this request is $53.9 million for the 
operation and maintenance of the Financial and Business Management 
System, an increase of $1.0 million to continue support of the 
Department's Cultural and Scientific Collections initiative, an 
increase of $702,000 for the Department's Service First initiative, and 
an increase of $5.2 million to support Interior's Office Consolidation 
strategy. The budget also includes an increase of $10.5 million to 
support Interior's multi-year effort to implement requirements 
identified under the Digital Accountability and Transparency Act, known 
as the DATA Act, and monitor compliance.
                         legislative proposals
    The 2016 President's budget includes a suite of legislative and 
offsetting collection proposals affecting spending, revenues, and 
available budget authority that require action by the congressional 
authorizing committees. These proposals address a range of 
administration priorities, from investing in high-priority conservation 
and recreation programs to achieving a fair return to the American 
taxpayer from the sale of Federal resources and reducing unnecessary 
spending. The 2016 budget includes seven spending proposals with $15.2 
billion in estimated outlays over the next decade. This spending is 
partially offset by revenue and savings proposals estimated to reduce 
outlays from the Treasury by more than $5.6 billion over the next 
decade.
    Bureau of Indian Affairs Contract Support Costs.--The budget 
includes a legislative proposal to reclassify the existing Contract 
Support Costs program from current to mandatory funding beginning in 
fiscal year 2017. Congress requested that both BIA and the Indian 
Health Service consult with tribes to develop a long-term approach to 
funding Contract Support Costs. The leading tribal recommendation was 
to provide funding for contract support costs as a mandatory 
appropriation. Beginning the reclassification in 2017 will allow time 
for tribal consultation in 2016 on operational details. The budget 
proposes to adjust the discretionary budget caps to reflect the 
reclassification. The estimate for projected BIA program growth, above 
the discretionary cap amount, totals $105.0 million for 2017-2019 and 
will be treated as a Statutory Pay-As-You-Go Act of 2010 cost for the 
authorizing legislation. New contract support cost legislative 
proposals and offsetting collections estimates will be provided on a 3-
year cycle as part of the reauthorization process.
    Coal Abandoned Mine Lands Reform.--As part of the administration's 
POWER+ Plan, the budget proposes to accelerate payments from a portion 
of the remaining unappropriated balance of the AML Fund to target the 
cleanup and redevelopment of AML sites and AML coal mine polluted 
waters in a manner that facilitates sustainable revitalization in 
economically depressed coalfield communities. The proposal will provide 
$1.0 billion over 5 years to States based on AML program and economic 
eligibility factors--such as the unemployment rate of coal mining 
regions--and remaining priority coal problems, including abandoned mine 
drainage, where reclamation linked to job creating economic development 
strategies will help revitalize impacted communities.
    Gulf of Mexico Energy Security Act.--The Gulf of Mexico Energy 
Security Act of 2006 opened some additional areas in the Gulf of Mexico 
for offshore oil and gas leasing, while maintaining moratoria on 
activities east of the Military Mission Line and within certain 
distances from the coastline of Florida. The Act provides that 37.5 
percent of Outer Continental Shelf revenues from certain leases be 
distributed to just four coastal States--Alabama, Louisiana, 
Mississippi, and Texas--and their local governments based on a complex 
allocation formula. Under the administration's all-of-the-above energy 
strategy, domestic energy production has grown each year. Offshore, the 
Department has made 60 million acres available for development in the 
past three lease sales alone. The administration is committed to 
ensuring American taxpayers receive a fair return from the sale of 
public resources and taxpayers throughout the Country benefit from the 
development of offshore energy resources owned by all Americans. The 
administration proposes to work with the Congress on legislation to 
redirect funds currently allocated to GOMESA revenue-sharing payments 
to just four States from Gulf of Mexico oil and gas leases. The 
administration proposes to redirect these payments, which are set to 
expand substantially starting in 2018, to programs that provide broad 
natural resource, watershed and conservation benefits to the Nation, 
help the Federal Government fulfill its role of being a good neighbor 
to local communities, and support other national priorities. Such 
programs could include the Land and Water Conservation Fund, Payments 
in Lieu of Taxes, State and Tribal Wildlife Grants, Federal coastal 
restoration and resilience programs, and other national priorities.
    United Mineworkers of America Health and Pension Reform.--The 
budget proposes to better provide for retired coal miners and their 
families by revising the formula for general fund payments to the 1993 
UMWA Health Benefit Plan. The new formula will consider all 
beneficiaries enrolled in the plan as of enactment, as well as those 
retirees whose health benefits were denied or reduced as the result of 
a bituminous coal industry bankruptcy proceeding commenced in 2012. 
Additionally, the proposal will transfer funds through the Pension 
Benefit Guaranty Corporation to the trustees of the 1974 UMWA Pension 
Plan to ensure the plan's longterm solvency. The plan, which covers 
more than 100,000 mineworkers, is underfunded and approaching 
insolvency. The new formula will provide an additional $363.0 million 
to the UMWA in 2016 and $3.9 billion over 10 years.
    Land and Water Conservation Fund.--The budget proposes $900.0 
million in current and mandatory funding in 2016, and starting in 2017, 
the budget proposes permanent authorization of $900.0 million in 
mandatory funding for LWCF programs in the Departments of the Interior 
and Agriculture. During a transition to mandatory funding in 2016, the 
budget proposes $500.0 million for mandatory funding and $400.0 million 
for current funding, to be shared by Interior and Agriculture.

    National Parks and Public Lands Centennial.--The Centennial 
initiative proposes $500.0 million a year for 3 years or $1.5 billion 
in mandatory funding beginning in 2016 for the following programs: 
$100.0 million a year for a National Park Service Centennial Challenge 
to leverage private donations; $300.0 million a year for addressing NPS 
deferred maintenance backlogs; and $100.0 million a year for a Public 
Lands Centennial Fund, which will competitively allocate funds for 
projects on public lands. Interior's public lands bureaus and 
Agriculture's Forest Service will identify projects that enhance 
visitor services and outdoor recreation opportunities, restore lands, 
repair facilities, and increase energy and water efficiency. The 
availability of mandatory funding to address deferred maintenance and 
other conservation projects will allow these agencies to plan ahead 
more efficiently to achieve significant results. Stable and predictable 
funding streams will allow projects to be appropriately scheduled and 
phased for effective project delivery and completion from a capital 
investment standpoint.
    Federal Land Transaction Facilitation Act.--The Department proposes 
to reauthorize this Act that expired on July 25, 2011 to allow Federal 
lands identified as suitable for disposal in recent land use plans to 
be sold using this authority. The sales revenues would continue to fund 
the acquisition of environmentally sensitive lands and administrative 
costs associated with conducting the sales.
    Recreation Fee Program.--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which will expire September 30, 2016. The program currently brings in 
an estimated $281 million in recreation fees annually under this 
authority and uses them to enhance the visitor experience at Interior 
facilities. In addition, as a short-term alternative to proposed 
legislation for long-term reauthorization, the budget proposes to 
extend authorization through September 30, 2017.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: (1) 
advancing royalty reforms, (2) encouraging diligent development of oil 
and gas leases, and (3) improving revenue collection processes. 
Collectively, these reforms will generate roughly $2.5 billion in net 
revenue to the Treasury over 10 years, of which about $1.7 billion 
would result from statutory changes. Many States will also benefit from 
higher Federal revenue sharing payments.
    Palau Compact.--On September 3, 2010, the U.S. and the Republic of 
Palau successfully concluded the review of the Compact of Free 
Association and signed a 15-year agreement that includes a package of 
assistance through 2024. The 2016 budget assumes authorization of 
mandatory funding for the Compact occurs in 2015. The cost for this 
proposal is estimated at $163 million for 2016 through 2024.
    Payments in Lieu of Taxes.--The Consolidated and Further Continuing 
Appropriations Act of 2015 provides $372.0 million in current funding 
and the National Defense Authorization Act for fiscal year 2015 
provides mandatory funding of $33.0 million in 2015 and $37.0 million 
in 2016. The 2016 budget proposes to extend authorization of the 
program an additional year while a sustainable long-term funding 
solution is developed for the PILT Program. The PILT payments help 
local governments carry out vital services, such as firefighting and 
police protection, construction of public schools and roads, and search 
and rescue operations. The cost of a 1 year extension is estimated to 
be $452.0 million in 2016.
    Reclamation of Abandoned Hardrock Mines.--To address the legacy of 
abandoned hardrock mines across the U.S. and hold the hardrock mining 
industry accountable for past mining practices, the Department will 
propose legislation to create a parallel Abandoned Mine Lands Program 
for abandoned hardrock sites. A new AML fee on hardrock production on 
both public and private lands would generate an estimated $1.8 billion 
to reclaim the highest priority hardrock abandoned sites on Federal, 
State, tribal, and private lands.
    Reform Hardrock Mining on Federal Lands.--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate net revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the current fee of 28 cents per ton of surface mined coal to 35 
cents a ton, the same level companies paid prior to the 2006 fee 
reduction. The additional revenue, estimated at $306 million over 10 
years, will be used to reclaim high priority abandoned coal mines and 
reduce a portion of the estimated $4.0 billion needed to address 
remaining dangerous coal AML sites nationwide.
    Termination of AML Payments to Certified States.--The budget 
proposes to discontinue unrestricted payments to States and tribes 
certified for completing their coal reclamation work. This proposal 
terminates all such payments, with estimated savings of approximately 
$224 million over the next 10 years.
    Termination of Geothermal Energy Payments to Counties.--The 
Department proposes to repeal Section 224(b) of the Energy Policy Act 
of 2005 to permanently discontinue payments to counties and restore the 
disposition of Federal geothermal leasing revenues to the historical 
formula of 50 percent to the States and 50 percent to the Treasury. 
This results in estimated savings of $4.0 million in 2016 and $47.0 
million over 10 years.
    Bureau of Land Management Foundation.--The budget proposes 
legislation to establish a congressionally chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Migratory Bird Hunting and Conservation Stamp Act.--The passage of 
the Federal Duck Stamp Act of 2014 raised the price of a Duck Stamp for 
the first time in more than 20 years. To provide greater stability in 
the future, the budget includes a legislative proposal to provide the 
Secretary limited authority to increase the price of a Duck Stamp, with 
the approval of the Migratory Bird Conservation Commission, to keep 
pace with inflation.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight. The budget also includes a proposal to 
recover costs from anyone who damages a national wildlife refuge.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes to implement 
inspection fees in 2016 for onshore oil and gas activities subject to 
inspection by BLM. The proposed inspection fees are expected to 
generate $48.0 million in 2016, $6.9 million more than the 2015 enacted 
program funding level, thereby expanding the capacity of BLM's oil and 
gas inspection program. The fees are similar to those already in place 
for offshore operations and will support Federal efforts to increase 
production accountability, human safety, and environmental protection.
    Grazing Administrative Fee.--The 2016 budget proposes a new grazing 
administrative fee of $2.50 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a pilot basis. 
The provision will generate an estimated $16.5 million in 2016, more 
than offsetting a decrease of $3.1 million in appropriated funds in the 
Rangeland Management program. The net increase of $13.4 million in 
funding will assist BLM in processing backlogged grazing permits. 
During the period of the pilot, BLM will work to promulgate regulations 
to continue this cost recovery fee administratively, once the pilot 
expires.
    National Wildlife Refuge Damage Cost Recovery.--The budget proposes 
appropriations language to authorize the Fish and Wildlife Service to 
pursue and retain recoveries from responsible parties, to be used to 
restore or replace damaged National Wildlife Refuge resources.
                               conclusion
    Thank you for the opportunity to testify on the President's 2016 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. I thank you again for your 
continued support of the Department's mission. I look forward to 
answering questions about this budget. This concludes my written 
statement.

    Senator Murkowski. Thank you, Madam Secretary. I assume, 
Deputy Secretary Connor, you are available as we probe into the 
intricacies of the budget here, so appreciate your being here 
as well.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Secretary, I have a number of questions that are related to 
this revised comprehensive conservation plan, and then the 
final EIS for the ANWR area, the Arctic National Wildlife 
Region.
    More questions that we have time for here in this 
committee, so I am going to be asking a number of these 
questions about the plan and the FEIS for the record. I will be 
inquiring about when they were initiated, how, who worked on 
them.
    I think it is important that folks understand how this plan 
came to be and the thinking behind it. I would just ask for 
your cooperation and that of the Department in receiving 
thorough, complete and prompt answers to these areas of 
inquiry.

                            KIVALINA, ALASKA

    You mentioned your visit to Kivalina a couple of weeks ago. 
I appreciate the fact that you not only went to see Kivalina 
but you met with not only our Native leadership at their winter 
retreat but also with the Governor, the leadership in the House 
and Senate, and the entire Alaska Congressional Delegation on 
issues that are of concern to us.
    You mentioned the funding in the budget that is available 
to help Tribes and coastal communities, and when you were in 
Alaska, you mentioned there was $8 million that could be made 
available by way of grants.
    I visited with the folks from the Northwest Arctic Borough 
region just yesterday in my office, and I asked them about 
accessing any of these funds that were available.
    They described the offers almost laughable, that in fact, 
half of this $8 million in grants would not be made available 
to them, that when you are looking to build an evacuation route 
or in many cases move a community, the costs that are 
associated are in the realm of $100 to $120 million for the 
community of Kivalina. Of course, we know Kivalina is just one 
of many.
    They asked me to ask you this morning what is your 
proposal, having seen Kivalina and the situation that community 
faces, what is your proposal to help address their immediate 
needs for an emergency evacuation route.
    Secretary Jewell. Thank you, Senator Murkowski. I, too, had 
an opportunity to drop in on a meeting with our friends from 
Northwest Alaska.
    The $8 million in the 2015 budget is intended to support 
Tribal programs around resilience, but was certainly never 
intended to relocate villages. We have, since my visit to 
Kivalina, already visited with OMB looking at potential areas 
in the budget where we might be able to move relatively 
quickly, not just for Kivalina but many of the other coastal 
communities that are threatened.
    The first step is planning and understanding options, and I 
certainly got some very helpful insights when I was in Kivalina 
about the decisions the village itself is facing, and what it 
wants to do.
    There is certainly not enough money in the 2016 budget--or 
in the 2015 budget to do any major changes. That would require 
probably subsequent legislation, but I think working along side 
the State, understanding what other Federal resources we can 
bring to bear, which we are currently investigating right now, 
is a good step forward to try to figure out these very 
difficult situations that your State faces.
    Senator Murkowski. I think you would probably agree that we 
need a full on action plan because again it is not just 
Kivalina we are talking about. As our Governor has reminded 
you, we have a $3.5 billion hole in our budget. The price of 
oil not looking like it is going to increase in the near term 
and production only going down, that is a concern for us, how 
we deal with that.

                     SHELL DRILLING IN CHUKCHI SEA

    Let me speak just a moment here to the situation with Shell 
and their plans to drill in the Chukchi this summer for the 
first time since 2012. This is good news for us, particularly 
at a time that the price of oil is causing companies to really 
scrutinize their investment decisions on very large scale 
projects.
    It makes it all the more important that Shell have the 
certainty that it needs before it proceeds to spend even yet 
more billions of dollars. It needs to retain its existing lease 
portfolio to warrant this enormous investment.
    The difficulty, and I think you know this, is that Shell's 
leases were issued back in 2008. They are all scheduled to 
expire in 2020. Because of this very short window, a 75 day 
Arctic drilling season, and the difficulties, the delays, and 
legal challenges that are all out there, that Shell has endured 
for the past decade, there really are not enough drilling 
seasons remaining for Shell to complete more than a handful of 
exploration wells before the Chukchi lease portfolio expires.
    The question to you--they have requested a suspension of 
operations and the application that Shell has presented has 
explained this suspension is warranted because of these delays, 
because of the challenging environment they operate in, and 
they are waiting for a little bit of certainty here.
    I am told that in the Gulf, suspensions of operations are 
handled pretty routinely, pretty perfunctorily. They take a few 
months for a response. I understand absolutely that we have 
different issues in the Arctic. I appreciate that, but it has 
been 8 months now. The question is whether or not you can give 
me some certainty as to when Shell will receive an answer in 
response to its suspension of operations request.
    Secretary Jewell. Senator, we are actively working with 
Shell and other leaseholders up there on their requests for 
suspensions. Our team has been working very, very hard to 
address the supplemental EIS that was required of us by the 
courts to support Shell's activities potentially this summer.
    The team focused on that, and the leases were suspended 
during the time that the court order was in place. As we have 
now released draft standards for the Arctic, and those are 
going through public review, we are continuing to work with 
Shell for this drilling season and the team is focusing a lot 
of attention on their request for suspension. We will be 
resolving that relatively soon. We understand the circumstances 
the companies have. We also understand the circumstances that 
Shell had in 2012. We get that it is complicated to do work up 
there. We want to make sure it is done safely and responsibly, 
and we want to be responsive to the companies.
    Senator Murkowski. You agree that it has taken--eight 
months is not a reasonable time period. Would you agree?
    Secretary Jewell. I do not know what a reasonable time 
period is honestly. It is very complicated up there. I do know 
we took our resources and focused them as we were requested to 
do on helping Shell move forward for this drilling season.
    I also know we are actively working with them on 
suspensions, and I think they can expect an answer in the 
relatively near future.
    Senator Murkowski. I think you also would agree as a 
business person and one who looks longer term that it is 
difficult for any company to make the kinds of investment, the 
sizable investment that Shell will, without certainty as to 
whether or not you are going to have these leases.
    I would appreciate it and I think not only Shell but others 
who are looking to advance operations in the offshore would 
appreciate some expediency on these requests for suspensions.
    I will go to my ranking member.

                    NATIONAL PARK SERVICE CENTENNIAL

    Senator Udall. Thank you, Chairwoman Murkowski. Secretary 
Jewell, I was pleased to see that your budget request includes 
a 17 percent increase for the National Park Service to prepare 
for the Centennial, and I am especially proud that Congress, as 
you know, in the last Congress, authorized two new national 
parks in my State of New Mexico through the Defense 
Authorization Act. That is the Manhattan Project National 
Historical Park and the Valles Caldera National Preserve, which 
was transferred to the Park Service.

                             VALLES CALDERA

    First, I would like to ask about Valles Caldera. This 
Preserve is an incredible natural and cultural resource, and I 
was honored to work with other members of the New Mexico 
Delegation to get this done. We fought for this legislation to 
ensure this special place receives the resources that it needs.
    That is why I am concerned that the Park Service budget 
request proposes reducing funding for the Preserve to $2.8 
million. That amount is a 17 percent cut below the level 
requested last year.
    Secretary Jewell, this cut just does not make sense, 
especially in the face of other program increases you include 
in your budget for the National Park Service. Will you commit 
to working with me to ensure that the Valles Caldera receives 
the funding it needs to operate successfully in fiscal year 
2016 and beyond?
    Secretary Jewell. Thanks, Senator. There is, as you point 
out, a shortfall from what the Forest Service was funding and 
what is in our budget. We are actively working with the Forest 
Service right now for additional funds that were lost in the 
shuffle on the budget, and certainly, we will continue to work 
with you on this over the course of the year.
    Senator Udall. Great. Thank you. We have discussed this and 
we will also work closely with the Forest Service and the 
Forest Service Chief on this.

                   PERMIT PROCESSING IMPROVEMENT FUND

    As you know, I support responsible energy development on 
public lands as part of a ``do it all, do it right'' approach 
to energy policy. I was proud to sponsor legislation included 
in the National Defense Authorization Act enacted in December 
to improve permit processing for BLM oil and gas leases, 
providing certainty for industry and it aligned the fee with 
the actual cost to the BLM for processing applications for 
permits to drill.
    Can you tell me where you are with fully implementing the 
Permit Processing Improvement Act, and share with us how the 
new resources provided through the bill will improve your 
ability to responsibly manage energy development. And then, are 
there aspects of the 2016 budget request that you need us to 
focus on to implement the improvements we made through the 
bill?
    Secretary Jewell. Thank you very much, Senator, for your 
support of increasing the APD, or application for permits to 
drill for the BLM to $9,500. There was 15 percent of that that 
was taken away for other programs, so we have put in our budget 
to make up for that $7.1 million in the discretionary request, 
so we do have the full money available for permitting.
    That will help us on the permitting side, but it is not 
enough in and of itself to do the job that we are expected to 
do. We have requested in the budget the ability to learn a 
lesson from the offshore industry, and that is to charge a 
modest fee for onshore oil and gas producers to cover our costs 
for inspection and enforcement.
    We have been criticized by the Government Accountability 
Office and our own Inspector General for not inspecting the 
wells that we have. We are overseeing over 100,000 wells on 
public lands. We do not have the resources to inspect those 
wells. That is a challenge from a return to the taxpayer 
perspective, as well as ensuring there is no environmental 
damage.
    We do request in the budget a couple of other things to 
make our program better. In addition to what you have done in 
terms of fees for the authorizations for permits to drill, we 
would very much appreciate fees to cover inspections, 
particularly for production and a fair return for taxpayers, 
and also there are funding requests to automate our system.
    As I have gone out to Carlsbad, New Mexico, North Dakota, 
other States, we have a very paper oriented system, and as a 
business person, I know it costs money up front to put in 
investments for automating and streamlining that program, and 
there is money in this budget to do that, which will help us 
respond more quickly to oil and gas companies for the permits 
they want.
    We have also brought the permitting time down because of a 
lot of hard work and streamlining and piloting. We want to take 
and roll some of those lessons out, and that is also in this 
budget.

                       PAYMENTS IN LIEU OF TAXES

    Senator Udall. We look forward to working with you on that. 
Quick question on Payments in Lieu of Taxes (PILT). As you 
know, this is very important to many of the counties in our 
Western States, and there are many members on this committee 
that have spoken with me a number of times about PILT.
    Can we count on you to make mandatory extension of PILT a 
personal priority, and what is the Department doing to work 
with the relevant congressional committees to pass a long term 
mandatory extension for the PILT Program?
    Secretary Jewell. We understand how critically important 
PILT is to many, many rural counties across the country, 
particularly in the West. Yes, we are committed to working 
along side members on introducing legislation to make it 
mandatory.
    I think to have it as uncertain as it is for the counties 
is very frustrating for them. There are real costs associated 
with the inability for rural counties to tap into a tax base on 
public lands, so we are supportive and look forward to working 
with you on that.
    Senator Udall. Thank you very much. Thanks, Madam 
Chairwoman.
    Senator Murkowski. Senator Daines.

                              SAGE-GROUSE

    Senator Daines. Thanks, Madam Chairman. Secretary Jewell, 
good to see you again here today. I would like to follow up on 
an item that we discussed last week at the Energy and Natural 
Resources Committee hearing, and I would mention the importance 
of incorporating Montana State's plan into the BLM's sage-
grouse conservation efforts.
    I would like to know what is the status of finalizing the 
BLM's RMPs as it pertains to sage-grouse conservation?
    Secretary Jewell. Thanks for the question. To say the work 
going on on sage-grouse with States is unprecedented is an 
understatement. A phenomenal amount of effort on the part of 
States, the BLM, U.S. Fish and Wildlife Service, and parts of 
USDA, to really orchestrate an understanding of these 
ecosystems in a way such that we hope a listing will not be 
warranted.
    The BLM plans are in place and being finalized right now. 
The State plans are in different stages but also are being 
finalized. There has been very close cooperation between 
States, the BLM, and the Fish and Wildlife Service throughout 
this process.
    You will see the BLM plans finalized this spring, and State 
plans are in different stages depending on which State.
    Senator Daines. Again, we have a couple of Senators here 
from Montana that will be curious about that plan. Will these 
plans mirror the stipulations in the Montana State plan?
    Secretary Jewell. I have not looked at the details of the 
Montana State plan relative to the BLM plans. I do know there 
has been close cooperation between the State and the BLM as 
these have been developed. I would not expect there to be 
radical differences as we have talked about with the 
checkerboarding, but that is something I will look into.
    Senator Daines. With the checkerboard nature of some of our 
lands in Montana, those sage-grouse do not know whether they 
are on a BLM section or State section or private section.
    Secretary Jewell. I understand.
    Senator Daines. We would just like to have the State have 
primacy there to get that all aligned on one plan that would 
reflect a lot of work going on back in Montana for the folks 
who are closest to the bird, and we all want to ensure we 
protect the sage-grouse and prevent the listing.
    Secretary Jewell. I understand.

                    LAND AND WATER CONSERVATION FUND

    Senator Daines. I would like to move over to LWCF. I want 
to thank you for recognizing the importance of LWCF to Montana 
in your budget. As a sportsman, someone that represents the men 
and women who enjoy the outdoors in Montana, it is very 
important back home.
    In a State like Montana, we have a lot of public lands, 
about a third of our State. Are you aware of the number of 
acres of Federal land in Montana and frankly across the West 
that are inaccessible to the public?
    Secretary Jewell. A major part of our effort with LWCF is 
addressing that. There are private land holdings that sometimes 
prevent people from getting to the public lands, which are 
very, very important for sportsmen/women and anglers. There is 
actually a proposal in our budget to identify a portion of the 
LWCF money specifically for access, and I would say when we 
have an opportunity to use conservation easements for access as 
opposed to acquisitions, that could help make our money go 
farther.
    We are definitely planning to do more of that, and it 
certainly is a big factor within your State.
    Senator Daines. Do you have a sense of what portion of the 
budget you might propose to be used for increasing access to 
both Federal and State lands? We have about two million acres 
in Montana right now that are inaccessible to the public.
    Secretary Jewell. I want to say $8.5 million in 
discretionary funding specifically for access, and then there 
is another chunk in the mandatory proposal specifically 
earmarked for that.
    Senator Daines. All right. I think we all agree the LWCF is 
one of the important tools we have to increase access to public 
lands.
    Secretary Jewell. Absolutely.
    Senator Daines. Great. Thank you. By the way, I am glad to 
see some of the Montana projects on the list here this morning. 
We have the Trumbull Creek Watershed, we have a couple of 
projects at Beaverhead-Deerlodge. We look forward to working 
with you on that, Secretary Jewell.

                                  COAL

    Last, I would like to talk a little bit about coal. I want 
to thank you for accommodating the request from the State of 
Montana, from the Montana Delegation, Senator Tester and 
myself, to extend the comment period for the new coal valuation 
rule that was issued on January 6, 2015.
    Last week in the Senate Energy and Natural Resources 
Committee in reference to the new coal valuation rule, you 
stated that the proposed rule will ``Streamline and make the 
process more efficient, providing more certainty on the return 
which we will be getting for the American people.''
    I would like to perhaps better understand the basis of that 
assertion. I am hearing from stakeholders back in Montana that 
the rule contains ambiguities, uncertainties, which actually 
act as a disincentive to mine coal.
    We are concerned with less coal produced. That is going to 
reduce royalty payments, reduce the taxes that coal companies 
pay, and it is going to add to the Federal deficit.
    Secretary Jewell. Thank you, Senator. The coal rules are a 
proposal. That is part of the benefit of the comment period, to 
hear comments for how people believe it is going to impact 
them.
    We have been criticized from a number of different sectors 
for not getting a fair return for taxpayers on coal. When what 
we have been doing is criticized and ends up in court, that 
slows things down dramatically.
    We are trying to put in place rules that identify a fair 
value for taxpayers that we believe will clear this up, but we 
welcome comments during the comment period on these coal rules, 
and if people feel there is a concern, we welcome comments on 
how to make that more streamlined.
    Senator Daines. Have you calculated the impact to coal 
production based on the ONRR rule, what that might be?
    Secretary Jewell. I have not personally. I am not sure if 
my team has. Mike, do you know?
    Mr. Connor. I do not know.
    Senator Daines. As a follow up there, if we could take a 
look at what impact that is going to have in declining coal 
production, or is it going to increase it or decrease it. I 
would like to get a sense from the Department of the Interior 
of where you see that is headed.
    Secretary Jewell. If I can answer quickly, I know we are 
out of time. I will say that the regulations are only one part 
of an equation on whether or not a company chooses to go 
through that.
    There are economics, global economics really at play. I am 
not sure how much we are going to be able to isolate as 
associated with our rule as opposed to the broader issues of a 
commodity, how it is priced, and what that does to the overall 
economics.
    Senator Daines. Thanks.
    Senator Murkowski. Senator Reed.

                    BLACKSTONE VALLEY NATIONAL PARK

    Senator Reed. Thank you, Madam Chairwoman. First, let me 
thank you for your extraordinary collaboration over several 
years. You did a superb job. I know you are going to do a 
superb job as chair of this committee.
    You have a great partner in Senator Udall. In fact, much 
better than myself, I must admit. You did okay with me so you 
are going to do great with Tom.
    Madam Secretary, thank you for your service, and Deputy 
Secretary Connor, thank you also. Let me start with an issue 
that is close to home, and that is the Blackstone Valley 
National Park. We are so pleased it was authorized last 
Congress. I understand there is about $927,000 in the budget to 
start the process.
    Could you tell us what you want to achieve, Madam 
Secretary, initially in terms of preparation and planning for 
the Park?
    Secretary Jewell. First, I want to say thank you very much 
for your advocacy of this special place. To say it was fun to 
kayak the river with you would be an understatement. It 
certainly opened my eyes into the history of our rivers and the 
history of the industrialization of the United States and how 
important that river corridor is.
    The $927,000 that is in the budget for park operations will 
really be around planning, understanding what the boundaries 
should be, understanding land ownership, what the priorities 
might be for the State and for the Federal Government with 
regards to filling out that over time.
    We know there is an important historic story to be told 
there, and this money will help us plan for the future.

                           COASTAL RESILIENCE

    Senator Reed. Thank you very much, Madam Secretary. There 
is another issue, coastal resilience. We caught the tail end of 
Sandy, thank goodness, but it was still pretty devastating. 
With help, particularly help from the Department of the 
Interior, Sachuest is one of our national wildlife, and you 
were able to help us rebuild the road. Literally, it was cut 
off. It could not be used.
    We still have a lot to do. I understand you have a $50 
million program that is going to talk about coastal resilience. 
Let me tell you, from someone in a coastal State, we had a 
great trauma with Sandy, but we know it is coming again, and 
this time it might not veer off to the right or left, it might 
come barreling in and be even more destructive. Coastal 
resilience has to be key.
    Can you just again give us an idea of what you would like 
to do with this resource?
    Secretary Jewell. There is $50 million in the budget, and 
it is lower than I would like it to be, but we think it is a 
step in the right direction, learning lessons from Sandy. We 
had $100 million of the $60 billion that you provided for 
Sandy, $100 million of that within the part that came to 
Interior was used for competitive coastal resilience grants, 
and it worked so well because it was highly leveraged by local 
communities, it created collaboration with communities.
    Some of that did go to Rhode Island. Understanding the 
impact of dredging and what that does to coastal resilience and 
how we rebuild those landscapes, being in Block Island, seeing 
the damage, even though through the periphery of the storm, 
there is no question this is really important.
    It is a drop in the bucket. I would hope in the future we 
could learn lessons from Hurricane Sandy and recognize that we 
are on the firing lines as I saw in Kivalina, for other 
reasons, but related to climate change, and invest in advance 
of a catastrophe as opposed to after a catastrophe.
    We learned from that storm that when we prepare our coastal 
communities and we use things like green infrastructure, dunes, 
as in the case in Block Island, and wetlands, as in the case of 
many places up and down the East Coast, that we will protect 
those communities.
    We would welcome your support for this or even more.
    Senator Reed. Two other things. One is this is a much more 
efficient way to spend resources because we know when these 
storms barrel through and just obliterate beaches and homes, we 
will go back in and fix them, and that is billions of dollars, 
where if we could take proactive steps and much less than that 
to make them much more resilient, less exposed to these storms, 
we would be better off, and the point you raised about climate 
activity.
    Not only are we getting more volatile storms, but we all 
the ocean level is rising. Every day it seems like there is 
another story about rising oceans, and that just complicates 
coastal preservation and coastal survival.

                             SEQUESTRATION

    Thank you, Madam Secretary. A final point. I have the 
opportunity to serve as the ranking member of the Armed 
Services Committee with Senator McCain, my chairman. We both 
sent a letter to the Budget Committee indicating that 
sequestration would be devastating to defense, but the point 
has to be raised, it would be devastating to every department 
of the Federal Government.
    Just looking from the center point of defense, without 
Homeland Security, without FBI, without the State Department, 
without the CDC for Ebola, et cetera, our national security is 
threatened. You cannot draw a line. We have to get rid of 
sequestration, and to your Department, too, with sequestration, 
you will not be able to perform basic functions.
    I think your budget, the President's budget, recognizes 
this, and if you will, you might elaborate, if you would.
    Secretary Jewell. Thank you very much for pointing that 
out. We agree on a strong defense but we also recognize that a 
strong national economy is also critical.
    When we went past sequestration last year, when we had a 
reasonable budget, we saw increases in the economy. As a 
business person, I know that it is crazy to operate a business 
without having certainty of what your budget is going to be.
    We have put forward investments that we are confident will 
help grow the economy, will provide the certainty to 
businesses, and will take care of the assets that will help 
support our economy and our national security.
    We do want to move beyond sequestration. That is in the 
President's budget. It does reflect his priorities. We do 
believe in a strong defense budget and we do believe in a 
strong non-defense budget, which is also essential, I think, 
for our Nation's security and our economic prosperity.
    Senator Reed. Thank you.
    Senator Murkowski. Senator Blunt.

                    NATIONAL PARK SERVICE CENTENNIAL

    Senator Blunt. Thank you, Chairman. Secretary, 
congratulations on getting the opportunity to launch the second 
hundred years of the National Park Service. It is a great time 
to reflect back on what the Park Service has been and what it 
can be.
    I know in your request for money, just to focus on this 
anniversary opportunity to draw attention to the Park Service, 
a focus I certainly do not object to, one of your thoughts is 
private donations as part of that.
    I have three questions I want to get to here in the next 
five minutes and 28 seconds. I will try to get that done.

                               DONATIONS

    One is in the fiscal year 2015 omnibus bill, there was 
language included, report language, asking the Park Service to 
exercise maximum flexibility in recognizing donors. I just 
wondered if you would want to comment on your thoughts on that 
as we move forward, and particularly your thoughts on that even 
in the $300 million request, looking for private additions to 
that.
    Secretary Jewell. Thanks for the question. I think there is 
uniform support from the Park Service and in the language that 
was reflected in the NDAA to give appropriate recognition to 
donors. There is no question we have high potential for donor 
money as seen in the Jefferson National Expansion Memorial, 
Gateway Arch, and the City Arch River Project.
    Nobody wants to brand inappropriately, but we do think 
recognition is important. There is $50 million in the 
discretionary budget and an additional $100 million in the 
mandatory recommendation to match donations, which we think 
will take this great interest in supporting our national parks 
and spur it to even greater action.
    Recognition for donors is going to be an important part of 
that, and that is something we are committed to doing.
    Senator Blunt. I agree. The St. Louis Arch Project that you 
and I both are very familiar with, nobody suggested neon lights 
or anything like that. I think people's desire to be able to 
offer some recognition when they are talking to donors, it is 
usually a recognition of a relatively modest impact.
    Secretary Jewell. Agree.

                    JEFFERSON MEMORIAL ARCH PROJECT

    Senator Blunt. I am glad you are looking at that the way 
you are. On that same project, Secretary, of course, the local 
input there to expand the Jefferson Memorial, the Arch Project, 
you have $210 million in private donations, $90 million in a 
new tax that the City of St. Louis put on itself for this 
process. The Park Service's budget is $10 million, so $300 
million to $10 million, clearly local people are leveraging 
this in a significant way, and by the way, there is also a 
Department of Transportation amount, $45 million, so it is $55 
million total Federal dollars, only $10 million Park dollars.
    I just want to say that our ongoing discussions, I think, 
just continue to be better and better, and your team as well as 
you, understand if you are going to look at the second century 
of the Park Service in a different way, you have to truly look 
at it in a different way. You just cannot say we want it to be 
different and we want local partners, but by the way, we do not 
want the local partners with a 300 to 10 match to have any real 
say in the discussions.
    I think we are getting there and I think your understanding 
of how important that is helps get there.
    The one other question I want to ask on this, in that 
money, the Park Service has decided that the $200 or so million 
of outside money needs to be paid to the U.S. Treasury under 
current law instead of putting it in a third party escrow 
account.
    Local donors would love to see any income earned on that 
money go to the park itself, for maintenance and other needs. 
We have been talking to your staff about that. I think your 
staff is open to how to deal with this new idea of input of 
local money and how that money is used to benefit the project 
it goes for.
    I wonder if you would just comment on your own views on 
that and what we can do to help you make it possible for those 
local funds to be truly focused on the local project.
    Secretary Jewell. I think as we enter this second century 
of the national parks, we are going to see more interest like 
you had in St. Louis of communities saying we do not want the 
visitor center that just the Park Service could afford on its 
own, we want something better, and we believe that can be good 
for the economy and good for our city, and that is exactly what 
your folks have done.
    If there are things that get in the way of our ability to 
get private donations and use those efficiently and 
effectively, we could certainly work together on changing the 
law to update that.
    The Park Service is working on a Centennial piece of 
legislation to clean up some of the things that get in the way 
of its ability to be as efficient and effective in its use of 
resources.
    Having been to St. Louis and talked specifically about this 
Fund, I do not have an update on where we are, but I do know 
there were some legal reasons why they could not do what the 
community wanted, and I will see if that is something we can 
fix in the Centennial legislation.
    Senator Blunt. As I understand that, Chairman and members 
of the committee, I think the goal here would be to come up 
with some language legislatively, if there is no other way to 
do it, so that money can be invested in U.S. Treasuries or some 
other vehicle that provides income for the project that is 
being donated to instead of just go into the U.S. Treasury and 
frankly not be used at all or invested at all, or if it is 
invested, to go to other purposes.
    We are going to continue to work with the Park Service on 
that. I have a question I will submit for the record on Doe 
Run, which employs 1,500 people in Missouri, and how the 
Natural Resources Damages group and the Fish and Wildlife 
Service is relating to that. I will submit that for the record.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you, Senator Blunt. Senator 
Merkley.

                          SECURE RURAL SCHOOLS

    Senator Merkley. Thank you very much, Madam Chairman, and 
thank you, Secretary Jewell, for your testimony and your 
efforts to tackle so many significant issues across the 
country.
    I wanted to start with the Secure Rural Schools Program, 
and thank you for framing in the budget a 5 year 
reauthorization with mandatory United States Forest Service 
funding.
    I just wanted to emphasize that this is a partnership 
related to funds that the counties have foregone because of so 
many restrictions on the use of the O&C lands. There is a lot 
of work being done to try to work out sustainable production, 
environmental responsible production. That work is not yet 
complete. The counties are hurting greatly.
    Thank you for including this, and we can count on your 
cooperation in pursuing this. Thank you.

                             WILDLAND FIRE

    Turning to the wildfire side, which has been mentioned by a 
couple of my colleagues, the challenges. In Oregon, we have had 
an increase in the fire season of about 20 days over the last 
20 years, the amount of acreage has increased. Right now we are 
looking at very, very low snow levels in the Cascades, which 
generally corresponds to much dryer forests in the summer. We 
may have yet another major bad fire season, if you will.
    Beginning to treat fires as something that the entire 
Forest Service budget has not depleted in the course of 
fighting them, because it means we rob everything on the front 
end, forest health and fire prevention, so I appreciate this 
proposal, which says there will be a baseline funding but then 
when there is a terrible fire year, which we do not know yet if 
this year will be or not, it will be treated as emergency 
funding.
    Can you just make a comment on why that is a logical way to 
go forward?
    Secretary Jewell. One percent of wildfires eat up 30 
percent of suppression costs. When we have a bad year, we have 
to rob all our other budgets to pay for it. That means we are 
not doing prevention that reduces the risk of fire in the 
future.
    There is no question that not doing prevention programs 
cost us more in the long run, and this is a very sensible 
program that says let's take the catastrophes and treat them as 
the catastrophes they are. Take them outside of the regular 
budget and put them in the disaster budget so we can, year in 
and year out, manage our landscape.
    Senator Merkley. When you rob those other budgets, does not 
work stop in those other key functions in the Forest Service?
    Secretary Jewell. It does.
    Senator Merkley. That creates an enormous inefficiency and 
failure to pursue many of the goals that we have laid out in 
the budget.
    Secretary Jewell. It does. In fact, it is a downward spiral 
that facilitates longer, hotter, drier fires with the drought 
situation we have, so it just makes the situation worse.

                                KLAMATH

    Senator Merkley. Thank you. I want to turn to the Klamath. 
We had a multi-year process of trying to work out an agreement 
between stakeholders, and those stakeholders include the 
fishermen, the Tribes, the ranchers, the farmers, so on and so 
forth.
    They have set aside the decades and decades of water wars 
to work out a strategy, but that strategy requires us to pass a 
bill here to fund it, and a piece of that is for them to get 
back a piece of their Reservation that they lost when the Tribe 
was terminated in the 1950s.
    There are two ways to do that, either through purchasing a 
commercial tract if it is available or regaining a share of the 
Reservation land that has now been converted into the Winema 
National Forest.
    Can we count on your Department's support in trying to 
figure out whether it is Plan A or Plan B, but a successful way 
to address this piece of the puzzle?
    Secretary Jewell. Absolutely, you can count on our support 
to try to get this across the finish line. We know that the 
forest part of it is very important, and we are disappointed 
that the deal did not go through as expected.
    You can count on us to work with the Tribe. You can count 
on us to work with the Forest Service to see if there is a 
solution that gets this done, because it is very, very 
important.
    Do you want to make any other comments, Mike?
    Mr. Connor. No.
    Senator Merkley. Should we not succeed in doing it, it 
could be a catastrophe in many, many ways, for all of the 
stakeholders. We have had the worse ever drought in 2001 
followed by the worse ever drought in 2010 and a terrible 
drought in 2013.
    The ranching and farming community has agreed to many 
conservation practices that would mean the amount of water that 
is lost is greatly reduced. It is a win-win all the way around, 
and thank you.
    Secretary Jewell. Thank you.

                              SAGE-GROUSE

    Senator Merkley. Turning to sage-grouse, my colleague from 
Montana has already mentioned it. This is across a number of 
western States. In addition to the $15 million that has been 
allocated to try to develop specific strategies to enhance 
preservation of sage-grouse, there is additional funds, I 
believe, of $4 million, that are now in the Fish and Wildlife 
Service, and some additional funds for broader conservation of 
sage-grouse type or sage terrain, if you will.
    Our whole goal in Oregon is to avoid a listing. You are 
coming out to Oregon shortly to draw attention to a particular 
valuable part of this puzzle. Could you share some comments on 
that?
    Secretary Jewell. Yes. In Oregon, you have a lot of private 
land owners, and they are very interested in supporting 
conservation efforts. It was an Oregon rancher who said what is 
good for the bird is good for the herd. That recognizes that a 
healthy sagebrush ecosystem is important to the ranching 
community as well.
    In the State of Oregon, through the work by the State along 
with private land owners and the Fish and Wildlife Service, we 
have multiple candidate conservation agreements with assurances 
that will be signed that will provide certainty to those 
ranchers, that if they take the conservation measures they 
signed up for, should the bird be listed as threatened in the 
future, it will not change their practices.
    We share everybody's common interest in getting to a point 
where a listing is not warranted, but these ranchers, by virtue 
of the actions they have taken, will be reassured they can 
continue their ranching practices through these agreements. We 
are really appreciative of the private sector in Oregon 
stepping up.
    Senator Merkley. Are we starting to see a similar strategy 
emerge in some other States?
    Secretary Jewell. We are in a number of other States. We 
signed some similar agreements in Wyoming not too long ago, and 
we are encouraging other States to sign up as well.
    Senator Merkley. I really celebrate this type of 
partnership between the goal of conservation and the practices 
of local ranchers. I must say those who have been signing those 
agreements have been telling me in town halls that they are 
sleeping a lot more easier. They are happy and pleased to be 
part of the conservation effort, but also to know they do not 
face some catastrophic loss down the road if the broader 
efforts are unsuccessful.
    I know the chair has raised her concerns about the 
conservation strategies in Alaska.
    Senator Murkowski. The Senator's time has expired, if you 
could wrap up, please.
    Senator Merkley. I am over time. Thank you very much.
    Senator Murkowski. Thank you. There will be an opportunity 
for a second round as well. Senator Tester.
    Senator Tester. Thank you, Chairwoman Murkowski, and 
Ranking Member Udall. I look forward to working with you guys 
on this committee. Thank you for being here today, Secretary 
Jewell and Deputy Secretary Connor. You are getting off easy 
today, Mike, and I am not going to break that here.
    I think it was nearly a year right now that Secretary 
Jewell was out in Montana and we got to visit about issues that 
are important and they were reflected in your testimony, the 
importance to the outdoor economy or balanced energy 
development, or upholding our trust responsibilities for 
American Indians. I just want to thank you for the job that 
both of you have been doing in the Department of the Interior, 
I very much appreciate it.
    We always look at Federal lands as to the highest and best 
use for those public lands, because they are very, very 
important to our economy.
    I would just say not unlike the work that has been done on 
the Rocky Mountains front, I have to thank you personally for 
your work to protect pristine landscapes like the Arctic 
National Wildlife Refuge. I very much appreciate that. They do 
not make places--well, what we have is what we have, and if we 
destroy it, we will no longer have special places on this 
earth.

                    LAND AND WATER CONSERVATION FUND

    I want to talk about the Land and Water Conservation Fund, 
too, because it is very, very important. You have already 
talked about access. I appreciate the dollars you have plugged 
into this program. I think it is money that will be paid back 
multiple times over.
    The issue I have is could you talk about your vision for 
use of the Land and Water Conservation Fund? You have already 
addressed access. That is critically important. What other ways 
is this going to help further build a $5.8 billion economy in 
the State of Montana and other States represented here?
    Secretary Jewell. Thank you, Senator Tester. In my old day 
job working in the outdoor industry, we recognized the 
necessity of public lands to a $646 billion national industry, 
and certainly Montana feels that in a lot of its communities.
    The Land and Water Conservation Fund facilitates 
transactions that actually help manage these lands much more 
effectively. As I spoke with Senator Daines, it is about access 
to resources, and much of that access can be provided through 
conservation easements. It does not have to be fee simple 
lands, but it helps align the interest of the private land 
owner with the public lands in a way that supports breadth and 
diversification of the economy.
    I would also say there are some circumstances where costs 
are lowered by use of the Land and Water Conservation Fund. 
When we have an in-holding within a national park, for example, 
or in a wildlife refuge or in a critical migration corridor for 
animals, it costs us more to deal with that in-holding than it 
would if we actually owned that land.
    The Land and Water Conservation Fund has been used in just 
about every county across the country. The stateside program is 
very important to local communities. In the eastern part of the 
country, there is a hunger for more public lands than we have 
because they see the economic engine that it provides to other 
parts of the country and they want to be a part of that.
    It is one of the most successful programs we have ever had, 
one of the best laws passed by Congress, and we really 
appreciate your support and also reauthorization.
    Senator Tester. I would also tell you from a ranching 
perspective, they have used these funds very, very effectively 
in keeping ranches in the family, and I appreciate that. I also 
appreciate the fact that not only is it about hunting, fishing, 
bird watching, hiking and biking, and all that stuff. It is 
about recruiting businesses to places like Montana.
    Secretary Jewell. It is.

                   SUN HIGHWAY GLACIER NATIONAL PARK

    Senator Tester. We thank you for that. I want to talk about 
Sun Highway for a minute. We will get a little parochial here. 
It is in the middle of a rebuild. Can you give me an idea of 
what percentage is done? Well, if you give me what percentage 
is done, I can do the math on what percentage is left.
    Secretary Jewell. I do not have an update on that. Mike, do 
you?
    Mr. Connor. I do not.
    Secretary Jewell. We will have to get back to you.
    [The information follows:]

              GLACIER NATIONAL PARK--GOING TO THE SUN ROAD

    As currently planned, by the end of 2015 approximately 80 percent 
of the rehabilitation of the 50-mile historic Going-to-the-Sun Road 
will be completed. By the end of 2017, at current funding levels, the 
project is anticipated to be completed.

    Senator Tester. I would love to see when that is going to 
be finished. That is also a jewel for the American people.
    Secretary Jewell. It is beautiful.

                       ONSHORE ENERGY DEVELOPMENT

    Senator Tester. It is also $1 million a day to that economy 
just in the northwestern part of Montana. I want to jump over 
to a question that Senator Udall asked about wells. Did you say 
you had 100,000 wells?
    Secretary Jewell. 100,000.
    Senator Tester. That you are doing oversight on right now?
    Secretary Jewell. That is right.

                        ONSHORE INSPECTION FEES

    Senator Tester. How much money did you put into that budget 
line item for well oversight? Has it been increased from the 
previous year?
    Secretary Jewell. I think the number is $48 million, and 
that would be fees to industry to cover our costs. We have had 
this in the budget multiple times. I think there is $41 million 
in our current budget for 2015, which was appropriated money.
    Senator Tester. I assume those inspections include making 
sure the well casing is adequate. Is there anything else that 
is being inspected?
    Secretary Jewell. We have a well in the State of Utah where 
we heard from people that were out in the outdoors that they 
saw oil in a creek. It turned out that well had been leaking 
for many, many years or a pipeline associated with that well, 
and we had not been out there.
    It is about production and making sure the meters are 
working and the taxpayers are getting a fair return. It is 
about environmental inspections. Neither of those are being 
done adequately, and we are not able to do our job effectively 
without these resources.
    Senator Tester. First of all, I applaud your efforts on 
this, I think it is critically important. We just had a 
pipeline break in Montana that cost far more money than if we 
had proper inspectors on the ground to take care of it, and we 
bumped that up. We plused those accounts up.
    This is a big concern of mine and I will tell you why. I 
think drilling is important. I think it helps power our 
economy, but if we are screwing up water in the process, long 
term, we are making a huge mistake.
    Do you think those funds are adequate that you presented 
for the inspection angle in this budget?
    Secretary Jewell. I think it is an important step forward. 
I cannot say they are fully adequate, but it is as much as we 
felt was reasonable to put in this budget in 2016.

                           COASTAL RESILIENCE

    Senator Tester. Thanks. I am going to close with just one 
thing. Senator Reed talked about coastal resilience, and you 
have $50 million in that account, which is a drop in the 
bucket. We are going to spend $3 billion in this election cycle 
on something that people hate to hear all the time on the t.v. 
I have to tell you, we have to redo our priorities in this 
country. It is ridiculous you do not have the kind of dollars 
you need to protect because of climate change, what is going on 
on the coasts of this country, and in Alaska, as you said 
earlier.
    So, thank you very, very much.
    Secretary Jewell. Thank you.
    Senator Murkowski. Senator Feinstein.

                                DROUGHT

    Senator Feinstein. Thanks very much, Madam Chairman. Let me 
begin by thanking you, Mr. Chairman, of the Energy Committee, 
for what you helped with, with our number one problem, which 
was drought. Without you, I do not think that bill would have 
passed the Senate. I just want you to know that, and thank you 
very much,
    Madam Secretary, and it is hard to call you Deputy 
Secretary, Mike, I want to thank you, and particularly 
Reclamation, for all your efforts to help with water supply. If 
you ask me what my number one issue is for the biggest State in 
the Union is, it is drought.
    I just learned something very distressing ten minutes ago. 
As chair of the Energy and Water Subcommittee, I was able to 
get in the omnibus $50 million for western drought. I think you 
spoke about it, Madam Secretary, when you were in California 
with the Governor. I just learned that it is not being 
continued this year.
    I just want you to know that is really a serious concern 
for me because the situation is no better. If anything this 
year, it is going to be worse. Our snow pack is at 19 percent 
of normal. The reservoir levels are all very low. There is only 
one that is at 60 percent.
    The Bureau just told Federal water contractors that they 
will be receiving no water allocation for the Central Valley 
Water Project for the second year in a row, and we all know 
that fish, wildlife and refuges are suffering as well.
    I am deeply concerned, and given these conditions, the last 
time I talked to the Deputy Secretary, we talked about what 
could be done to operate the pumps with the kind of flexibility 
that did not violate any Endangered Species Act, any Clean 
Water Act, any biological opinions, in other words, really 
adaptive management by the day, using the pumps from what we 
have learned from science.
    I have a question. Is everything being done that can 
possibly be done now? Is there anything else that you can think 
of that can be done to improve water supply?
    Secretary Jewell. I am blessed with a Deputy Secretary that 
is immersed in these issues. Pardon the pun. I am going to turn 
it over to Mike to answer.
    Mr. Connor. Thank you, Senator Feinstein, for the question, 
and thank you for the leadership and resources provided in the 
$50 million of drought funding, and the funding even 
beforehand, which I think has really enhanced our abilities to 
implement strategies that are along the lines you stated, 
adaptive management.
    We have a couple of biological opinions that control our 
pumping operations, both the Central Valley Project and State 
Water Project. Those biological opinions for the last couple of 
years, we have gotten increasing flexible in adjusting those, 
given the drought conditions, the emergency conditions, to try 
and increase pumping even above the limits that were first 
established in those biological opinions, and we do it because 
of the resources we have applied towards monitoring data 
collection and day to day operational management.
    We have better strategies. We have more flexibility with 
respect to our water quality permits. We just do not have any 
precipitation. Those strategies are really geared towards 
making use of the high flow events, and we had one high flow 
event earlier, in February. Now, we are kind of past that and 
we are getting down to very low flows in the Delta.
    As you mentioned, given the lack of reservoir levels, we 
are at the lowest levels since 1993, and 1993 was an above 
normal year, so it picked up then. We are just stressed on all 
levels.
    A couple of years ago we did an exchange with Metropolitan 
Water District and got 100,000 acre feet more for the Central 
Valley, but we cannot do that this year because they are 
stressed because the Colorado River has also been in drought 
for the last 15 years. Now, some of the excess supplies they 
have had are not there.
    Senator Feinstein. That is why, if I may say, we have to 
get that $50 million for western drought, which does not only 
affect California, it affects all the States on the Colorado, 
too.
    Mr. Connor. Absolutely. You can see the two systems 
affecting each other right now. The options are tough to figure 
out. We need to continue to look and adaptively manage and see 
if we cannot increase some supplies from our existing 
operations, but we are losing flexibility in the system, both 
with groundwater, as you know, which is reducing fast, and our 
other basins that we can move water over from.
    Senator Feinstein. What you are saying to me is there are 
no more things that you can pull out of your hat, essentially, 
because of the dismal lack of water.
    Mr. Connor. It is getting tougher and tougher.

                          FEASIBILITY STUDIES

    Senator Feinstein. Okay. Let me move on to feasibility 
studies. California has now passed a bond issue for $2 billion 
for a dam. I know you have been focused on these feasibility 
studies. Where are we with respect to Shasta undergoing final 
executive review? I understand it is ``very close to 
completion.'' Can you give us a date for finalization?
    Mr. Connor. I cannot give you a specific date on 
finalization for Shasta right now, but I think it is within the 
next month or two, and as soon as we understand when that can 
be completed, we will let your office know. We are very close 
in completing that study.
    Senator Feinstein. Temperance Flat. Commissioner Lopez said 
the technical work is on track to be completed by July 2015. 
Will it stay on track?
    Mr. Connor. It will stay on track. We will still have to 
complete the technical work so we can get to the final 
feasibility study. Everything is out in draft, as you know. We 
will still have to go through the same review process within 
the administration. There is always a little uncertainty as to 
timing at that point in time.
    We have projected completion of the technical studies this 
summer, moving towards finalizing it and getting it out by the 
end of the year. We are going to try to stay on track to do 
that.
    Senator Feinstein. Sites. I had the privilege of meeting 
with the Joint Powers Authority to complete a project 
management plan. I was very impressed with it. It was scheduled 
to be completed at the end of February. Was it completed?
    Mr. Connor. I do not know the specific answer, whether they 
wrapped up those discussions. I can get back to you on the 
record with that.
    Senator Feinstein. Okay.
    [The information follows:]

             JOINT POWERS AUTHORITY PROJECT MANAGEMENT PLAN

    A meeting was held with representatives from Reclamation and the 
Sites Joint Powers Authority (JPA) on February 3, 2015, to discuss 
options for completing the feasibility study. It was agreed to develop 
a project management plan and cost share agreement to specify roles and 
responsibilities and a related schedule and budget as a basis to secure 
funding and develop and evaluate the potential effects of additional 
operational alternatives. It should be noted that Reclamation does not 
have the financial resources to conduct further study unless or until 
additional non-Federal cost shares are available consistent with non-
Federal cost share requirements. Sites JPA expects that JPA and/or 
investor funding will be available later in 2015 to contribute to 
remaining study costs. The project management plan will include major 
decision points and milestones to support go/no-go decisions as 
critical determinations emerge regarding the type and extent of Federal 
and non-Federal interests in a potential North of the Delta Offstream 
Storage project.

    Senator Feinstein. This is very important because there are 
a lot of people that know, who think that Sites may be the best 
alternative. I do not know that. I know it is the most costly, 
and that concerns me. I really think we have to get this 
quickly to be able to evaluate it completely.
    Senator Murkowski. The Senator's time has expired.
    Senator Feinstein. Thank you very much, Madam Chairman.
    Senator Murkowski. Senator Leahy.

                             LAKE CHAMPLAIN

    Senator Leahy. Thank you very much, Madam Chairman. 
Secretary Jewell, I have to thank you for all you have done at 
the Department. I sometimes think you have cloned yourself 
because you have to protect our natural resources and you have 
to manage them. Sometimes that may seem at odds with one 
another as you protect special places, not just for us but for 
next generations after, and how you facilitate development and 
extraction of natural resources.
    Over my 40 years here, occasionally parochial questions 
will be asked. Your Fish and Wildlife Service and U.S. 
Geological Survey staff in Vermont work very hard to address 
water quality, the ecological challenges in Lake Champlain, and 
outside the Great Lakes, it is the largest body of fresh water 
in the United States, they work with USDA on wetlands and 
wildlife conservation projects, and work with the Great Lakes 
Fisheries Commission, and so on.
    A concern I have is that the EPA has requested a dramatic 
cut in funds for Lake Champlain compared to the fiscal year 
2015 spending level, so creativity becomes far more important.
    We saw Lake Erie when it was not protected, it became so 
polluted, the river caught fire. It took two or three days to 
put the fire out.
    I know you are going to be on the shores of Lake Champlain 
soon and I look forward to that. Will you work with me to 
dedicate as many resources, and I know resources are limited, 
but as many as we can to address water quality, invasive 
species, climate driven challenges that we have in this huge 
body of water?
    Secretary Jewell. Senator, I certainly cannot weigh in on 
the EPA side of the budget, but we do have significant money in 
the budget particularly for invasive species around Lake 
Champlain. I am very happy to continue to work with you to 
understand those issues perhaps as I am up there in a week or 
two, to even deepen my understanding and to work with you on 
whatever resources we can bring to bear.
    Senator Leahy. We will probably inundate you with all kinds 
of things. Lake Champlain means a lot to us. This has been a 
non-partisan issue in Vermont. We have had Republican 
Governors, Democratic Governors. We have worked with New York 
State. We have worked with the Province of Quebec to protect 
it.

                      MISSISQUOI AND TROUT RIVERS

    We also have constituents in Vermont where we call the 
``Northeast Kingdom,'' my wife was born there, my mother was 
born there, I am well aware of it. One of the final acts of the 
113th Congress was to approve legislation designating over 46 
miles of the Missisquoi and Trout Rivers in Vermont as wild and 
scenic. The Department moved quickly to request resources for 
these Vermont rivers, through the Park Service, in the 2016 
funding request.
    What motivated the National Park Service to request funding 
so quickly? I am not complaining. I am glad they did. What 
motivated the Department?
    Secretary Jewell. I cannot speak specifically to what 
motivates the Park Service to put different things in the 
budget other than they prioritize their resources based on the 
areas they feel have the greatest need and the greatest 
potential. I have to assume that is the case there.
    Senator Leahy. Will they work at promptly implementing 
these new Vermont wild and scenic designations?
    Secretary Jewell. Yes, they will.

                        NORTHERN LONG-EARED BAT

    Senator Leahy. Thank you. I started raising years ago the 
question of what has happened with white-nose syndrome, putting 
money into various budgets on it. I was teased a little bit 
that I might be worried about Batman or something. It turns out 
if we lose these bats, it is going to cost our farmers in a 
whole lot of States, 25 States, billions of dollars in 
pesticides and everything else, as well as ecological problems.
    If the Fish and Wildlife Service lists the northern long-
eared bat as threatened, what kind of support can we continue 
to get on conservation measures that will protect habitats? I 
wish I knew the answer on this. What is happening with the bats 
is creating a huge ecological problem to half of the 
continental U.S.
    Secretary Jewell. Senator, first, I want to thank you 
profoundly for raising awareness about white-nose syndrome and 
bats early on, and providing the kind of support we needed to 
study this. We do not have an answer yet, but we have the U.S. 
Geological Survey and Fish and Wildlife Service and others 
working hard on trying to come up with a solution.
    The northern long-eared bat in specific has been really 
decimated in the East, and the problem is marching West. The 
Fish and Wildlife Service preemptively produced what is called 
a 4(d) rule to provide guidance on measures that could be taken 
to protect the remaining habitat, even though the threat to the 
species is white-nose syndrome, for those that survive and are 
threatened. They need good habitat to be able to recover.
    They preemptively put that out there for comment and are 
taking comment on that. That will help provide the kind of 
certainty to the logging industry, to the oil and gas industry, 
and to other industries about what is needed to try and prevent 
a catastrophe here, which we are well on the way to seeing 
because of white-nose syndrome.
    Senator Leahy. Thank you. Senator Murkowski, just on a 
personal level, I have pestered you with photographs of our 
home in Vermont and hundreds of acres. We have a quarter of a 
mile up on our land behind our house where there has been for 
decades a bat cave. In the early evening, we would sit out on 
our front lawn. The bats would come out and there would be no 
mosquitos. It was just wonderful. The bats have disappeared. 
Now we get pestered by mosquitos.
    That is just a personal discomfort. Think of the farms that 
have thousands of acres of crops growing, bugs and pests that 
are normally kept in check by the bats, now they are not. We 
have a real problem.
    I applaud the Secretary for keeping this on the 
Department's priorities. It means a lot. Thank you.
    Senator Murkowski. Senator Leahy, I do not know, maybe 
there is a correlation. Alaska's mosquitos are legendary in 
their size. We do not have many bats up there.
    Senator Leahy. We use fly swatters. I remember Ted Stevens 
told me they use baseball bats in Alaska.
    Senator Murkowski. They are real.
    Senator Leahy. There are aspects that are humorous. It was 
amazing when we started looking into this and realizing, and 
all of a sudden we started to hearing from other States. This 
is costing them a fortune in either crops lost or pesticides, 
if you are trying to raise organic farms, that creates a 
problem.
    Anyway, thank you very much. Thank you, Madam Secretary.
    Senator Murkowski. Thank you, Senator Leahy. I am told the 
vote has been pushed back a few minutes so we will have a 
little more time. I know I have more questions and hopefully my 
colleagues will as well.

                               KING COVE

    Secretary, I do want to make sure I correct the record. I 
noted in my opening comments that since the last time we were 
together in a hearing, there had been two Medivac's from King 
Cove, and one had been Coast Guard Medivac. I stand corrected. 
The information that I have received is on the 24th of 
February, there was an individual, a 50-year-old man from 
California, who was having a cardiac emergency there in King 
Cove. The Coast Guard was requested to come because of weather, 
the private Medivac was not able to get in. The Coast Guard 
said they could not come. They had other emergencies they were 
attending to. The individual, fortunately, was able to be 
stabilized and he went out the next morning in a private 
Medivac.
    I think it speaks to the issue that we cannot always count 
on our Coast Guard to be the Medivac. That is not their mission 
set. That is not what they do. Fortunately, they have been 
there to help with life saving efforts in the past. It speaks 
again to the need, the very direct need to address the 
situation in King Cove, to provide a life saving road to folks.

                                 ARCTIC

    I wanted to ask a follow up to the question regarding 
funding for the Arctic that I presented in the Energy 
Committee. I mentioned to you that under the implementation 
plan that the administration has for the national strategy for 
the Arctic region, that DOI has oversight or lead for five 
different projects, as well as being designated as the 
supporting agency.
    What I would like to get from you, Secretary, is an 
individual or a point of contact that we can be working with on 
these Arctic initiatives, whether it is what you are doing with 
the integrated Arctic management implementation plan or the 
invasive species project.
    I am moving forward with an Arctic initiative. You are 
going to be invited to be part of the Arctic caucus tomorrow, 
having an opportunity to speak on the Floor about what it is we 
need to do from a legislative perspective. The administration 
is obviously moving forward with multiple directives as we 
advance toward the Arctic Council.
    One of my frustrations has been with every agency having a 
little bit of a piece of it, there is nobody that really has 
that ownership. I am looking for that point person within your 
Department, whether it is all the way up to the top to you or 
whether you have a deputy secretary or somebody underneath. I 
would like to know that we can work with them to determine how 
we are coming with these benchmarks. If you could provide me 
with that, I would appreciate it.
    Secretary Jewell. Just quickly because I know you probably 
have other questions you want to ask, Tommy Beaudreau, my chief 
of staff, who you know, is my point person on Arctic issues. 
You already know Tommy, so I would direct you there.
    I would also say we have detailed a full time person over 
to the State Department to coordinate our efforts with theirs, 
because they are the lead role on the Arctic Council. Across a 
number of our Bureau's, there are investments in the Arctic 
specific to the five areas we are responsible for for the 
Arctic Council. We are happy to identify each of those for you, 
but Tommy is probably the easiest focal point for you to work 
with.
    Senator Murkowski. I appreciate that. He is very, very 
conversant in all these areas, I appreciate that.

                             TRIBAL COURTS

    Let me ask about Tribal courts and funding. Last year in 
the 2015 omnibus appropriations bill, we included some language 
that directed the BIA to work with the Department of Justice to 
issue a report on the budgetary needs of Tribal courts in 
Public Law 280 States.
    I am very concerned that we get no funding from DOJ within 
BIA for our Public Law 280 States, of which Alaska is one. I 
brought this issue up with Assistant Secretary Washburn last 
Wednesday when we had a hearing in Indian Affairs. I wanted to 
know the status of the report, because the report is due in 
June.
    His words were ``We do not have a report for you yet, and 
actually, the report is not required by law, we understand it 
was not in the bill, so there is no legal requirement for that 
report. It surfaced on my radar screen only fairly recently.''
    That concerns me because when something is included in our 
annual spending bills, whether it is in the bill or in report 
language, we expect that both the letter and the spirit of the 
law is going to be adhered to. He knows this is a big priority. 
I want you to know that this is a big priority for me, 
certainly for my State, and really all the Public Law 280 
States.
    Mr. Washburn indicated that he was going to work on it, but 
I need to know there will be a commitment from the Department 
that there will be a report issued by the June 14 deadline that 
details these budgetary needs.
    Secretary Jewell. We will certainly work with the 
subcommittee to follow the directions in the explanatory 
statement.

                          GREATER MOOSES TOOTH

    Senator Murkowski. Great. Thank you. I appreciate that. Let 
me speak a little bit about where we are with Greater Mooses 
Tooth and the Secretarial Order on mitigation. You know I have 
expressed my frustration on the mitigation requirements that 
are associated with the GMT permitting process.
    We have had discussion. I recognize mitigation is an 
important tool, but what I am concerned about is that we are 
perhaps moving in this direction of pay to play. I do not think 
that is where we should go, and I hope that is not where the 
Department is intending to go.
    It appears that companies that have deep pockets and pretty 
considerable investments face some requirements that may be 
tangentially related, maybe not even related at all, but 
requirements that could harm their operations as they impose a 
condition on permits.
    We have talked about where we are with Greater Mooses Tooth 
and the mitigation. I understand we have ratcheted that number 
down, which I think was important, but I am concerned about how 
we go forward with these mitigation requirements.
    That perhaps with Greater Mooses Tooth and what Conoco has 
faced there in this process is going to be formalized and 
perhaps exported to the Lower 48, I do not know, by way of the 
Secretarial Order, Secretarial Order 3330 on mitigation.
    We saw as with Greater Mooses Tooth Unit 1 (GMT1), that the 
Department is free and able to accept voluntary mitigation 
efforts as part of the permitting process, but I would like to 
know what you believe the legal justification is for the idea 
that you have authority to require them to make a payment into 
a mitigation fund in order to authorize what would otherwise be 
a permissible activity under the Federal Land Policy and 
Management Act (FLPMA).
    I am trying to understand where we go forward from here, 
because the great concern, and you know because you have had 
these conversations, as has Tommy Beaudreau, the concern is 
what is the precedent of this going to be, what happens going 
forward.
    Secretary Jewell. Senator, I am going to speak in broad 
terms about mitigation, and then I will turn it over to Mike 
because he was right in the thick of the discussions with 
ConocoPhillips around Greater Mooses Tooth in specific.
    First, mitigation is not new. When I wrote the Secretarial 
Order on mitigation, it was to say let's look broadly as we 
develop, for example, as we look at developing the California 
and Nevada deserts for renewable energy, project specific 
mitigation on site may be less important to addressing the 
mitigation issues than looking more broadly on a landscape 
scale.
    In the California desert, for example, with the renewable 
energy permits we have done, we have done some landscape level 
mitigation, for example, setting aside desert tortoise habitat, 
buying conservation easements and land to address the impact of 
those solar farms on the desert tortoise.
    Mitigation is not specific to oil and gas, it certainly is 
not specific to the project you referenced. It is something 
that we have done all along and what we are trying to do is say 
let's make sure that mitigation money is put into the projects 
that are most important to address the issues this development 
impacts.
    In the case of Greater Mooses Tooth, we are within a 
setback for Fish Creek, and there will be a gravel road that 
goes through to that development, and it will have impacts on 
the subsistence and food security of the people.
    The mitigation addresses the ability for the company to 
work with the village and others impacted by that to put that 
mitigation money into the most affected areas.
    Mike has been working on that in specific. Is there 
anything you want to add?
    Senator Murkowski. If I can just give you a little 
direction here, in terms of the different mitigation ratios 
that are out there, part of what we are dealing with, I think, 
is the uncertainty to the operator, what will be required.
    It seems to me there is a potential for a great deal of 
subjectivity here with what these mitigation ratios may or may 
not be.
    Mr. Connor. I understand the concern, Chairman Murkowski. 
There is no specific mitigation ratios that were used with 
respect to Greater Mooses Tooth. I know with respect to Army 
Corps permitting and wetlands impacts, there is a ratio that is 
applied, and we have certainly looked at that, but there is no 
ratio that has been specifically applied here.
    What we did with respect to Greater Mooses Tooth was there 
were impacts overall from the project that were identified, 
particularly to subsistence resources. Some of those were 
mitigated with the project itself, and always our goal is to 
avoid impacts, minimize impacts, and then compensate for the 
remaining impacts. That is the approach we took with respect to 
Greater Mooses Tooth.
    There were impacts to subsistence resources in general, and 
there were specific impacts, as the Secretary alluded to, from 
the final decision that we made to intrude upon the Fish Creek 
setback. That setback had been identified in planning documents 
for some time, including the 2012 integrated activity plan.
    Really, when we went to ConocoPhillips, in our mind, we had 
an objective, rational basis to request some compensatory 
mitigation. They took issue with the size of that.
    We had a discussion and we came to an agreement with 
ConocoPhillips as to the level of compensatory mitigation, and 
most effectively, how to use those dollars to develop a 
regional mitigation strategy with ConocoPhillips, BLM, and the 
Alaskan Native entities that are affected, to put together how 
to best mitigate those impacts on subsistence resources.
    I think that is viewed as a good approach. That is not BLM 
making decisions unilaterally about how to move forward in that 
mitigation strategy. I think we have a good result, and that 
strategy will help us facilitate future projects as we move 
forward.
    I want to assure you that the specific mitigation for 
Greater Mooses Tooth was focused on the impacts we saw with 
that development itself.
    Senator Murkowski. Again, I will repeat myself here, the 
fear, of course, is that rather than creating efficiencies, 
what we may have developing here is additional 
unpredictability, lack of clarity in terms of where you are 
going with the project that deters investment, that really can 
derail a project.
    I think what we are trying to do is avoid what would be 
viewed as surprise requirements or requirements that come up at 
a later point in the process, where you have a company that has 
invested millions of dollars into it already, and they are 
looking at a situation where because of these requirements that 
had not been anticipated or anticipated to the level that 
perhaps the agency was, that they actually have to revisit that 
project.
    Those are exactly the conversations we were having with 
ConocoPhillips, who were saying we have invested millions in 
this, and are we going to have to pull the plug on this because 
of where we are.
    I am a little more optimistic now today where we are with 
GMT1 than I was a month ago. I think it is important to state 
very clearly that the concern and the anxiety up north is this 
is GMT1, what is the next project going to hold, what will the 
precedents be. We need to know there is a level of transparency 
that is fair and equitable.
    I have long exceeded my time, and I need to turn to my 
ranking member.

                          NEW MEXICO MONUMENTS

    Senator Udall. Thank you, Chairman Murkowski. Just a quick 
question on our New Mexico monuments, Secretary Jewell. You 
have been out and seen them and assisted with their 
establishment, Organ Peaks and Rio Grande Del Norte.
    I noticed the President's budget proposes a significant 
increase of $16 million for monuments throughout the country, 
what are BLM's plans for moving forward with management changes 
on the new monuments in New Mexico, and what funding is 
included in the President's budget for these monuments, and how 
will those funds be used?
    Secretary Jewell. I am going to address the first part 
while Mike takes a look through the book to come up with the 
actual numbers.
    First, in any new national monument, our first approach is 
to make sure we plan, we understand the resource, we work with 
local folks, and that is where these first steps are. Some of 
that involves where can we leverage existing resources, where 
can we work with other partners?
    That planning effort is going on, along with making sure we 
are working along side those existing landowners and land uses 
within the monuments so they are reassured.
    Specific numbers, Mike, do you have it? Go ahead.
    Mr. Connor. Senator, overall, as you mentioned, there is a 
bump up in the BLM national conservation lands account. We have 
$4.4 million allocated to New Mexico, specifically $2 million 
to Organ Mountains-Desert Peaks, and $1.5 million to Rio Grande 
Del Norte. They will be used for visitor services needs, basic 
security, starting partnership programs, those fundamental 
aspects that are key to those people enjoying those monuments.
    Senator Udall. Thank you very much. Thank you for your 
testimony. Thank you for your service. I just want to say to 
the chair, you and Senator Leahy talked about the mosquitos. My 
experience has been in a lot of western States, if there are a 
lot of bugs and a lot of mosquitos, the fishing is great. I do 
not know whether that is true in Alaska. The more bugs, the 
better the fishing. You have to endure it, but it is always 
enjoyable.
    Thank you. I see Senator Cassidy has come, so I am going to 
yield back any time I would have.
    Senator Murkowski. Thank you, Senator Udall. I will note 
that we do have a vote, but I want to let Senator Cassidy go. 
Welcome.
    Senator Cassidy. Thank you, Senator Murkowski, and thank 
you, Dr. Jewell, for your phone call the other day, very 
gracious.
    We do have a vote. I am going to ask one question and then 
submit the others for the record.

                            REVENUE SHARING

    The last time we spoke, my concern was the budget chooses 
to take away dollars from the Gulf Coast States, and your reply 
was that it was a Federal resource and really beyond the 
control of the State. We made a case that the states have 
disproportionately borne this.
    That said, I am told that recently you stated that states 
in the Atlantic will have a chance to pull themselves out of 
the running for possible Federal approval of offshore drilling. 
In that case, you are giving the states control over what in 
the Gulf Coast is stated to be a federally controlled interest 
without the states having any say so.
    How can you in a sense reconcile the two? On the one hand, 
I am on the Atlantic and I do not want to develop, Federal 
taxpayer be gone with you because I have control. On the other 
hand, in the Gulf of Mexico, if I am the people of Louisiana 
relying on those dollars to rebuild my coast line, sorry, we 
are the Federal Government and we have complete control and you 
have no stake.
    I do not see how you reconcile those two.
    Secretary Jewell. Senator, thanks for the question. I 
appreciate your passion for the State of Louisiana. Let me give 
you a simple example, and that is Florida. Florida is on the 
Atlantic. It is also on the Gulf. Florida has made it very 
clear to our Department that they do not want to see----
    Senator Cassidy. If I may----
    Secretary Jewell. Let me just finish, if I may. That is 
input in advance of our draft proposed plan for the five year 
drilling plan. There are several states in the Atlantic that 
have said we would like you to consider a lease here, and there 
are several States that have not. The Pacific states have said 
we do not want to be in--other than Alaska, of course.
    We have moved to honor the interests of those states as we 
take limited resources and focus them on the areas where the 
states do want Federal offshore leasing because of the economic 
activity it does drive to their states.
    Revenue sharing as you talked about with GOMESA is an 
element, but there are many other economic activities that 
occur on the shore lines by virtue of the Federal offshore oil 
and gas activities, and I think that is resulting in some of 
the Atlantic states saying we would like to be included. There 
are many more bites at that apple on the Gulf lease sales.
    Senator Cassidy. Thank you. As I gather, I think you just 
supported my contention. If you are going to say listen, the 
states have the option to pull themselves out and we recognize 
they have an interest, and we are going to honor that they have 
an interest, et cetera, than in the case of the Gulf of Mexico, 
it is not as if we have an interest, rather, we must do exactly 
what we are told.
    I am not sure it is reconciled any other way.
    Secretary Jewell. Senator, the point I am making is 
development of the Outer Continental Shelf, which is a Federal 
resource, already supports the economies onshore for many of 
those states.
    Senator Cassidy. That is a different issue, so the 
development of the Outer Continental Shelf has borne some role 
in the dissolution of Louisiana's coast line. That is actually 
a separate issue.
    The primary issue is that in this case you say the State 
can effectively control access to the revenue associated with 
drilling in the Outer Continental Shelf, but in the case of the 
Gulf Coast states, you do not have control over this revenue, 
because denying access to drilling in the OCS off these states 
is effectively denying access to the revenue.
    So, okay. You control the revenue on behalf of the Federal 
taxpayers, and in these states, however, you have no control 
over that revenue. We consider it a Federal dollar, and we are 
going to distribute it elsewhere.
    We have a call for votes, and I promised I would be short. 
I do think your answer supports my contention that the State is 
the one which should have a role. You have established the 
precedent really in allowing them to deny the Federal taxpayer 
access to the revenue derived thereof.
    Thank you very much.
    Secretary Jewell. Senator, may I have a response?
    Senator Murkowski. Very briefly.
    Secretary Jewell. I just want to say that I do not think my 
comments are any different than what I stated, the Gulf Coast 
States, with the exception of Florida, have said we want you to 
continue to lease the Outer Continental Shelf, and we are, and 
we are doing it twice a year.
    Some states have said we do not want leasing, and they have 
been excluded from the plan.
    Senator Cassidy. The issue is not the lease, the issue is 
the revenue derived thereof. That is really what we are talking 
about with the GOMESA revenue sharing. That is where I think 
you in the one case allow the State to deny the Federal 
taxpayer the revenue, and in the other State, you say no, you 
cannot deny the Federal taxpayer the revenue. That seems to be 
the inconsistency, not the leasing, per se.
    Secretary Jewell. I do not believe I am being inconsistent.
    Senator Murkowski. Senator Cassidy, know how much I agree 
with your concerns here and know that the issue of revenue 
sharing, fair and equitable revenue sharing, from our Outer 
Continental Shelf areas, is going to be a priority of mine.
    I do think as we look at this budget and areas where I 
think the administration is just way off base is exactly what 
they have done with the GOMESA revenue sharing, the agreement 
that was made to pull back on that, I think, is just wrong.
    I think it is going to be important to make sure that we 
have a level of revenue sharing where those states, those 
coastal states, that host economic activity off their shores, 
their coast lines, are fairly compensated.
    I mentioned the issues of the Arctic and whether it is an 
emergency evacuation route for a community like Kivalina or how 
we are going to fund a deepwater port for Arctic activities, I 
look to revenue sharing and increased production in our OCS as 
being that way we will be able to fund these vital priorities.
    It is pretty tough trying to find the money under rocks 
onshore right now, particularly on our Federal lands. This is a 
priority of mine and I look forward to working with you on 
that.

                     ADDITIONAL COMMITTEE QUESTIONS

    I think they have probably closed out our vote, so I hate 
to wrap it up when we are having so much fun.
    Senator Cassidy. Thank you.
    Senator Murkowski. Secretary Jewell, thank you for being 
here, and Deputy Secretary Connor, thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Sally Jewell
             Questions Submitted by Senator Lisa Murkowski
    Question. I have some concerns over the process associated with 
access to public lands for purposes of filming and have heard numerous 
complaints about people having access to our public lands in this 
regard. Most of the criticism is associated with issues on forest 
lands; however, it is an issue in National Parks and on the Bureau of 
Land Management (BLM) lands as well.
    I am concerned that the law on commercial filming that Congress 
passed back in 2000 is being misconstrued and applied in a way to 
potentially restrict or outright deny access--certainly that is the 
case on Forest Service lands. It is my understanding these are not 
large movie scale kinds of operations but 1, 2, or maybe 3 people with 
cameras or hand held video camera equipment who do not disturb the 
landscape. In some places people are being allowed access and in some 
areas they are not leaving folks quite frustrated.
    What activities do the Park Service and BLM consider ``commercial'' 
for purposes of issuing permits under the law?
    Answer. The Department of the Interior (DOI) issued regulations on 
August 22, 2013, (43 CFR PART 5) to implement the commercial film rule 
in Public Law 106-206. While the Department of Interior's regulations 
adopt a broad definition of commercial filming, there are exceptions 
which ensure the permitting and fee requirements do not impose an 
unreasonable burden.
    Under the regulations, commercial filming includes the ``film, 
electronic, magnetic, digital, or other recording, of a moving image by 
a person, business, or other entity for a market audience with the 
intent of generating income. Examples include, but are not limited to, 
feature film, videography, television broadcast, or documentary, or 
other similar projects. Commercial filming activities may include the 
advertisement of a product or service, or the use of actors, models, 
sets, or props'' (43 CFR Sec. 5.12). While commercial filming 
activities are generally required to obtain a permit, most still 
photography is exempt from this requirement unless: (i) it uses a 
model, set, or prop; or, (ii) the agency determines a permit is 
necessary because a proposed location is in a closed area or the agency 
would incur costs for providing oversight. Practically, this means, for 
example, that a photographer shooting an engagement photo in an area 
otherwise open to the public without any props would not need a permit 
even though he or she was presumably getting paid. The other important 
exception relates to news gathering activities. They do not require a 
permit unless: (a) one is necessary to protect natural and cultural 
resources, avoid use conflicts, ensure public safety, or authorize 
entrance to closed areas; and, (b) getting one does not interfere with 
news gathering (43 CFR 5.4(a)).
    The requirement that other commercial activities outside of these 
exceptions obtain a permit is consistent with Public Law 106-206, which 
directs Federal land management agencies in DOI and the U.S. Department 
of Agriculture (USDA) to collect a ``fair return'' for the use of the 
lands they manage. With respect to smaller groups that are required to 
get a permit, the recently issued fee schedule establishes a sliding 
scale linked to a group's size.
    Question. What are the fees for individuals to get a permit for 
filming on Park or BLM lands? How long does it take? What sort of 
paperwork is involved?
    Answer. Only individuals or groups required to obtain a BLM permit 
are subject to a fee requirement, which includes two pieces. The first 
is cost recovery to reimburse the Government for the cost of processing 
their application. This is determined by the number of hours it takes 
to process the application. Cost recovery for a typical permit taking 1 
to 8 hours to process would be $121. Cost recovery fees are updated 
each fiscal year using the GDP/IDP index for inflation (43 CFR 
Sec. 5.8, 43 CFR 2920.8(a) and (b)). In addition to cost recovery, 
individuals must also pay a location fee based on the type of filming 
(still or motion), the number of people involved, and the number of 
days. Location fees vary by State and group size and were established 
using statewide appraisals. Fees range from $100 to $250 per day for 
commercial still photography and $250 to $600 per day for commercial 
filming of live action depending on the number of people.
    Processing times vary from a day or two to several weeks depending 
on the complexity of the production operation, whether the location is 
a popular area, and whether the National Environmental Policy Act 
(NEPA) has to be completed before filming can begin. The processing 
time also depends on the potential for impacts to other resources or 
activities, and the availability of BLM personnel to process the 
permit. On public lands, the BLM works with applicants to find 
alternate locations for filming activities if the location selected 
initially presents unique management challenges.
    The permitting process and items needed vary depending on the 
location chosen and the type of filming proposed. The BLM works with 
film crews to ensure they are aware of the requirements specific to 
their request. To apply for a permit on public lands, film crews must 
complete Land Use Application Form 2920. They must also prepare a 
Detailed Description of Filming Activity form and provide a map showing 
the specific location(s) requested. Depending on the location, time of 
production, and type of production, additional items may be required, 
such as a bond or reimbursement for overtime costs. Bonds may be 
required to assure reclamation of sets or sensitive locations as 
appropriate.
    The National Park Service (NPS) uses two applications for 
commercial filming and still photography--a short form for small crews 
with minimal equipment, and a long form for more complex proposals. 
Contingent on the complexity of the request, a short form may take as 
little as 2 days to be processed, while a request involving large 
crews, more equipment, and unique activities such as pyrotechnics, may 
take several weeks. Permits are subject to cost recovery charges and 
location fees. Cost recovery charges are based on the actual costs 
incurred in accepting the application, processing the request, and 
facilitating the permitted activity once approved. Location fees are 
based on a schedule developed by the NPS, Bureau of Land Management, 
Fish and Wildlife Service, and Forest Service. The schedule ensures 
consistent location fees between the agencies for similar activities. 
Fees are determined by the number of people involved with the permit 
and the number of days the activity is on Federal lands.
    Question. How do the requirements for individuals or small groups 
(less than five compare) with the large Hollywood style operations?
    Answer. On BLM public lands, smaller operations typically pay 
reduced application processing and location fees. Their applications 
are also likely to be simpler to prepare and process because less 
information would be necessary for activities that are smaller in 
scope. Larger operations (e.g., a major motion picture shoot) routinely 
require a bond, an onsite filming monitor, and additional permit 
stipulations that would not typically be required for smaller film 
crews. Large productions and requests to film outside popular locations 
will also usually require an onsite pre-application conference with the 
relevant BLM personnel.
    The NPS uses two applications for commercial filming and still 
photography--a short form for small crews with minimal equipment, and a 
long form for more complex proposals. Commercial video crews of three 
people or less can be issued a permit for an extended period of time, 
usually up to 1 year, with authorization for unlimited access to areas 
of the park open to the general public. Fees are determined by the 
number of people involved with the permit and the number of days the 
activity is on Federal lands. Small groups do not necessarily require 
on-site monitoring. Proof of insurance would be required of all 
commercial filming, though larger operations and operations with 
certain special effects would be required to carry higher amounts.
    Question. How do the agencies ensure fair and consistent 
application of the law?
    Answer. In order to ensure consistency among Bureaus, the 
Department of the Interior issued regulations on August 22, 2013, (43 
CFR PART 5) to implement the commercial film rule in Public Law 106-
206. Taking into consideration comments received from the public and 
industry and trade groups during the rulemaking process, the agencies 
developed a location fee schedule for use by all agencies to ensure 
consistency and that regulations were well-defined.
    Question. Would the Department consider exempting from permitting a 
de minimis number of people who might engage in filming on Forest 
Service and other public lands?
    Answer. With respect to activities on public lands, the 
Department's regulations contain a number of exemptions from the 
permitting requirement that capture a number of de minimis activities. 
As explained above, still photography and news gathering activities 
generally do not require a permit except under the specific 
circumstances identified in the regulations (43 CFR 5.2(b)). The 
Department would defer to the Department of Agriculture regarding 
management actions on Forest Service lands.
    Question. Shell is forced to use the Bureau of Safety and 
Environmental Enforcement's (BSEE) existing Suspension of Operations 
regulations which were developed to address circumstances in the Gulf; 
however, Alaska is not the Gulf. Because of the unique and complex 
operations and the short timeframe for actually being able to operate 
in the Arctic compared to the Gulf, it is appropriate for BSEE to have 
Arctic-specific suspension regulations that reflect those differences. 
Do you agree? Why or why not? Additionally, BSEE has the authority to 
draft such regulations, but apparently has declined to do so. Why?
    Answer. BSEE's regulations governing offshore oil and gas 
operations conducted on the Outer Continental Shelf (OCS) apply to all 
activities on the OCS regardless of location. BSEE does have the 
ability to issue additional regulations to address unique operating 
conditions and constraints. For example, BSEE is currently taking 
public comment on an Arctic exploratory drilling proposal. BSEE has not 
declined to draft Arctic specific suspension regulations and continues 
to explore these issues. BSEE is evaluating whether it can use its 
existing regulatory authority to address any unique and complex 
challenges associated with Arctic operations (ice coverage for the 
majority of the year). BSEE's analysis of this issue is ongoing with 
the goal of continuing to ensure the safe and environmentally 
responsible exploration and development of the Arctic OCS in accordance 
with the Outer Continental Shelf Lands Act and the ability to address 
suspension concerns in a timely manner.
    Question. I have mentioned on many occasions that I am concerned 
about the pace of development on public lands--particularly in Alaska 
where lack of production threatens the sustainability of the Trans-
Alaska Pipeline. The Department had a goal of permitting 10,000 
megawatts of renewable energy production on Federal lands that was met 
in 2012. And currently, the administration has a goal for a ``new 
renewable energy economy.''
    Does the Department have a similar goal for conventional 
production?
    Answer. The BLM provides for oil and gas development under the 
Mineral Leasing Act. Industry currently holds valid leases to 34 
million acres of public lands but is only actively developing one in 
three of those acres. Last year, the BLM approved 50 percent more 
drilling permits than industry drilled that year, and oil and gas 
companies currently hold approximately 6,000 permits ready for drilling 
with no further action from the BLM--a 2-year supply under current 
drilling rates.
    Question. If not, why? And, to what extent has the lack of any 
goals played a role in the downward trend of leasing on Federal lands?
    Answer. BLM is responsible for making oil and gas resources 
available to industry where appropriate through its land use and 
leasing processes; however, actual production that takes place is 
generally up to industry. Oil and gas production is largely driven by 
economic and geologic considerations of the companies developing those 
resources. As a result, market conditions and technology advances cause 
shifts in areas where that development is focused. Oil and gas 
production trends from public and Indian lands have closely tracked 
that of comparable State and private lands. In fact, from 2008 to last 
year, oil production from lands requiring a BLM permit has increased 81 
percent--from 113 million barrels to 205 million barrels. That is 92 
million more barrels in 2014 than in 2008. Even where industry has seen 
declines, like natural gas, those numbers often track statewide trends 
in the Western States where BLM predominantly works (e.g., New Mexico 
and Wyoming).
    Question. According to the leasing statistics on DOI's own Web site 
for BLM lands over the past two decades, there is a downward trend. 
Over the course of the Clinton administration, the average acres leased 
per year was 3.3 million. Throughout the George W. Bush administration, 
the average acres leased was 3.6 million per year. During the first 6 
years of the Obama administration, that number drops to an average of 
1.6 million acres per year. If, like me, you view this information as 
negative, DOI's proposed rules relating to hydraulic fracturing, 
methane, and potential royalty rate increases certainly won't help 
reverse this trend.
    Is this a trend the Department is aware of and happy with?
    Answer. The BLM continues to provide significant opportunity for 
industry through leasing on public lands and permitting on public and 
tribal lands. However, industry has chosen to lease fewer acres in 
recent years, likely due in significant part to a large inventory of 
existing leases companies acquired in prior years. During the last 
fiscal year, the BLM offered over 5,500,000 acres for leasing, yet 
industry only bid on roughly 900,000 acres or 16 percent. Excluding 
Alaska, the BLM offered roughly 1.22 million acres in fiscal year 2014, 
yet industry only bid on 674,084 of those acres (55 percent), even 
though nearly all of the parcels offered for lease in the lower 48 were 
based on industry expressions of interest. These parcels are offered on 
top of the 34 million acres that industry already holds under lease, 
only one-third of which are actively producing oil and gas.
    The recently published final rule on hydraulic fracturing is 
estimated by the BLM to cost industry on average less than one-quarter 
of 1 percent of the total cost of drilling a well. The BLM does not 
anticipate this rule to appreciably impact oil and gas production from 
public and Indian lands. The BLM has not yet published its proposed 
rule on venting and flaring or made specific decisions with respect to 
royalty rates, but will take into account the full range of information 
regarding anticipated impacts to both industry and Federal revenues as 
specific proposals are developed or considered.
    Question. Is there anything the Department is proposing that you 
would argue is going to result in a reversal of that trend?
    Answer. Most parcels with high development potential and low 
resource conflict are part of the 34 million acres already under lease 
to the oil and gas industry. For parcels with more potential for 
conflict, the BLM is working hard to resolve conflicts where they 
arise. For example, BLM reduced the number of successful protests 
because of improvements in its process. In calendar year 2014, while 
690,958 acres within 484 parcels were protested, 478 of those parcels 
or 98 percent were eventually offered for leasing, reflecting the 
strong upfront analysis for the parcel posting.
    Similarly, the BLM continues to work closely with the U.S. Fish and 
Wildlife Service and Western States on a West-wide planning effort to 
put in place meaningful conservation measures for the Greater sage-
grouse along with innovative mitigation programs that together will 
increase certainty for industry while providing for the long-term 
protection of the species. The BLM is also working to finalize Master 
Leasing Plans in sensitive areas across the West. Together these plans, 
once finalized, will allow for responsible oil and gas development 
while also protecting other resources that are important to local 
economies.
    Question. If the Department is unhappy with this trend, what are 
you doing to see that leasing on our public lands occurs at a rate 
similar to previous Republican and Democratic administrations?
    Answer. Most parcels with high development potential and low 
resource conflict are part of the 34 million acres already under lease 
to the oil and gas industry. For parcels with more potential for 
conflict, the BLM is working hard to resolve conflicts where they 
arise. For example, BLM reduced the number of successful protests 
because of improvements in its process. In calendar year 2014, while 
690,958 acres within 484 parcels were protested, 478 of those parcels 
or 98 percent were eventually offered for leasing, reflecting the 
strong upfront analysis for the parcel posting.
    Similarly, the BLM continues to work closely with the U.S. Fish and 
Wildlife Service and Western States on a West-wide planning effort to 
put in place meaningful conservation measures for the Greater sage-
grouse along with innovative mitigation programs that together will 
increase certainty for industry while providing for the long-term 
protection of the species. The BLM is also working to finalize Master 
Leasing Plans in sensitive areas across the West. Together these plans, 
once finalized, will allow for responsible oil and gas development 
while also protecting other resources that are important to local 
economies.
    Question. In 2013, a report commissioned by the Department 
concluded that raising royalty rates on onshore oil and gas production 
on public lands would discourage investment and bring less money to the 
treasury, and consequently was not warranted.
    What has changed since then to convince the Department that a 
royalty increase is warranted?
    Answer. One of the Department's primary responsibilities with 
respect to oil and gas development from public lands and waters is 
ensuring that the American public receives a fair return from the 
production of those resources. The Mineral Leasing Act of 1920 (MLA) 
requires the BLM to impose a royalty rate ``at a rate of not less than 
12.5 percent in amount or value of the production removed or sold from 
the lease'' for new competitively issued leases. (30 U.S.C. 
226(b)(1)(A)). The BLM currently fixes the rate for such leases at 12.5 
percent. (43 CFR 3103.3-1(a)(1)). For non-competitively issued leases, 
the royalty rate is fixed by the MLA at a flat 12.5 percent (30 U.S.C. 
226(c)).
    The conclusions of the report referenced (``Comparative Assessment 
of the Federal Oil and Gas Fiscal System'') were nuanced. In addition, 
a range of other reports and information suggest that taxpayers could 
be getting a better return from increasing the onshore royalty rate. 
The adequacy of the Department's oil and gas fiscal system has been the 
subject of many studies by the Government Accountability Office (GAO) 
and the Department's Office of the Inspector General (OIG) and others. 
The most recent one was completed by GAO in 2013 (``Oil and Gas 
Resources: Actions Needed for Interior to Better Ensure a Fair 
Return''). Both the GAO and the OIG have expressed concerns about the 
adequacy of the existing BLM regulations. Based on comparison of 
Federal Government oil and gas revenues with revenues received by 
foreign governments, both have concluded that the Federal Government 
receives one of the lowest ``government takes'' in the world. Rates 
charged by many State and private resource owners in the U.S. suggest 
similar a similar discrepancy for the Federal onshore rate. As result, 
the United States could be foregoing significant revenue from the 
production of Federal oil and gas resources. Most recently, in 2013 the 
GAO expressed concerns about the BLM's ``lack of price flexibility in 
royalty rates'' to respond to market conditions and ``the inability [of 
the BLM] to change fiscal terms on existing leases.''
    The GAO also faulted the Department for not having procedures in 
place to routinely evaluate the ranking of the Federal oil and gas 
fiscal system, or the industry rates of return on Federal leases versus 
other resource owners. In response to these findings, the BLM, in 
coordination with the Bureau of Ocean Energy Management (BOEM), 
contracted for a comparative assessment of oil and gas fiscal systems 
(IHS CERA Study 2011). While that study concluded that the Federal 
Government's fiscal system and overall Government take were generally 
in the mainstream nationally and internationally, it pointed out the 
benefits of a sliding scale royalty system instead of the current fixed 
rate established by existing regulations. The purpose of the sliding 
scale system would be to allow the Department to better respond to 
changes in market conditions and other factors. In addition to the IHS 
CERA Study, the BLM also reviewed a separate study that was conducted 
by industry, independent of the BLM (Van Meurs Study (2011)). The Van 
Meurs Study looked at a wide range of jurisdictions and regions across 
North America and provided a comparison of the oil and gas fiscal 
systems on Federal, State, and private lands throughout the United 
States and the provinces in Canada. At the time it was published, the 
Van Meurs Study suggested that in the United States: (1) Government 
take was generally lower on Federal lands than the lessor's ``take'' on 
State lands or private lands; (2) Government take was higher for gas 
than for oil; and (3) The internal rate of return on leases was lower 
for gas than for oil.
    To date there is no decision to change the royalty rate. However, 
based on the foregoing, the BLM published an Advance Notice of Proposed 
Rulemaking (ANPR) to solicit comments on potential changes to its 
royalty rate regulations, among other things, with the intent of 
ensuring that BLM is providing the American people a fair return on the 
oil and gas resources extracted from BLM-managed lands.
    Question. Does the Department believe raising royalty rates would 
discourage investment and bring less money to the Federal treasury?
    Answer. No, the Department anticipates that any decision to adjust 
the onshore oil and gas royalty rate would be made with the expectation 
that there would be a positive effect on net royalty revenues to the 
Treasury (with any Federal revenue gains shared with the States in 
which the production takes place). The Department has not made any 
decision yet regarding specific changes to the regulations governing 
the royalty rate charged for competitively issued oil and gas leases.
    Question. Does the Department worry that increasing the royalty 
rate and driving away investment on public lands will make it even more 
difficult to provide funds for the land and water conservation fund?
    Answer. No. Any increase in the royalty rate would be designed to 
ensure that taxpayers are receiving a fair return from oil and gas 
development, not to discourage that development.
    Question. In the budget request for the Bureau of Ocean Energy 
Management 2.5 million was requested to address aging infrastructure 
and the future needs to decommission and plug aging offshore wells. 
While I can understand that the Department is seeking to protect 
Federal waters offshore by ensuring that the responsible party pays for 
such costs, it is bewildering that people are still waiting in Alaska 
for the necessary remediation of legacy wells drilled by the Federal 
Government.
    Please provide an update on the requirement from the current 
spending bill on the Alaska Native Claims Settlement Act (ANCSA) 
contaminated sites, as well as the most current information as it 
relates to expenditure of funds provided through the Helium bill for 
cleanup.
    Answer. The BLM is in the process of developing a database of 
potential contaminated sites conveyed to ANCSA corporations based on 
inventories compiled by State and Federal partners in Alaska. A 
preliminary review of inventoried sites in the database has found that 
a majority of sites are not on land conveyed to an ANCSA entity, and 
those sites that were conveyed are on parcels that were not managed by 
the BLM prior to conveyance. The BLM expects to make the database 
available to the public after verification of its contents. The BLM is 
on schedule to submit a report to Congress during the summer of this 
year. Additionally, BLM Director Neil Kornze hosted a stakeholder 
roundtable discussion on contaminated lands with Federal partners and 
congressional staff in Anchorage on March 10, 2015, to discuss the 
proposed interagency database verification process and establish a path 
forward, including outreach to ANCSA corporations.
    With respect to the use of funds from the 2013 Helium Stewardship 
Act, BLM-Alaska is currently using approximately $7 million to plug 
Umiat Wells 1, 3 and 11 and remove wellheads at Umiat 4, 8, and 10 in 
the National Petroleum Reserve in Alaska (NPR-A). This work is being 
performed by Marsh Creek, LLC, under an interagency agreement with the 
U.S. Army Corps of Engineers. This work is scheduled to be completed by 
mid-to late April 2015. In addition, the BLM National Operations Center 
will soon announce a solicitation for remediation services of 
additional NPR-A Legacy Wells based upon priorities established in BLM-
Alaska's 2013 Legacy Wells Strategic Plan.
    Question. In May 2014, the Fish and Wildlife Service issued two 
draft rules and one draft policy related to critical habitat 
designations under the Endangered Species Act. The Service suggests 
that these proposals are simply an update that makes the regulations 
regarding critical habitat designations consistent with current policy 
and current practices. I am concerned that this is not the case and 
that the proposals greatly expand areas the Service may designate as 
critical habitat for two reasons.
    First, the proposals give the Service the authority to designate 
unoccupied areas as critical habitat even if occupied areas are 
sufficient to provide for the conservation of the species. Second, the 
proposals give the Service the authority to designate unoccupied areas 
as critical habitat if the habitat is not currently suitable--and may 
not ever be suitable--to be habitat essential to the conservation of 
the species. Under these proposals, the Services could designate large 
swaths of land without a species as critical habitat if they believe 
one day it might be suitable habitat using climate change models that 
may or may not be accurate.
    Will the Department commit to ensuring that the final rules and 
draft policy do not expand the Service's ability to designate critical 
habitat in areas that are not currently suitable for a listed species?
    What is the timeframe for releasing a final rule?
    Answer. The proposed rule you are referring to is the May 12, 2014, 
proposed rule by the U.S. Fish and Wildlife Service (FWS) and the 
National Marine Fisheries Service implementing changes to the 
regulations for designating critical habitat (79 FR 27066-27078). That 
proposed rule serves to revise regulations at 50 CFR 424 which, in 
part, interpret and implement the statutory definition of ``critical 
habitat'', which includes ``(ii) specific areas outside the 
geographical area occupied by the species at the time it is listed . . 
. upon a determination by the Secretary that such areas are essential 
for the conservation of the species.'' The FWS's authority and ability 
to designate critical habitat in areas that were not occupied at the 
time of listing and are not currently suitable for a listed species 
flows from the statutory definition, but is limited to circumstances in 
which there is a specific determination that such areas are essential 
for the conservation of the species.
    The FWS has learned through years of experience that the step-wise 
approach provided by the existing regulation can result in a larger 
designation that is less effective for species conservation. The 
proposed rule change would subsume and supersede language in the 
existing regulations that provides that areas outside the 
``geographical area presently occupied by the species'' shall be 
designated only when ``a designation limited to its present range would 
be inadequate to ensure the conservation of the species.'' While the 
Department cannot commit to the outcome of the final rulemaking, be 
assured the FWS's objective in proposing this revision is not to expand 
authority to designate critical habitat, but rather to remove an 
unnecessary limitation to achieve targeted designation of areas 
essential for the conservation of the species. The FWS focuses on areas 
where designation can make a difference for conservation of the species 
and avoiding areas where designation may provide a disincentive for 
voluntary conservation efforts.
    To that end, the Service's proposed policy with regard to the 
discretion to exclude specific areas from designation under authority 
of section 4(b)(2) reflects the intention, based on years of experience 
in designating critical habitat and defending those designations, to 
focus the designation on those areas where an added consideration to 
any section 7 consultation may benefit conservation of the species, but 
to generally exercise discretion to exclude from a designation areas 
where such benefits are unlikely or small and where designation may be 
a disincentive to voluntary conservation actions.
    FWS anticipates finalizing the revised regulations and policy for 
critical habitat in early summer 2015.
    Question. The sage-grouse rider that was included on the fiscal 
year 2015 Interior appropriations bill prohibits the Department from 
writing or issuing a proposed rule pursuant to the greater sage-grouse 
as is required when listing a species under Section 4 of the Endangered 
Species Act. The Department made the determination that the language of 
the bill allows you to continue working on a listing determination and 
only prohibits writing and publication of a rule.
    Many question that interpretation and would argue that, regardless 
of whether you can technically take such actions, doing so is outside 
of the spirit of the appropriations language and is one more example of 
the Department using a questionable technical interpretation to 
circumvent the actual intent of Congress.
    Regardless of whether the Department believes that you are legally 
entitled to do everything other than write or publish a rule on the 
Greater sage-grouse, do you think moving forward full steam a-head 
squares with the intent of the provision?
    Answer. The Department and the FWS are not ignoring the General 
Provision relating to sage-grouse included in the fiscal year 2015 
appropriation. At the same time, the Department is trying to comply 
with its obligation to the court to make a determination by the end of 
fiscal year 2015 as to whether a listing proposal is warranted or not 
warranted, as established in the 2010 settlement agreement. If FWS 
determines that a listing is not warranted, FWS will be in compliance 
with the settlement agreement and require no extension or relief. If 
the FWS determines that listing is warranted, the FWS will not write or 
publish a proposed rule listing the species until such time as Congress 
restores the authority to do so.
    Question. The Department is prohibited from writing or issuing a 
proposed rule related to the greater sage-grouse. Is it in your legal 
authority to use the work product the Department gathers over the 
remainder of this fiscal year, when the rider is in effect, to write 
and publish a rule should the rider go away?
    Answer. Yes. We believe doing so would be consistent with our 
Solicitor's opinion that we can gather information for the listing 
determination and be in compliance with the appropriations language.
    Question. This is a slightly more complicated issue, but I am 
interested in the Department's interpretation of how the settlement 
agreement interacts with the appropriations bill, which is the law. 
Paragraph 2 of the settlement agreement expressly states ``[t]he 
[Department] shall submit a Proposed Rule or a not-warranted finding to 
the Federal Register for the . . . Greater sage-grouse, including any 
Distinct Population Segments, by fiscal year 2015.'' Paragraph 21 of 
the settlement agreement then states, ``No provision in this Agreement 
shall be interpreted as, or constitute, a requirement that the 
[Department is] obligated to expend or pay any funds exceeding those 
available, or take any action in contravention of . . . any other 
appropriations law.''
    Paragraph 2 requires the Department to submit a proposed rule in 
the Federal Register. The fiscal year 2015 prohibits the Department 
from writing or issuing a rule that would be published in the Federal 
Register. Paragraph 21 makes clear that the settlement agreement does 
not supersede Federal law.
    If the settlement agreement requires the Department to submit a 
proposed rule to the Federal register and you're prohibited from doing 
so by Federal law, doesn't the appropriations bill, by its very 
language, prohibit the Department from acting in the manner that the 
settlement agreement requires you to act? And, if so, how can the 
Department justify the course of action in moving forward with a 
listing determination?
    Answer. The FWS will comply with the court-ordered settlement to 
make a determination by the end of fiscal year 2015 as to whether a 
listing proposal is still warranted or not warranted. Reaching a 
determination does not involve writing or issuing a proposed rule. If 
FWS finds that listing is still warranted, the General Provision in the 
fiscal year 2015 appropriation and the Anti-Deficiency Act will prevent 
the FWS from writing or issuing a proposed rule.
    Question. I was pleased to see that the Department included $22 
million towards completion of Alaska land conveyances. This is the 
first time in many years that the Department hasn't slashed the program 
funding from the previous year. Last year, there were about 7 million 
acres pending approval of interim conveyances and about 56 million 
acres lacking surveys.
    What will the Department be able to accomplish with the funds 
requested in the Budget?
    Answer. The BLM estimates that survey and patent work is needed on 
40.8 million acres of land in order to complete the United States' 
obligation to the State of Alaska under the Alaska Statehood Act. This 
field season BLM plans to survey approximately five million acres of 
the remaining State survey obligation. The BLM is also working with the 
State of Alaska to implement a new survey method using modern 
technology that could reduce the timeline for surveys by 60-75 percent 
and reduce the cost to the American taxpayer by 50 percent or more.
    For lands covered by the Alaska Native Claims Settlement Act, the 
BLM estimates 11.9 million acres are left to survey and patent in order 
to complete the United States' obligation to the ANCSA corporations. In 
2015, the BLM received $22 million in conveyance funding which allows 
the BLM to conduct surveys for two of the 18 tracts conveyed to 
Sealaska on March 6, 2015, pursuant to the 2015 National Defense 
Authorization Act. Additionally, final surveys will be completed for up 
to six village corporations, allowing their entitlement to be finalized 
by patent in approximately 3 years. BLM will complete ``14(c)'' surveys 
for three village corporations and ten Native Allotment parcels. Focus 
will shift from fulfilling entitlement by interim conveyance to 
finalizing entitlement by patent. This year BLM already fulfilled 
entitlement, by patent, to seven ANCSA village Corporations with 
another seven village entitlements in the adjudication process. 
Additionally, the BLM anticipates reducing the 9.5 million acres in the 
interim conveyance status by nearly 500,000 acres by the end of the 
fiscal year.
    As noted, the Department's fiscal year 2016 budget requests $22 
million to continue Alaska land conveyances. With this funding, the BLM 
plans to approve 1,000 miles of prior cadastral field surveys, complete 
700 miles of new field surveys, and process 20 Native allotment claim 
applications. In addition, approximately 600,000 acres of Native 
corporation entitlements and 800,000 acres of the State of Alaska 
entitlement will be patented. Transfer of title through ``Interim 
Conveyance'' or ``Tentative Approval'' will continue to be completed, 
as necessary, for Native corporations and the State of Alaska.
    Question. The Federal Government and the State are joint partners 
in the Alaska Mapping Initiative, with the goal of improving the 
topographic maps for the State. Some of the current topographic maps 
are over 50 years old and vital to aviation safety, land use planning, 
and research. The President's fiscal year 2016 budget proposes to 
increase funding for this program by $1.3 million.
    Would the Department please provide an update on where we are with 
the Mapping Initiative, how much of the State now has updated maps, and 
how long will it take to complete?
    Answer. The Alaska Mapping Initiative is an interagency effort to 
update base geospatial information in Alaska. The Alaska Mapping 
Executive Committee (AMEC) coordinates Federal agency activities and 
works in partnership with the Alaska State government. This effort will 
result in statewide high-resolution geospatial coverage for elevation, 
hydrography, topographic mapping, and other thematic datasets.
    The Department appreciates the support of the Alaska delegation in 
this effort. Chaired by the Department of the Interior Assistant 
Secretary for Water and Science, the AMEC has led the Alaska Mapping 
Initiative since 2012, with an initial focus on acquiring statewide 
high-resolution elevation data derived from interferometric synthetic 
aperture radar (ifsar). To date, ifsar elevation data collection has 
been completed for approximately 53 percent of the State. In July 2014, 
the AMEC endorsed a 3-year strategy (2015-2017) to complete the 
remaining ifsar elevation data acquisition for Alaska, contingent on 
funding. Progress to date is the result of very effective coordination 
and cooperation among the partners and funding contributions from 
participating Federal agencies and the State of Alaska.
    The State of Alaska is acquiring SPOT satellite imagery and will 
have complete State coverage by 2016. The U.S. Geological Survey will 
use the topographic contours derived from the ifsar elevation data in 
conjunction with the SPOT satellite imagery, high-resolution National 
Hydrography Dataset information, and other base geospatial information 
to create updated 1:25,000-scale topographic maps. These maps will 
replace the outdated and less accurate topographic maps which currently 
exist for Alaska.
    To date, approximately 1,100 new maps have been completed, for 
which new ifsar elevation data and imagery have been acquired, 
representing 10 percent of the State, with another 600 maps scheduled 
for production in 2015. The current goal is to complete the coverage of 
Alaska with new maps over the next 6-8 years.
    Question. I have expressed my frustration with the mitigation 
requirements associated with the Greater Moose's Tooth (GMT) permitting 
process. Getting through the permitting process on public lands is not 
easy by design. There are strict environmental laws that industry must 
comply with. This is reasonable. However, I am concerned that the 
uncertainties the Greater Moose's Tooth faced in the process are going 
to be formalized and exported to the lower 48 via Secretarial Order 
3330 on mitigation, which was signed on October 31, 2013.
    As we saw with Greater Moose's Tooth, the Department is free to 
accept voluntary mitigation efforts as part of the permitting process. 
Please describe to me the legal justification for the idea that the 
Department has the authority to require them to make a payment into a 
mitigation fund in order to authorize an otherwise permissible activity 
under the Federal Land Policy Management Act (FLPMA).
    Answer. As discussed in the GMT1 Record of Decision (ROD), BLM's 
authority for management of NPR-A and to issue land use authorizations 
for the GMT1 project comes from several statutes, including the Federal 
Land Policy and Management Act (FLPMA), the Naval Petroleum Reserves 
Production Act (NPRPA), Title VIII of the Alaska National Interest 
Lands Conservation Act (ANILCA), and section 28 of the Mineral Leasing 
Act. Each of these statutes and their implementing regulations require 
BLM to consider impacts to the environment and other resources and uses 
during processing of applications for land use authorizations. 
Additionally, each of these authorities provide broad authority for BLM 
to impose measures requiring applicants to mitigate adverse impacts to 
resources and uses, including measures that avoid or reduce impacts and 
measures that will compensate for unavoidable impacts.
    The congressional declaration of policy for FLPMA requires that, 
``the public lands be managed in a manner that will protect the quality 
of scientific, scenic, historical, ecological, environmental, air and 
atmospheric, water resource, and archeological values . . . .'' (43 USC 
Sec. 1701(a)(8)). The FLPMA directs that ``[i]n managing the public 
lands the Secretary shall, by regulation or otherwise, take any action 
necessary to prevent unnecessary or undue degradation of the lands'' 
(43 USC Sec. 1732(b)).
    The NPRPA provides BLM with additional mitigation authority 
specific to oil and gas operations in the NPR-A, directing the 
Secretary to ``include or provide for such conditions, restrictions, 
and prohibitions as the Secretary deems necessary or appropriate to 
mitigate reasonably foreseeable and significantly adverse effects on 
the surface resources of the National Petroleum Reserve in Alaska . . . 
.'' (42 USC Sec. 6506a(b)).
    Title VIII of ANILCA further requires Federal land managing 
agencies to evaluate impacts of proposed actions on subsistence uses, 
and provides that any action which would significantly restrict 
subsistence uses cannot be approved unless the agency takes reasonable 
steps to minimize impacts to subsistence uses and resources resulting 
from such actions (16 USC Sec. 3120).
    Additionally, section 28 of the Mineral Leasing Act provides BLM 
with authority to issue rights-of-way across Federal lands for oil and 
natural gas pipelines and related facilities, and provides that such 
rights-of-way ``shall be subject to such terms and conditions as the 
Secretary or agency head may prescribe regarding extent, duration, 
survey, location, construction, operation, maintenance, use, and 
termination'' (30 USC Sec. 185). Specific to environmental protection, 
subsection 28(h) of the Act requires BLM to impose stipulations which 
are ``designed to control or prevent damage to the environment 
(including damage to fish and wildlife habitat)'' and that ``protect 
the interests of individuals living in the general area of the right-
of-way or permit who rely on the fish, wildlife, and biotic resources 
of the area for subsistence purposes'' (30 USC Sec. 185(h)).
    According to BLM interim draft mitigation policy (IM 2013-142),\1\ 
offsite compensatory mitigation is generally appropriate when the 
agency determines that impacts cannot be mitigated to an acceptable 
level onsite, and it is expected that the land use authorization as 
proposed would not be in compliance with law or regulations, or 
consistent with land use plan decisions or other important resource 
objectives.
---------------------------------------------------------------------------
    \1\ Interim Policy, Draft--Regional Mitigation Manual Section--
1794, June 13, 2013. http://www.blm.gov/wo/st/en/info/regulations/
Instruction_Memos_and_Bulletins/national_
instruction/2013/IM_2013-142.html.
---------------------------------------------------------------------------
    In the case of the GMT1 development project, the BLM conducted a 
public review process under the National Environmental Policy Act 
(NEPA) and determined the preferred alternative for the project would 
result in major impacts to subsistence hunting and fishing activities 
that were not able to be mitigated through changes to siting or project 
design. In order to address these unavoidable impacts and allow 
development to proceed, the BLM worked with the project applicant to 
identify compensatory mitigation measures to offset those impacts 
consistent with these authorities. These funds will be directed, as 
part of a broader regional mitigation strategy process, to projects 
that will compensate for impacts to subsistence hunting and fishing 
opportunities caused by the project.
    Question. The Secretarial Order describes new policies, handbooks, 
and manual updates that will result from the Order. What information is 
the Department using to formulate these changes and when can we expect 
to see them?
    Answer. The Department is in the process of updating policies, 
handbooks, and manuals to provide greater consistency in how mitigation 
is planned for and considered in the process of permitting projects. 
The Department and its bureaus are taking as inclusive an approach as 
possible for this effort. We rely on the insight and knowledge of our 
managers, specialists, and biologists on the ground that have a long 
history of permitting projects and collaborating with project 
proponents, States, communities, and other stakeholders. Such input is 
based on best-practices examples that have worked on the ground. Where 
appropriate, we have also sought public input. For example, BLM took 
the unusual step of publishing its interim draft mitigation guidance in 
2013, to allow for public input and coordination with stakeholders and 
partners. The BLM's final mitigation guidance, due out this summer, has 
improved as a result of this engagement. Likewise, FWS plans to propose 
their mitigation policy revision in the Federal Register for public 
comment and review. Other policies, such as a new Departmental Manual 
codifying Secretarial Oder 3330, have also been informed by discussions 
with bureaus receiving public comment and from direct discussion with 
stakeholders and project proponents.
    Question. Projects across the Department's holdings have different 
mitigation ratios. What is the mechanism that will determine what the 
mitigation ratios are for a specific project?
    Answer. Compensatory mitigation measures are analyzed as part of a 
project's public review under NEPA and are based on the impacts the 
project would have on important resources as defined by FLPMA, the 
Endangered Species Act (ESA), and other statutes. As mentioned above, 
the BLM and FWS are currently updating guidance that will bring greater 
consistency to the assessment of mitigation measures, though local 
conditions and public input will remain important considerations, and 
project decisions will continue to be made with the relevant line 
officer. In order to bring further predictability to mitigation and 
permitting decisions, the Department implements landscape strategies 
for areas of intensive development or special resource concern. For 
example, FWS routinely works with partners and stakeholders to 
implement Habitat Conservation Plans and Candidate Conservation 
Agreements that provide for conservation of species while providing 
assurance to developers and landowners. Similarly, BLM is working to 
develop regional mitigation strategies for Solar Energy Zones under the 
Western Solar Plan and routinely works with oil and gas companies to 
define mitigation measures for field-wide development plans. With these 
strategies, BLM is able to provide prospective developers with 
knowledge of where best to site projects as well as the certainty of 
foreseeable compensatory mitigation requirements, e.g. ratios, etc., if 
projects produce residual impacts. A similar regional mitigation 
strategy has been undertaken pursuant to the ROD for the GMT1 project, 
which will provide greater predictability for subsequent development 
projects in the northeastern portion of the NPR-A.
    Question. There seems like potential for a tremendous amount of 
subjectivity. Given the idea that the Department thinks there is the 
authority to require this, how would you determine a mitigation ratio, 
particularly in the context of a project proponent who is not 
volunteering this?
    Answer. For decades, the Department has determined mitigation 
measures for a range of resources and project types. When determining 
appropriate mitigation for a proposed project on Federal land, the BLM 
bases the need for compensatory mitigation on what is necessary and 
effective to offset residual impacts to resources considered important, 
scarce, or fragile as typically identified by applicable statute, 
regulation, or land use plan. In identifying appropriate mitigation 
measures, the BLM ensures there is an appropriate connection between 
the reasonably foreseeable impacts of a land use activity and the 
benefits of the compensatory mitigation. In some cases, the rough 
proportionality of mitigation requirements may be expressed in terms of 
ratios to reflect: (1) the fact that mitigation is not always 
successful (e.g.. if on average restoration succeeds only half the 
time, then a 2:1 ratio is needed to offset expected losses of habitat), 
and (2) differences in conservation value (e.g., 2 acres of low value 
habitat must be enhanced for each acre of high value habitat lost).
    The updated policies referenced above will provide greater 
consistency to how project managers consider these impacts and account 
for them in project reviews under NEPA. The Department is also 
improving how it plans for mitigation in advance of individual project 
reviews, including through the use of landscape strategies. Where these 
strategies exist, they provide project developers with an upfront and 
predictable framework for how the Department seeks to manage a 
particular set of resources or type of impact. For example, in the case 
of the Dry Lake Solar Energy Zone (SEZ) Regional Mitigation Strategy, a 
ratio of less than 1:1 was recommended to account for the solar 
development impacts to a landscape in a previously disturbed state. 
Generally, these strategies can provide increased certainty for 
developers in advance of project reviews.
    Question. And, in the context of the Order, what qualifies as a 
``large development'' project that requires the Order to ``effectively 
offset impacts?'' Will projects not classified as ``large'' be exempt 
from the mitigation order?
    Answer. The development and consideration of landscape-scale 
strategies and plans will help to inform planning and permitting 
decisions relating to infrastructure projects of all types and sizes. 
Because large infrastructure projects often result in large-scale and 
complex impacts to the land and water resources, landscape-scale 
strategies and plans are particularly useful for these projects. Such 
strategies and plans can also be valuable when working to mitigate the 
impacts of a smaller project, such as a mine expansion or the siting of 
an oil and gas well. Opportunities identified by landscape-scale 
mitigation strategies and plans should be available to all appropriate 
development projects, regardless of size or type.
    Question. I am concerned that, rather than creating efficiencies, 
the actions the Department is planning to take related to the Order 
will add duplicative requirements, give too much flexibility to agency 
personnel and create situations where ``surprising'' requirements at 
points in the process create an atmosphere of undue leverage. This will 
make responsible development on public lands even more difficult than 
it already is. What steps is the Department taking to promote clarity 
and predictability for both investors and agency personnel so that 
plans can proceed with less uncertainty and potential for conflict?
    Answer. Improving consistency, predictability, and timeliness of 
permit decisions is a primary goal of this effort. Advancing 
development of landscape strategies department-wide and ensuring 
consideration of the mitigation hierarchy up-front in the project 
planning process can dramatically increase operational certainty. As 
noted in a report to the Secretary, ``identifying mitigation needs 
early in the project development process can provide greater 
predictability and certainty in the design, development and 
implementation of projects by avoiding the need for late project 
revisions and analyses, and by providing for coordination and 
consistency among agencies. This can serve to reduce project costs and 
increase the confidence of investors, purchasers, and other project 
beneficiaries in the ultimate success of the project.'' \2\
---------------------------------------------------------------------------
    \2\ A Strategy for Improving the Mitigation Policies and Practices 
of the Department of the Interior, April, 2014. http://www.doi.gov/
news/upload/Mitigation-Report-to-the-Secretary_FINAL_
04_08_14.pdf.
---------------------------------------------------------------------------
    With established landscape strategies, project developers are 
better armed with a comprehensive description of management objectives 
for resources that may be impacted by their project. As a result, 
project proponents can better design and develop projects that avoid 
and minimize risk, and then compensate for unavoidable impacts when 
they do occur. More transparency and coordination will save time and 
money for developers and agencies alike.
    In the case of the GMT1 project, the proposal represented the first 
oil and gas production from Federal lands in the National Petroleum 
Reserve-Alaska. As noted above, the ROD for that project provides for 
the development of a regional mitigation strategy that will allow the 
public to weigh in on how to direct the existing compensatory 
mitigation efforts for the GMT1 project and will provide greater 
predictability and efficiency for subsequent projects located in the 
northeastern portion of the NPR-A.
    Question. On February 23, 11 State regulators sent a letter to 
Office of Surface Mining Director Joseph Pizarchik. The letter 
expressed concern from the State regulators that the Office of Surface 
Mining had not ``provided for meaningful participation by the 
cooperating agency States in preparation of the [Environmental Impact 
Statement] and it seems unlikely the agency will do so prior to release 
of the Draft EIS and proposed rule this spring.''
    Does the Department disagree with their assertion that there has 
not been ``meaningful participation by cooperating agency State?'' If 
not, how has ``meaningful participation'' been achieved?
    Answer. When Office of Surface Mining Reclamation and Enforcement 
(OSMRE) prepared the 2008 stream buffer zone rule, it did not include 
State coal mine regulators as cooperating agencies. However, when OSMRE 
began the development of the stream protection rulemaking to replace 
the now vacated 2008 rule, OSMRE, for what is believed to be the first 
time in its history, invited State regulators to be cooperating 
agencies. The cooperating State agencies provided meaningful input and 
comments. Their help is appreciated and has been used by OSMRE. OSMRE 
provided a report to the States on the status of the rulemaking in 
October 2014. The OSMRE also recently invited the cooperating State 
agencies to meet in late April regarding the analysis in the current 
draft EIS, specifically with regard to the issues they raised 
previously.
    Question. What is the schedule for release of the Draft EIS and 
proposed rule?
    Answer. Dependent on the timing of that review, the OSMRE hopes to 
release the Draft EIS in fiscal year 2015. The draft EIS is with the 
Office of Information and Regulatory Affairs at OMB.
    Question. What is the total amount of funding spent by the OSM in 
development of the Draft EIS and proposed rule?
    Answer. OSMRE has spent approximately $9.5 million to develop the 
rule, including the evaluation of multiple options, review of current 
science and technology, and consultation with stakeholders.
    There have been significant advances in science and technology 
since the promulgation of the 1983 rule that were not addressed in the 
2008 Stream Buffer Zone Rule. Incorporating the most up-to-date 
science, technology, and knowledge concerning the effects of surface 
coal mining is essential to developing maximally beneficial modern 
regulations. In addition, the 2008 Stream Buffer Zone Rule did not 
provide objective standards for certain important regulatory decisions, 
such as a requirement to collect baseline information about pre-mining 
conditions so the regulatory authority can accurately assess the 
impacts of mining and assure proper reclamation. Therefore, OSMRE began 
work to modernize its regulations, incorporating new science, 
technology, and knowledge in areas that can improve, update, and more 
completely implement the Surface Mining Control and Reclamation Act 
(SMCRA).
    Many scientific advances have occurred in the past 30 years. Under 
SMCRA, OSMRE can and should consider those advances when modernizing 
its rules. That is one reason why, combining OSMRE's on-the-ground 
experience with peer-reviewed academic study, they are modernizing 
rules and using the best available technology and science to improve 
mining practices to minimize and mitigate environmental damage from 
surface coal mining. A revised rule that incorporates modern science, 
technology, and knowledge will enable the coal industry to do a better 
job of reclaiming land and restoring natural resources, and in many 
cases, will lead to that work being done in a more economical and 
efficient manner.
    Question. I appreciate the Secretary's pledge to cooperate in 
providing answers to my further questions regarding the Revised 
Comprehensive Conservation Plan and Final Environmental Impact 
Statement for the Arctic National Wildlife Refuge (``CCP'' and ``FEIS'' 
respectively). Will the Secretary appoint a senior Departmental 
official (e.g. your Chief of Staff, Mr. Tommy Beaudreau) to discuss the 
most productive means to provide my questions to the Department such 
that you may provide thorough and complete answers promptly?
    Answer. Tommy Beaudreau, the Chief of Staff, will be the point 
person.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. It is my understanding that the North American Wetlands 
Conservation Fund received $100 million as part of the BP settlement 
following the Deepwater Horizon oil spill. Is it true that these funds 
are intended to be used for the purposes of wetlands restoration and 
conservation located in States bordering the Gulf of Mexico to benefit 
migratory species and other wildlife affected by the oil spill? Is it 
true that of the total $100 million in funding received, approximately 
$30 million has been spent, and only 25 percent of it has been spent in 
the Gulf States? Is it true that these funds are supposed to help the 
areas most affected by the oil spill, and there is no shortage of 
public and private entities in Mississippi ready to help leverage these 
funds? If so, do you expect this trend to continue with the remaining 
expenditure of the funds?
    Answer. Through the Deepwater Horizon oil spill settlement with BP, 
the North American Wetlands Conservation Fund (Fund) will receive $100 
million over a 6-year period, made in annual payments that started in 
2013, and were available to spend in 2014. As of March 1, 2015, 
$40,041,992 has been deposited into the Fund under the court-approved 
payment schedule. Of this amount, and consistent with 16 U.S.C 
4407(a)(1), $1.4 million (4 percent of the total deposited to date) has 
been used for administrative costs consistent with the authorizing 
statute, and nearly $3 million has been withheld due to sequestration. 
Settlement funds will continue to be withheld due to sequestration 
through fiscal year 2023, unless subsequent legislation is enacted 
eliminating sequestration.
    After considering sequestration and administrative costs, the 
settlement has provided $35.6 million to the North American Wetlands 
Conservation Act (NAWCA). The settlement requires these funds be used 
``for the purpose of wetlands restoration and conservation projects 
located in Gulf Coast States or otherwise designed to benefit migratory 
bird species and other wildlife and habitat affected by the Macondo oil 
spill.'' To date, the North American Wetlands Conservation Council 
(Council), which oversees the Fund, has followed this direction 
carefully, funding projects with the greatest potential benefit to 
migratory bird species affected by the oil spill and where habitats 
supporting those species are facing urgent and widely acknowledged 
threats in Gulf States as well as others. For example, the Prairie 
Pothole Region of the Upper Midwest is undergoing a land conversion 
crisis and migratory birds affected by the spill are highly vulnerable 
to further losses of vital breeding habitat. Furthermore, the 
settlement funding is subject to the North American Wetlands 
Conservation Act (Act), which requires no less than 30 percent and no 
greater than 60 percent of available funds must be spent in Canada and 
Mexico. The Council decided to allocate the minimum (30 percent) to 
Canada and Mexico and is directing these funds to benefit species 
affected by the spill.
    Based on that guidance, approximately $18 million (50 percent) has 
been awarded to projects in the United States and $5.2 million (15.5 
percent) to projects in Canada and Mexico. During its April 29, 2015 
meeting, the Migratory Bird Conservation Commission will consider 
awarding $3.8 million for eligible domestic projects and $8.6 million 
will remain in the Fund to support future projects.
    The total funding available from the settlement for domestic 
projects is $70 million, less the costs of administration and 
sequestration. Of this amount, $22 million has been identified for 
projects in the five Gulf States, including two projects in 
Mississippi. The Council will continue to prioritize and fund high 
quality projects in Gulf States, in addition to those high quality 
projects that will provide the greatest benefit to affected migratory 
bird species, such as those within the prairie potholes.
    Question. Residents and private landowners in South Mississippi are 
very concerned about the proposed rule published by the U.S. Fish and 
Wildlife Service designating the Black Pinesnake as ``threatened'' 
under the Endangered Species Act. The prohibitions and conservation 
actions that could be required as a result of this designation, should 
the rule become final, could have a negative impact on one of the main 
economic drivers in the area--timber and forestry production. I 
certainly hope the U.S. Fish and Wildlife Service will take this into 
consideration moving forward. Should the Service issue a final rule on 
this determination, what type of restrictions would be placed on timber 
harvesting activities? If forestry management activities are 
drastically reduced on the DeSoto National Forest, how will the 
counties containing large tracts of Federal land be compensated for the 
lack of revenue from timber production?
    Answer. The U.S. Fish and Wildlife Service (FWS) proposed listing 
the black pinesnake as threatened under the Endangered Species Act 
(ESA), with a special rule under authority of section 4(d) of the Act 
that would tailor regulatory prohibitions to only those necessary for 
conservation of the species. The proposed special rule reduces the 
regulatory burden on landowners, while promoting forestry activities 
that provide an overall conservation value to the snake. Activities 
such as riparian and longleaf pine restoration, herbicide treatment, 
burning, and thinning are covered under the special rule, meaning those 
activities could continue to take place if the conservation measures in 
the rule are followed.
    The black pinesnake depends on open longleaf pine habitats. As a 
result, much of the forested land in southern Mississippi is not 
considered black pinesnake habitat. Forest management activities in 
areas not occupied by the snake would be unaffected by the proposed 
listing. In areas where the black pinesnake is known to occur, the FWS 
is working with the forest industry and landowners to minimize and 
avoid potential impacts to the snake from activities such as 
clearcutting and stump removal.
    The FWS worked closely with the U. S. Forest Service as they 
prepared the proposed listing of the black pinesnake to find 
conservation measures that will protect the snake while allowing for 
timber harvest and other forest management activities. If the proposed 
listing is made final, FWS does not expect forest management activities 
to be reduced on the DeSoto National Forest. Under the Forest Plan, 
activities in the DeSoto National Forest would accelerate timber 
management treatments, such as thinning, to restore the longleaf pine 
ecosystem. These efforts will have a number of benefits, including 
restoring habitats for the black pinesnake and other threatened and 
endangered species also present in the DeSoto National Forest, such as 
the red-cockaded woodpecker, gopher tortoise, and dusky gopher frog.
    Question. Pearl River Elementary School on the Mississippi Choctaw 
Reservation was originally built to serve approximately 300 students, 
is now serving more than 700. On February 27, the Government 
Accountability Office released a document stating that ``information on 
the physical condition of Bureau of Education schools is not complete 
or accurate as a result of longstanding issues with the quality of data 
collected by the Department''. Does the administration's fiscal year 
2016 budget proposal provide adequate funding to improve data 
collection and address the construction needs at Bureau of Indian 
Education schools? What steps is the Department taking to help tribes 
recruit quality teachers, particularly in States where funding 
available to pay teachers at tribal schools is significantly lower than 
public school teacher salaries?
    Answer. Indian Affairs is in the process of finalizing the 
verification of an up-to-date, accurate database of deferred 
maintenance needs for each school. The data update and verification 
process is important at all times, but especially critical at this 
point in time when Indian Affairs is developing a list of schools 
eligible for the next list of BIE-funded schools slated for replacement 
and renovation. In fiscal year 2014 and fiscal year 2015 to date, BIA 
has actively conducted outreach to notify schools to update information 
in the deferred maintenance database. BIA has also provided technical 
assistance where necessary. The fiscal year 2016 education construction 
budget request includes $1.3 million to continue triennial facilities 
condition assessments at BIE schools. Going forward, the scope of the 
condition assessments will expand to provide a more in-depth assessment 
to assure data accuracy, deferred maintenance, and programmatic needs 
for BIE schools.
    To address the education construction needs, the fiscal year 2016 
budget includes $45.5 million for replacement of the last two schools 
on the 2004 Replacement School Priority List and to begin planning and 
design of the schools on the next replacement and renovation priority 
list, currently under development. In addition, the fiscal year 2016 
education construction request revitalizes the Facilities Component 
Replacement Program (FCRP) and funds it at $11.9 million. This program 
is an important part of the Indian Affairs' plan to bring all BIE 
schools into good condition. The FCRP identifies individual buildings 
on a school campus where it is more cost effective to replace the 
building than repair it but where the whole campus does not need 
replacement. Indian Affairs is currently re-establishing criteria for 
buildings to be prioritized for FCRP. The fiscal year 2016 budget 
request also includes significant increases for education facilities 
improvement and repair projects and for education employee housing 
repair.
    BIE-funded schools are operated by the BIE or under grant by a 
tribe or tribal organization. BIE is only able to report on strategies 
at BIE-operated schools. Tribally controlled schools are not required 
to report to BIE regarding any aspects of tribal operation of a BIE-
funded school. With respect to strategies to recruit quality teachers, 
BIE is partnering with Tribal Colleges and Universities to create 
programs to align aspiring teachers with BIE-funded schools. BIE is 
also working with the National Board for Professional Teaching 
Standards to provide teachers an opportunity to work on a multi-year 
program to yield an advanced teaching credential to exceed State 
requirements. Tribally controlled BIE-funded schools may work with the 
BIE to participate in either of these strategies.
                                 ______
                                 
               Question Submitted by Senator John Hoeven
    Question. Due to the growth in western North Dakota, this part of 
our State has experienced a dramatic cost of living increase while 
Federal wages in these areas have remained the same. I have urged OPM 
to address these salary issues for Federal employees in western North 
Dakota, and I understand that OPM is waiting until it can review a 
special rate request for North Dakota from the Department of the 
Interior before taking any action. When will your department complete 
its special rate request?
    Answer. The Department of the Interior submitted a special pay rate 
request for mission critical energy occupations, including positions in 
the Bakken region, to OPM in November 2014. The Department has been 
working together with OPM and other Federal employers in the Bakken 
region to collectively address recruitment and retention issues there 
through the use of available pay flexibilities. These flexibilities 
include recruitment, retention, and relocation incentives as well as 
special rates of pay. Federal agencies have been using recruitment and 
retention incentives in the short term. OPM recently approved agency 
requests to establish special wage rates for around 160 skilled trades 
positions in the region, including certain Department of the Interior 
positions, and is engaged in an interagency coordination of agency 
special rate requests for certain General Schedule positions. OPM 
informs us that it expects to complete its interagency coordination and 
respond to agencies with a decision on the special rate requests in the 
near future.
                                 ______
                                 
              Questions Submitted by Senator Bill Cassidy
    Question. Recently you stated that States on the Atlantic will have 
a chance to pull themselves out of the running for possible Federal 
approval of offshore drilling.
    What are your thoughts here? Your quote suggests that States along 
the coast have a role?
    Based on the logic you just gave, how can you then claim that 
revenue shouldn't have been shared with States since they do have a 
role and an impact in hosting energy production offshore?
    Answer. States clearly have a role in decisions about whether and/
or how to develop Federal energy resources off their shores, both as a 
statutory matter and as a general principle. In fact, section 18 of the 
Outer Continental Shelf Lands Act (OCS Lands Act) requires the 
Secretary to consider eight factors in determining the timing and 
location of Outer Continental Shelf (OCS) oil and gas activities. One 
of those factors is ``(a)(2)(F) laws, goals, and policies of affected 
States which have been specifically identified by the Governors of such 
States as relevant matters for the Secretary's consideration;.'' For 
the Secretary to consider such information, comments from affected 
States are solicited and considered by the Bureau of Ocean Energy 
Management (BOEM) during the Program development process. Per section 
18(c)(1) of the OCS Lands Act, the Secretary of the Interior shall 
invite and consider suggestions for the leasing program ``. . . from 
the Governor of any State which may become an affected State under such 
proposed program . . .''.
    How the Federal revenues generated from those Federal leasing and 
development decisions are spent is a different matter, and the 
administration stresses its commitment to ensuring American taxpayers 
receive a fair return from the sale of public resources and that 
taxpayers throughout the country benefit from the development of 
offshore energy resources owned by all Americans. Any revenue sharing 
of OCS revenues must be provided for by statute. The Secretary of the 
Interior does not have the authority to expand, extend, or otherwise 
revise revenue-sharing provisions. Congress would have to implement 
legislation to authorize any new revenue sharing arrangements. The 
administration proposes to work with the Congress on legislation to 
redirect funds currently allocated for GOMESA revenue-sharing payments 
to select States from Gulf of Mexico oil and gas leases. The 
administration proposes to redirect these payments, which are set to 
expand substantially starting in 2018, to programs that provide broad 
natural resource, watershed and conservation benefits to the Nation, 
help the Federal Government fulfill its role of being a good neighbor 
to local communities, and support other national priorities. Such 
programs could include the Land and Water Conservation Fund, Payments 
in Lieu of Taxes, State and Tribal Wildlife Grants, Federal coastal 
restoration and resilience programs, and other national priorities.
    Question. The Department recently proposed the Draft Proposed 
Program for the 2017-2022 OCS 5-Year Leasing Program. Given that the 5-
Year OCS Leasing Program development process involves multiple 
iterations and is designed to whittle down the areas under 
consideration for leasing at each stage of the process, can you explain 
the decision to remove areas from consideration in certain planning 
areas without having the benefit of a full environmental analysis or 
compatibility study?
    Answer. The Draft Proposed Program (DPP) analyzed all 26 planning 
areas and reflects a balanced proposal that would make nearly 80 
percent of the undiscovered technically recoverable resources available 
while protecting special areas and reducing potential multiple-use 
conflicts. The options in the DPP include sales in the offshore areas 
that have the highest oil and gas resource potential, highest industry 
interest, and are off the coasts of States that expressed a strong 
interest in potential OCS energy exploration. The selection of these 
areas also considered potential environmental impacts, stakeholder 
concerns, and competing uses of ocean and coastal areas. Public 
involvement is an important step in the development of the Program and 
will help the Department determine whether and how it should be further 
refined in the next stages of 5-Year Program development.
    Using authority granted in section 12(a) of the OCS Lands Act, 43 
U.S.C 1341(a), the President withdrew certain areas within the Beaufort 
and Chukchi Seas to protect areas of critical importance to subsistence 
use by Alaska Natives, as well as for their unique and sensitive 
environmental resources. The majority of the withdrawn areas have a 
long history of being deferred in 5-Year Programs and lease sales. Even 
with these withdrawals, the DPP contains 90 percent of the undiscovered 
technically recoverable resources in the Beaufort and Chukchi Seas.
    The DPP proposes a sale in the Program at least 50 miles offshore 
the coasts of Virginia, North Carolina, South Carolina, and Georgia in 
a portion of the Mid-Atlantic and South Atlantic Planning Areas. This 
option allows for consideration of a targeted area with resource 
potential, while limiting potential impacts to the environment and 
other ocean uses. The 50-mile coastal buffer was included for the 
Atlantic sale to minimize many multiple use conflicts, such as those 
from Department of Defense activities, renewable energy activities, and 
commercial and recreational fishing, while making available the vast 
majority of potential resources in this area. Further environmental 
analysis regarding minimizing potential impacts will be performed as 
part of the 5-Year Programmatic Environmental Impact Statement.
    Question. In 2010, the Atlantic was not open for leasing and 
Congress had a moratorium for the Eastern Gulf of Mexico (EGOM). BOEM 
announced in March 2010 that the 2010-2017 5-Year Program would include 
lease sales in the Atlantic and some additional portions of the Eastern 
Gulf of Mexico contingent on Congress lifting the EGOM moratorium. 
After the Macondo incident, those plans were scrapped. You have now 
proposed opening the Atlantic, but refuse to consider the EGOM. More is 
understood about the EGOM's potential resources and because of the 
proximity to the Central Gulf of Mexico the infrastructure is also 
there. Why did you not include the EGOM is the draft plan using the 
same contingency that was proposed in 2010?
    Answer. The vast majority of the Eastern Gulf of Mexico (EGOM) is 
under congressional moratorium and is unavailable for leasing 
consideration through June 30, 2022, pursuant to the Gulf of Mexico 
Energy Security Act of 2006.
    With regard to the Atlantic OCS, this area has not been under 
Presidential withdrawal since July 14, 2008, and has not been subject 
to congressional moratoria since October 1, 2008.
    Question. The Department included one sale for the Atlantic in the 
draft proposed program. Unfortunately, the sale has been put at the end 
of the planning period, 2021. Given the frontier nature of the 
Atlantic, it would be useful to have the sale earlier in the plan to 
give time for companies to analyze data and use the information from 
that sale to inform the Department for the 2022-2027 program. Why did 
you push the sale so late into the program?
    Answer. Current geological and geophysical (G&G) information 
regarding the oil and gas resources potentially available in the Mid- 
and South Atlantic Planning Areas is based on older data collected in 
the 1970s and 1980s. Significant advances in instrumentation and 
technology for the acquisition and analysis of G&G data have been made 
in the intervening decades. The proposed sale is late in the Program to 
afford companies more time to collect and analyze data on the location 
of potential hydrocarbon resources. It also allows the government more 
time to consider this data, as well as gather new information on the 
environment and multiple use conflicts. As part of the lease sale 
process, the Department must also prepare an Environmental Impact 
Statement of the sale area, which will require additional time in an 
area not recently analyzed.
    Question. In your announcement for the Draft Proposed Program (DPP) 
you were quick to point out that you can narrow or take away areas 
altogether away. With such a limited proposal to begin with it's hard 
to understand how or why you would limit it any further especially 
given all of the support for offshore drilling in the regions you've 
proposed? Are you, through your current authority able to expand the 
DPP or are you only able to subtract leasing acreage?
    Answer. The DPP analyses examined and compared all 26 of the 
planning areas. As required under section 18 of the OCS Lands Act, the 
Secretary must consider and balance critical needs, and this resulted 
in the decision to include a schedule of 14 potential lease sales in 8 
planning areas in the Draft Proposed Program, which would make nearly 
80 percent of the undiscovered technically recoverable resources 
available.
    If an area or sale is not included at the DPP stage, it cannot be 
added back into the DPP without analyzing the option and rebalancing 
the entire DPP decision. Therefore, the DPP decision is the broadest 
Program decision available for further consideration, per the OCS Lands 
Act. As additional comments are received, an Environmental Impact 
Statement is prepared, and section 18 criteria are further analyzed and 
balanced, the Department will refine the DPP analysis and develop a 
Proposed Program.
    Question. Why are you allowing environmental groups to dictate the 
5-year leasing program? I ask because last year the Request for 
Information had a 45-day comment deadline as dictated by the planning 
process but yet, the Department extended the deadline an additional 15 
days and I must assume it was because there weren't enough comments 
submitted from anti-drillers.
    Answer. The Bureau of Ocean Energy Management (BOEM) granted the 
extension of the comment period in response to requests from several 
State governments along the Atlantic coast. BOEM recognizes the 
importance of input from stakeholders and the public and wanted to be 
responsive to requests to provide additional time for those States in 
particular that had not had OCS activity in many years to understand 
the process in order to provide critical information, recommendations, 
and concerns to help apprise the Department on preparation of the DPP.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
    Question. The report language in the fiscal year 2014 and fiscal 
year 2015 Omnibus included the Committees' continuing support for park 
partnerships and urged the Department of the Interior ``to continue 
reassessing recent policy interpretations and review procedures to 
promote the greater use of partnerships'' . . . that have historically 
proven beneficial to national parks and partners.
    What further steps have you taken to adopt policies and an internal 
organization addressing management of truly collaborative operating and 
conservancy relationships in order to encourage the shared stewardship 
and funding so essential for the National Park Service to fulfill its 
mission?
    Answer. The National Park Service (NPS) encourages shared 
stewardship and funding through its partnership authorities and 
policies. In June 2014, the NPS issued a policy memorandum to help the 
NPS connect with broader philanthropic communities, offer updated tools 
to help current partners engage new and more diversified philanthropic 
partners, support more robust engagement of partners for the upcoming 
Centennial in 2016, and provide the framework and standards for testing 
philanthropic practices that could be implemented more broadly. The 
National Defense Authorization Act of 2015 also set guidelines for the 
NPS to accept and acknowledge donations to parks and programs; which is 
intended to help generate private donations in advance of the 
Centennial. Additionally, NPS Director's Order 21--Partnerships and 
Philanthropic Stewardship--is currently being revised and will be 
released in the coming months. The NPS is also working with the 
National Park Foundation to support its multi-million dollar capital 
campaign in support of the 2016 Centennial of the NPS.
    The fiscal year 2015 Appropriations Act included $10.0 million for 
the NPS Centennial Challenge program, an innovative public-private 
partnership program that requires a 1:1 non-Federal match to accomplish 
high priority projects in national parks. The NPS received over 200 
project submissions, with many projects leveraging more than 50 percent 
in donations. The fiscal year 2016 NPS budget proposal seeks to build 
upon fiscal year 2015 enacted by requesting an additional $40.0 million 
in discretionary funding, as well as a mandatory proposal for $100.0 
million annually over 3 years, to provide additional resources for this 
cost share program for these signature projects.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                      national park service budget
    Question. I was pleased that Congress authorized the Manhattan 
Project National Historical Park to honor important American scientific 
and military achievements. I understand that the Department's fiscal 
year 2016 budget request includes $180,000 in start-up funding for this 
new park, and that you are now working with the Department of Energy to 
determine future management needs. Can you explain how the planning 
process with DOE will work and what you expect the outcome to be? How 
will you ensure that this new park has the resources it needs to 
operate?
    Answer. The National Park Service (NPS) and the Department of 
Energy (DOE) are working on a memorandum of agreement on the roles of 
the two agencies in administering the facilities proposed to be 
included as part of the Manhattan Project National Historical Park. The 
purpose of the park is ``to improve the understanding of the Manhattan 
Project and its legacy through interpretation of the historic 
resources''. The park offers an excellent opportunity for people from 
around the world to visit these historic sites and gain a deeper 
understanding of the history and world-changing events that happened as 
part of the Manhattan Project as well as engage in learning about 
innovations in science, engineering, and technology.
    The new park will preserve and interpret the historic properties at 
three major sites associated with the Manhattan Project: Los Alamos, 
New Mexico, where the scientific laboratory that designed and tested 
the bomb was located; Oak Ridge, Tennessee, where facilities were built 
to produce enriched uranium; and Hanford, Washington, dedicated to the 
production of plutonium. To help identify future management needs, an 
interagency team conducted site visits and public meetings at Oak 
Ridge, Tennessee March 25-26, 2015. Site visits and public meetings 
will take place in Hanford, Washington April 14-16, 2015, and Los 
Alamos, New Mexico June 3-5, 2015.
    The Department of the Interior is committed to working with DOE, as 
well as engaging with State, county, local and other stakeholders 
during the planning process. As the planning and discussions on the 
memorandum of agreement proceed, NPS, in concert with DOE, will 
continue to evaluate operating priorities for the park.
    Question. What is the Park Service's long-term strategy to address 
your maintenance backlog? With respect to the Centennial Challenge, how 
does the Park Service plan leverage its Federal funds with partner 
contributions to specifically address capital needs?
    Answer. The NPS strategy to address deferred maintenance needs 
provides for the long-term sustainability of essential NPS assets by 
prioritizing capital investment funding for the most important assets, 
such as historic buildings and mission critical infrastructure. The 
fiscal year 2016 President's budget request includes an increase of 
$242.8 million in discretionary funding and a proposal to create a 
mandatory appropriation funded at $300.0 million annually for 3 years 
to address the deferred maintenance backlog on the NPS' highest 
priority non-transportation assets. Overall, the Centennial Initiative, 
including discretionary and mandatory proposals, will allow the NPS to 
ensure all of its highest priority non-transportation park assets are 
restored and maintained in good condition over 10 years.
    The fiscal year 2015 appropriation provided $10.0 million for the 
Centennial Challenge program. The evaluation criteria for Centennial 
Challenge project proposals prioritizes projects that leverage higher 
rates of partner contributions and address critical high priority 
deferred maintenance needs. The NPS is nearing final selection of the 
fiscal year 2015 Centennial Challenge projects, many of which support 
deferred maintenance or related needs, such as accessibility of 
facilities for visitors with disabilities. While the NPS can and will 
demonstrate success with many of the deferred maintenance and capital 
improvement projects to be accomplished with partner support, donors 
and partners ultimately determine the projects they wish to support. It 
is unlikely that a match can be found for many of the lower-profile, 
but no less critical, projects that keep the parks open for visitors, 
such as repaving parking lots or fixing wastewater treatment systems.
    Question. Can you please provide additional detail about the 
investments you are proposing in your budget to put ``Every Kid in a 
Park''? How will the dollars be allocated, and how will you measure 
success for this initiative? In particular, how are you going to reach 
out to urban and underserved communities to get those children and 
their parents connected with national parks?
    Answer. As part of President Obama's commitment to protect our 
Nation's unique outdoor spaces and ensure that every American has the 
opportunity to visit and enjoy them, he launched the ``Every Kid in a 
Park'' initiative to provide all fourth grade students and their 
families with free admission to national parks and other Federal lands 
and waters during the 2015-2016 school year. This initiative will help 
us build lasting partnerships with kids, parents, and educators far 
beyond that timeframe, cultivating a better understanding and 
appreciation of the spectacular natural and cultural resources and 
recreational experiences offered in the national park system. Some of 
these students will come as part of organized field trips, and others 
will come with their families and friends.
    The fiscal year 2016 President's budget request prioritizes 
engaging youth and expanding programs and services to help support this 
initiative, including a request for $20 million to support 
transportation and visitor services for Every Kid in a Park outings. 
This request, combined with the public-private partnerships being grown 
and strengthened across the Federal family, will allow this initiative 
to build off successful models already in existence for connecting 
young people to the outdoors. The request includes $11.5 million to 
transport more than one million students from Title I elementary 
schools in urban areas to nearby national parks and $8.5 million to 
support park-level youth engagement coordinators.
    To track usage and measure success, NPS will work with schools and 
partner organizations that run youth outings to report their visits. 
Over time, this initiative can help develop better baseline data for 
youth visitation to national parks and other public lands and waters.
    While the U.S. Department of Education does not have outdoor 
education statutory authorities, it has offered to help NPS connect 
with education partners and will be working in a communications 
capacity to get the word out about this opportunity to State, local, 
and school officials; teachers; key non-profit groups; and education-
related associations.
                   energy development on public lands
    Question. I understand that the Department is close to completing 
work to revise and implement a new rule increasing disclosure and 
strengthening operating requirements where hydraulic fracturing is 
being used on public lands. Can you update us on the current timeline 
for the rule?
    Are there aspects of the inspection program in your budget request 
that will specifically help to ensure that hydraulic fracturing on 
Federal lands is properly regulated?
    Answer. On March 20, 2015, the Department of the Interior (DOI) 
finalized its hydraulic fracturing (HF) regulations. The rule provides 
a strong framework for the environmentally safe and economically viable 
development of onshore oil and gas resources. It addresses key issues 
such as the protection of water resources, well-bore integrity, and the 
public disclosure of materials used in the process, among other things. 
Until now there have been no Federal rules in place that specifically 
address the increasingly complex nature of hydraulic fracturing 
processes taking place on public and tribal lands. The new rule updates 
regulations that are more than three decades old. It will be effective 
90 days after the date of Federal Register publication, which was March 
26, 2015.
    The 2016 budget request for the BLM inspection program does not 
contain a specific component related to hydraulic fracturing, as the 
implementation of the rule will be part of the oil and gas program's 
overall oversight responsibilities. However, the budget request would 
provide the resources to enable the BLM to fulfill all of its annual 
inspection responsibilities, which include better oversight of 
hydraulic fracturing operations on Federal and tribal lands, along with 
other deficiencies identified by the February, 2011, GAO report on the 
Federal management of oil and gas resources. Instituting the 
administration's proposed new inspection fees, which are analogous to 
fees already charged for offshore operations, is a key component of 
this effort.
                       bureau of indian education
    Question. I appreciate the large increases in your budget request 
for tribal education programs, and I want to commend you for making 
Indian education programs such a high priority for the Department. In 
particular, I'm glad to see that your budget includes a $59 million 
increase for school construction and renovation programs in Indian 
Country. Can you talk more about how these funds will be used, and how 
you will allocate them to ensure that the highest priority 
infrastructure needs get met?
    Answer. The Indian Affairs fiscal year 2016 budget proposal 
includes a total of $133.2 million for BIE Education Construction, an 
increase of $58.7 million over the fiscal year 2015 budget. Within this 
request is $45.5 million, an increase of $25.3 million, for replacement 
of the last two schools on the 2004 Replacement School Priority List 
and to begin planning and design of schools on the next school 
replacement and renovation priority list currently under development. 
In addition, the fiscal year 2016 education construction request 
revitalizes the Facilities Component Replacement Program (FCRP) with a 
request of $11.9 million. This program is an important part of the 
Indian Affair's plan to bring all BIE schools into good condition. The 
FCRP identifies individual buildings on a school campus where it is 
more cost effective to replace the building than repair it but where 
the whole campus does not need replacement. Indian Affairs is currently 
re-establishing criteria for buildings to be prioritized for FCRP. The 
fiscal year 2016 budget request also includes $68.2 million for 
education facilities improvement and repair projects, an increase of 
$17.7 million, and $7.5 million for education employee housing repair, 
an increase of $3.7 million.
    Question. What is the administration's plan to update a new school 
construction priority list to address the needs of other schools?
    Answer. In fiscal year 2014 and fiscal year 2015 to date, BIA has 
been actively conducting outreach to notify schools to bring their 
database of deferred maintenance needs up to date, providing technical 
assistance where necessary. Indian Affairs is in the process of 
verifying the updated database to ensure accurate data is used to 
determine initial eligibility for a new school replacement and 
renovation priority list. After verification of the data, Indian 
Affairs will calculate each school's Facility Condition Index (FCI) to 
determine schools in ``poor'' condition, one of the requisites for 
eligibility for replacement or major renovation. Another way to be 
eligible is for a school to be both 50 years or older and educating 75 
percent or more of students in portables, regardless of its FCI.
    Schools eligible to apply for the School Replacement and Renovation 
Program will be invited to complete applications for consideration. 
Applications received from these schools will be evaluated by using the 
method determined by a Negotiated Rule Making Committee. After a review 
and scoring of the applications by the Review Committee, the top 10 
schools will be invited to present to the Review Committee in a Public 
Meeting. After the presentations, the Review Committee will identify 
five projects and forward their recommendations to the Assistant 
Secretary--Indian Affairs for acceptance. Indian Affairs anticipates 
the new School Replacement and Renovation priority list identifying 
five schools will completed by the end of July 2015. After the list is 
finalized, DOI will present the list to Congress.
    Question. Ensuring access to technology is a critical way to make 
sure American Indian and Alaskan Native students receive the world-
class education that they deserve, no matter where they live. I was 
pleased to see that your budget includes $34 million in new funding to 
connect tribal schools to broadband.
    How many schools do you expect to reach with these funds? Do you 
expect this to be a multi-year investment? What is your ultimate goal 
for this funding?
    Answer. The budget proposal requests a $34.2 million increase as 
part of a 3 year plan for all schools and dormitories in the BIE-funded 
school system to achieve the ConnectED standard for bandwidth and have 
access to prevailing technology for Internet connectivity. Most of the 
request will fund non-recurring charges for bandwidth upgrades over 3 
years. After the upgrades are accomplished, some funding will be needed 
for increased operations costs due to higher monthly broadband costs 
and to upgrade information technology as it becomes outdated.
    The overarching goal of the plan to provide BIE-funded schools with 
bandwidth and information technology, including computers and other 
mobile devices, is to enrich the education experience for Native 
American students and to provide a means for students and teachers to 
have access to online testing, distance learning, and multimedia 
resources.
    Question. Infrastructure programs are important--but to be 
effective they must be accompanied by efforts to recruit and retain 
good teachers and improve curriculum. Can you tell us more about the 
$10 million in your request to fund school reform efforts? How do these 
funds fit into the administration's larger vision for reforming the 
Bureau of Indian Education? What metrics will you use to define 
success?
    Answer. The $10.0 million increase requested for Education Program 
Enhancement will be used for multiple purposes. The additional funding 
will allow BIE to provide targeted support and interventions focused on 
school improvement efforts and other activities that promote student 
achievement. School improvement efforts include establishing a tribally 
managed school reform plan and expansion of curriculum areas like 
Native language immersion. Other activities include the consolidation 
of professional development delivery to multiple schools, content 
specialists providing technical assistance to schools and tribes, and 
programs to improve the quality of instruction and leadership across 
the school systems.
    We agree that efforts to recruit and retain good teachers are 
fundamental to BIE reform efforts. BIE is partnering with Tribal 
Colleges and Universities to create teacher pipelines to BIE-funded 
schools. BIE is also working with the National Board for Professional 
Teaching Standards to provide teachers an opportunity to work on a 
multi-year program that yields an advanced teaching credential that 
goes above and beyond the State requirements.
    These efforts with the tribes, teachers, and partners fit into the 
administration's larger vision to transform the Bureau of Indian 
Education into a 21st century education system grounded in both high 
academic standards and tribal values. The reform focuses on five areas 
which include (1) having highly effective teachers and principals in 
the schools, (2) building a responsive organizational environment, (3) 
promoting educational self-determination for Tribal Nations, (4) 
fostering partnerships, and (5) developing a budget that is aligned 
with and supports BIE's mission of tribal capacity-building.
    We are working now to establish a strong set of indicators and an 
evaluation strategy to assess and refine all of the components of the 
transformation effort. We will conduct ongoing evaluation of school 
administration, best practices, graduation rates, and school facility 
condition, however, the real measure of success will be in the 
achievement of the students themselves.
    Question. Secretary Jewell, the last official Johnson O'Malley 
student count was taken in 1995. Relying on 20-year old data is no way 
to run a program, which is why the Appropriations Committee has been 
asking the Bureau of Indian Education to release a new student count 
for the Johnson O'Malley program for several years. Yet we have had 
little success. Where are you in the process of developing the new 
Johnson O'Malley student count? When can we expect the Department to 
release those figures to the public, and what is your plan to engage 
tribes once they are released?
    Answer. The updated Johnson-O'Malley (JOM) count was electronically 
delivered to Congress on March 30, 2015. The total 2014 JOM student 
count is 341,126. The BIE announced four tribal consultation sessions 
on the JOM count in the March 4, 2015 Federal Register. There will be 
two on-site consultations and two Webinar-teleconference consultations. 
These consultations are scheduled between March 31 and April 10. During 
these consultations, the BIE will ask for tribal input on how to ensure 
the count data is accurate and to discuss funding distributions under 
the new count.
    Question. While I appreciate the emphasis on K-12 education in this 
request, I am concerned that tribal colleges haven't received the 
attention that they deserve. Overall, your budget includes flat funding 
for tribal colleges--and it does nothing to provide forward funding for 
the remaining tribal colleges that do not receive it. These schools 
have struggled to operate without funding certainty under continuing 
resolutions, and I am told that it was particularly hard for them to 
keep their doors open during the 2013 shutdown. The administration has 
supported forward funding for other tribal colleges in the past. Will 
you work with me to find a solution to provide forward funding for 
these remaining schools?
    Answer. BIE understands how difficult multiple CRs and uncertainty 
at the start of the fiscal year can be in operating an educational 
institution. We would like to work with you to address this problem. 
The 28 tribally controlled colleges and universities that receive 
funding through BIE under authority of Public Law 95-471, the Tribally 
Controlled Community Colleges and Universities Act of 1978, as amended, 
have been forward funded since 2010. The other four colleges funded in 
the BIE budget, two BIE owned and operated colleges (Haskell Indian 
Nations University and Southwestern Indian Polytechnic Institute) and 
two tribal technical colleges (United Tribes Technical College and 
Navajo Technical College) are not forward funded.
                land and water conservation fund (lwcf)
    Question. Can you talk about your experience using the LWCF program 
as a conservation tool for the Department? As you seek to address the 
many pressing needs of the Department of the Interior, how do you see 
the role of LWCF funds in supporting local economic needs and 
addressing agency management challenges?
    Answer. The Land and Water Conservation Fund--established with 
overwhelming and bipartisan support by Congress 50 years ago--is one of 
the most important conservation tools we have to safeguard the Nation's 
natural areas, water resources and cultural heritage, and to provide 
recreation opportunities to all Americans. Americans care deeply about 
our outdoor heritage, want to enjoy and protect it, and are willing to 
take collective responsibility to protect it for their children and 
grandchildren. Over its 50 year history, the Fund has protected 
conservation and recreation land in every State and supported tens of 
thousands of State and locally driven projects through grants to 
States.
    Dollar for dollar, the Land and Water Conservation Fund (LWCF) is 
one of the most effective conservation programs we have. For every 
$1.00 invested in Federal land acquisition through LWCF, there is a 
return of $4.00 in economic value from natural resource goods and 
services, as published in Return on the Investment from the Land and 
Water Conservation Fund, 2010, a study conducted by the Trust for 
Public Land. LWCF frequently leverages significant funding match from 
States, cities and other partners. The Land and Water Conservation Fund 
also plays an important economic role for local communities. Recreation 
activities in national parks, wildlife refuges, forests, marine 
sanctuaries, and other federally managed lands and waters contributed 
approximately $51 billion and 880,000 jobs to the U.S. economy in 2012, 
as published in the Federal Interagency Council on Recreation, Fact 
Sheet on Outdoor Recreation: Jobs and Income, 2014. Nationally, outdoor 
recreation activities contribute $646 billion to the economy annually 
and support 6.1 million jobs, as published in The Outdoor Recreation 
Economy, 2012, by the Outdoor Industry Association.
    The Department of the Interior LWCF programs work in cooperation 
with local communities, rely on willing sellers, and maximize 
opportunities to partner with private landowners on conservation 
easements where conservation and management objectives can be achieved 
without fee-simple acquisition. Proposed Federal land acquisition 
projects are developed with the support of local landowners, elected 
officials, and community groups.
    Acquisition of inholdings does not generally require additional 
operating costs as no new staff or equipment are required to manage new 
lands within existing boundaries. Occasionally, agencies may incur up-
front costs to remove existing improvements (fences, buildings, etc.) 
from an acquired property. By removing unwanted structures on newly 
acquired land, agencies avoid adding to ongoing operation and 
maintenance requirements.
    In fact, acquisition of inholdings can greatly simplify land 
management for Federal managers and neighboring landowners. Eliminating 
checkerboard ownership within Federal units simplifies nearly every 
aspect of land management:

  --Wildland fire managers can apply appropriate fuels reduction, 
        planned burns, and fire suppression treatments more easily 
        across an unfragmented landscape; fire management is more 
        challenging and costly when private inholdings and developed 
        properties are intermixed with federally managed forests and 
        public lands.
  --Law enforcement and public safety personnel can more easily patrol 
        and respond to emergencies when public ownership is 
        consolidated. An unfragmented unit allows unified signage, road 
        networks, and other infrastructure that will best enable safe 
        public access and allow for the efficient movement of emergency 
        personnel and vehicles to locations frequented by visitors.
  --Recreation managers can more easily provide access for the public 
        to enjoy their public lands. In some cases checkerboard 
        ownership can cause confusion among the public about acceptable 
        land uses, and can restrict the public's ability to access some 
        areas of public land.
  --Natural resource management is simplified in an unfragmented 
        landscape. When checkerboard ownership is eliminated, 
        biologists, geologists and other natural resource professionals 
        can move freely across the land that they are responsible for 
        surveying, and natural resource management actions can be 
        applied more efficiently across a landscape in single 
        ownership.

    An example of management efficiency gained through LWCF acquisition 
is the: St. Vincent National Wildlife Refuge (NWR). St. Vincent NWR is 
an island off the panhandle coast of Florida in Apalachicola Bay, off 
the Gulf of Mexico. Acquisition of a 5-acre tract on the mainland of 
Apalachicola Bay provides permanent deep water mooring with a launch 
site, secure parking and equipment storage. An important point is that 
dredging and channel maintenance are allowed in Apalachicola Bay, 
activities that are prohibited in other nearby areas. The lease at 
Indian Pass, the current deep water mooring and launch site, was ending 
and would not be renewed as the owners were looking to develop the 
mainland at the launch site. In addition, the upland portion of the 
leased Indian Pass site had been significantly reduced due to severe, 
continuing, and progressive erosion that the landowner failed to 
address.
    As the refuge is only accessible by water, the new deep water 
mooring and launch site enables site management and reduces staff 
travel time from the refuge office to transfer supplies and heavy 
equipment. Daily boat access for St. Vincent NWR staff is required 24/7 
for all island management activities, such as sea turtle nest 
monitoring and protection, habitat management, prescribed burning, 
hunting and fishing management and protection, and response to visitor 
emergencies.
                      wildland fire budget reforms
    Question. I am very pleased to see that your budget request again 
proposes to pay for a portion of fire suppression funding with a new 
disaster cap adjustment. The disaster cap adjustment is the key to 
breaking the cycle of fire borrowing and putting an end once and for 
all to the need to steal funds from land management programs to pay for 
emergency firefighting needs. Many of the programs that we borrow 
funding from to fight fires are the same programs that create a more 
resilient landscape to resist wildfire. Can you talk about how 
important this proposal is to the administration's overall vision for 
reducing the threat of wildfires?
    Answer. Fire is a normal occurrence that is beneficial to 
landscapes when managed properly, however, population growth near 
forests and rangelands, past management practices, and changing climate 
have dramatically increased fire risk and fire costs. For the past 
couple of decades we have budgeted for fire suppression using the 
rolling average of suppression costs of the prior 10 years. When those 
funds are insufficient, as is often the case, funding for real-time 
firefighting costs is provided by transfers and borrowing of funds from 
other fire management activities (e.g. fuels management) and other 
Forest Service and Department of the Interior programs and activities. 
This practice of transferring and borrowing funds has undermined 
Department of the Interior and Forest Service programs, including 
critically important forest and rangeland management and fire risk 
reduction activities. The cap adjustment proposal provides a mechanism 
to fund the extraordinary costs of approximately 1 percent of our 
wildland fires by providing an alternative to transferring and 
borrowing funds from other programs, including programs important to 
reducing future fire risk. This proposal treats extraordinary fires in 
the same way the Nation treats other natural, unpredictable disasters. 
The President's budget includes a wildfire suppression cap adjustment 
of $200.0 million for the Department of the Interior for this purpose. 
These funds would only be available under those extraordinary 
instances.
    The budget cap adjustment proposal is designed to improve the 
wildland fire management program's ability to adequately invest in 
preparedness, forest and rangeland health, and other fire risk-
reduction work. The new funding approach would stabilize the fuels and 
prevention programs' ability to plan and execute treatments mitigating 
the costs of future wildfires. Under this approach diverting funds from 
these important programs to pay for wildfire costs would be eliminated.
                          wildlife trafficking
    Question. Secretary Jewell, the demand for ivory and rhino horns 
has skyrocketed. Congressional Research Service (CRS) reports that a 
rhino horn is worth more than $50,000 per kilogram--more than even gold 
and platinum. The profit incentive is just staggering--so it's no 
surprise that terrorist networks such as al-Shabab and the Lord's 
Resistance Army are turning to poaching to support their operations. 
Can you tell us what the Department is doing to address the market 
demand that is fueling wildlife destruction AND financing terrorist 
organizations?
    Answer. The Department, particularly through the Fish and Wildlife 
Service (FWS), is actively engaged in addressing poaching and wildlife 
trafficking throughout the entire trade chain. As identified in the 
recently released implementation plan for the National Strategy on 
Combating Wildlife Trafficking, we are undertaking activities 
supporting all three strategic priorities for the U.S. Government: 
strengthening enforcement, reducing demand for illegally traded 
wildlife, and expanding international cooperation and commitment. We 
are supporting on-the-ground protection of wild populations of 
elephants, rhinos and other species targeted by wildlife traffickers 
through grant programs that provide training and material support to 
rangers and other foreign enforcement officials. We are stationing 
special agents overseas, engaging in bilateral and multilateral 
wildlife trafficking investigations, supporting demand reduction 
efforts overseas, and working through the Convention on International 
Trade in Endangered Species (CITES) and other international agreements 
to build capacity to combat wildlife trafficking and hold countries 
accountable when they fail to live up to their commitments. 
Domestically, we are strengthening our ability to effectively regulate 
illegal trade in elephant ivory while also implementing a partnership-
driven demand reduction campaign.
    Question. The Fish and Wildlife Services has so far placed one 
special agent in Bangkok to help combat wildlife trafficking, and plans 
to place four more this year in Tanzania, Botswana, Peru, and Asia. The 
fiscal year 2016 request would place five more agents overseas. How 
will these agents help combat wildlife trafficking? What has been the 
experience in Bangkok? What is being done at embassies without special 
Fish and Wildlife staff?
    Answer. The FWS agents are training African and Asian wildlife 
officers at the International Law Enforcement Academies in Botswana and 
Thailand, increasing the intelligence shared among law enforcement 
agencies with common missions, enhancing the targeting of illegal 
wildlife shipments, and utilizing wildlife detector dogs to support 
frontline wildlife inspectors and special agents.
    The special agent stationed at the U.S. Embassy in Bangkok, 
Thailand, has been addressing wildlife trafficking issues throughout 
Southeast Asia. He has supported not only U.S. based investigations, 
but also provided expertise to other U.S. law enforcement agencies, a 
variety of foreign law enforcement agencies, and supported training 
efforts. Working closely with the Department of State, Bureau of 
International Narcotics and Law Enforcement Affairs, Bangkok, the 
special agent has briefed several other regional embassies on wildlife 
trafficking issues and is supporting local efforts.
    The FWS anticipates that the deployment of additional special 
agents will expand enforcement capabilities to other regions by working 
with other embassies to combat illegal wildlife trafficking.
    Question. The administration's National Strategy for Combating 
Wildlife Trafficking included nearly 200 specific tasks for the Fish 
and Wildlife Service and partners at the Departments of Justice, 
Commerce, Homeland Security, Agriculture, Treasury, and State. How will 
the administration track progress on this massive plan so that in the 
future, we can target resources to what has worked best?
    Answer. As indicated in the recently released implementation plan, 
we will continually evaluate our progress, both by assessing the extent 
to which we are able to achieve the specific objectives identified in 
the National Strategy and by looking more broadly at the effectiveness 
of these objectives to advance our strategic priorities and the 
ultimate goal of ending wildlife trafficking. Robust and effective 
enforcement of wildlife trafficking laws at home and abroad, measurably 
reduced poaching and other trafficking in wildlife, and increases in 
wildlife populations will provide overarching measures of our efforts 
to combat wildlife trafficking. The Task Force agencies will meet 
regularly to assess progress toward these objectives, with the lead 
agencies responsible for ensuring that progress remains on track for 
each objective. The Task Force will prepare and make public progress 
assessments on an annual basis. These annual assessments should guide 
the allocation of resources to areas where we have made substantial 
progress and where resources can have the greatest impact.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. As I mentioned at the hearing I am concerned about 
maintaining economic incentives for private landowners to own and 
maintain forest habitat, which is essential to the northern long-eared 
bat, while we address the real cause of the problem, which is white-
nose syndrome. I would like to know what support, financially or 
through technical assistance, your Department can provide at the 
Federal and State level for the inventory and monitoring of maternity 
colonies and hibernation sites, and to study the status and trends of 
these populations that we still know so little about?
    Answer. Prior to the advent of white-nose syndrome (WNS), 
population information for bat species not federally listed under the 
Endangered Species Act (ESA) was generally only collected, if collected 
at all, as part of monitoring efforts for listed species. At this time, 
no standardized, rangewide monitoring program exists for North American 
bat species not federally listed, including the northern long-eared 
bat. The FWS, U.S. Geological Survey, National Park Service, U.S. 
Forest Service, and other partners, have been working to develop the 
North American Bat Monitoring Program, or NABat, which is an 
international interagency program designed to monitor bat distributions 
and abundances on public and private lands, and provide trend data at 
State, provincial, tribal, regional, and rangewide scales. The FWS has 
contributed over $1.2 million to develop and implement this program, 
with additional contributions from other Federal and private partners.
    Since WNS began afflicting bat populations but prior to the 
establishment of NABat, the Department has used several funding sources 
to provide financial and technical assistance for bat inventories, 
monitoring, and status assessments. These sources include agency base 
funds for species conservation and inventory and monitoring programs. 
The FWS also provides grants from programs, such as the State and 
Tribal Wildlife Grants, which can be used to support bat conservation. 
In addition, FWS has provided over $4 million since 2011 in grants to 
State wildlife agencies for the WNS National Response, which includes 
inventory, monitoring, and technical assistance efforts to determine 
the population status and trends of bat species. For example, in 2014 
the FWS WNS program funded and provided technical assistance for a 
population monitoring project of an important bat hibernaculum near 
Dorset, Vermont.
    Question. Does the Department have any resources available to 
support conservation measures on private or public lands that would 
reduce non-white-nose syndrome threats to surviving and still-
unaffected populations to aid in the recovery of the species?
    Answer. Federal agencies receive funds for species and habitat 
conservation, some of which have been directed to address non-WNS 
threats to the species. The FWS funding sources to support conservation 
measures on private and non-Federal lands include species conservation 
funding within the Resource Management account, Partners for Fish and 
Wildlife and Coastal program funding, Cooperative Endangered Species 
Conservation grants to States, and State and Tribal Wildlife Grants. 
Also, the FWS provides technical assistance to private landowners for 
planning and implementing conservation measures.
    Question. I am pleased to see your budget requests to address 
wildlife trafficking, particularly the increase for law enforcement 
support for efforts on the ground in Africa and here in the U.S. to 
combat the growing threat from poaching. I hope this leads to better 
prosecution of the perpetrators of these horrendous crimes. Last 
February, the Fish & Wildlife Service released new prohibitions on the 
import, export, and sale of products containing ivory. While I am very 
supportive of the administration's work to combat illegal wildlife 
trafficking, I would not want to see the initial criticism of the 
prohibition threaten its viability in the long run and hamper your work 
to fight wildlife trafficking.
    I would like to know if and when the Department expects to update 
the ivory import/export restrictions to address the concerns that have 
been raised about de minimis amounts of ivory and also concerns from 
those who might not be able to provide some of the documentation that 
the Department has required for family heirlooms and antiques?
    Answer. We have made great strides to significantly restrict 
commercial trade in elephant ivory within the U.S. and across our 
borders--including a ban on all commercial ivory imports-- making it 
harder for criminals to disguise the source of poached and trafficked 
ivory.
    The FWS issued Director's Order 210 on February 25, 2014, which re-
affirmed enforcement of the African Elephant Conservation Act 
moratorium and addressed how the FWS would enforce the Endangered 
Species Act (ESA) antiques provision. Following issuance of the 
Director's Order, the FWS met with a wide array of stakeholders, 
including individuals and groups representing antiques dealers, auction 
houses, musical instrument makers, museums, and orchestras. As a result 
of these constructive meetings, we revised the Director's Order to 
address several of their concerns, allowing a broader class of 
noncommercial items to be imported into the United States and 
clarifying how we intend to enforce the ESA antiques provision, while 
still maintaining our goal of ensuring the United States is not 
contributing to poaching of elephants and illegal trade in ivory.
    We also improved our ability to protect elephants, rhinos, and 
other CITES-listed wildlife by publishing a final rule in June 2014, 
revising our CITES regulations, including ``use after import'' 
provisions that limit sale of CITES-listed wildlife within the United 
States. The result of this rule is that items, such as elephant ivory, 
imported for noncommercial purposes may not subsequently be sold within 
the United States.
    We are currently working on a proposed rule, which will be made 
available for public comment, to revise the ESA special rule for the 
African elephant. This proposed rule will include proposed limitations 
on the interstate sale of African elephant ivory. As part of this 
rulemaking effort, we also intend to propose common-sense exceptions 
for activities and items that we do not believe are contributing to the 
ongoing poaching crisis.
    Question. I was encouraged to see the news in late February that 
China is taking some steps to reign in its exploding ivory trade by 
placing a 1 year ban on carved ivory imports. However, I remain 
concerned that the Chinese are not doing nearly enough to address the 
high stockpile if ivory already in their country.
    How are you encouraging other countries to reduce demand for ivory 
that is the driver of the skyrocketing poaching levels we are seeing in 
Africa?
    Answer. We are working on several fronts to address the demand for 
ivory in other countries, including supporting non-governmental 
organizations who are working on demand reduction campaigns in China, 
Vietnam, and other key consumer countries through our species and 
regional grants programs, engaging in bilateral discussions with China 
and other countries about how we can work cooperatively to address 
wildlife trafficking, and ensuring that these countries are following 
through on their CITES commitments.
    For example, CITES requires several key consumer countries of 
particular concern with regard to illegal ivory trade, including China, 
Malaysia, the Philippines, Thailand, and Vietnam, to develop and 
implement National Ivory Action Plans (NIAPs). The United States played 
a key role in negotiating these mandates and serves, as the North 
American regional representative and as the Vice Chair, on the CITES 
Standing Committee, the body responsible for evaluating these NIAPs and 
their implementation. On March 19, the CITES Standing Committee 
recommended a suspension of trade with Lao People's Democratic 
Republic, Nigeria, and the Democratic Republic of Congo for failure to 
develop adequate NIAPs.
    By lending support and ensuring that commitments are met, we 
believe that we are making substantial progress in several key consumer 
countries.
    Question. What more do we need to do to increase/support 
prosecution of these wildlife trafficking cases in this country?
    Answer. The 2016 President's budget sufficiently supports FWS 
efforts to prosecute wildlife trafficking, including a $4 million 
increase for Law Enforcement (OLE) to combat wildlife trafficking. With 
this funding, the FWS will hire 25 new personnel to focus on daily 
detection, interdiction, and investigation, both domestically and 
abroad, of illegal commercial exploitation. The 2016 budget also 
requests another $4 million increase to hire a class of 20 new special 
agents. Additional special agents are needed to address officer safety, 
efficiency of cases, and staffing shortfalls that affect OLE's ability 
to perform ongoing investigations. After training, the new agents will 
be deployed to the field for direct interdiction of illegal commercial 
exploitation by organized criminal elements.
    Current violations for most wildlife trafficking laws carry only a 
maximum 1 year sentence and minimum fines. Additional tools are needed 
as a means of deterrence to combat global wildlife trafficking, 
including increasing the penalties for conducting illegal trade. 
Granting the Federal Government the authority to prosecute a criminal 
violation of the Endangered Species Act, the African Elephant 
Conservation Act, or the Rhinoceros and Tiger Conservation Act with 
more stringent fines and sentencing would further deter would-be 
poachers.
    Question. The White River National Fish Hatchery (WRNFH) in Bethel, 
Vermont, is a fine Federal facility in very good physical and 
operational condition. The main mission of the WRNFH has sunset, 
however, with discontinuation of the Connecticut River Atlantic Salmon 
Restoration Program. I am aware that the Fish and Wildlife Service is 
exploring a repurposing of this facility, possibly to serve as a 
regional watershed conservation center for the upper Connecticut River 
and Long Island Sound. This makes great sense to me, as I am well aware 
of how well the Fish and Wildlife service does on partnership projects 
and of the significant conservation needs in the Connecticut basin. It 
would be a nationally unique and innovative project.
    Will you support the Northeast Region of the Fish and Wildlife 
Service as they transition the White River National Fish Hatchery to an 
innovative valuable new Federal asset for the region?
    Answer. Thank you for your interest in White River National Fish 
Hatchery (NFH). We sincerely appreciate your support during the years 
we worked to restore the facility after the damage from Hurricane Irene 
in 2011. As you recognize, the current state of the facility and 
infrastructure at White River NFH is excellent. The completed 
renovation has fully restored large-scale fish production capabilities.
    As your inquiry points out, the facility's primary operational 
activity--restoration of Atlantic salmon in the Connecticut River--was 
discontinued several years ago.
    The U.S. Fish and Wildlife Service staff in Vermont is exploring 
opportunities to ensure optimum public benefits accrue from this public 
investment. The FWS is looking forward to determining how to best use 
the White River NFH for hatchery production to support species 
recovery, restoration, and fisheries in New England, and is exploring 
areas where we share a common mission for activities in the Connecticut 
River watershed. We have initiated discussions with others whose 
facilities serve as potential models for addressing dynamic aquatic 
conservation needs and are investigating prospective partnerships where 
benefits can be derived from collaborative or co-located use of the 
assets and infrastructure at White River NFH.
    Evolving conservation challenges require us to be adaptable and we 
support innovative solutions to meet our mission and address aquatic 
conservation goals. Our State, Federal, and other partners are vital to 
developing cohesive and complementary purposes for the National Fish 
Hatchery System and we value their input. Naturally, working with our 
partners is our top priority as we move forward. We will be talking 
more with you and other partners as we continue to explore 
opportunities at White River NFH. Thank you for your support and 
encouragement.

                          SUBCOMMITTEE RECESS

    [Whereupon, at 11:53 a.m., Wednesday, March 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]




</pre></body></html>
